<html>
<title> - THE FUTURE OF UNIVERSITY NUCLEAR SCIENCE AND ENGINEERING PROGRAMS</title>
<body><pre>[House Hearing, 108 Congress]
[From the U.S. Government Printing Office]



 
                    THE FUTURE OF UNIVERSITY NUCLEAR
                    SCIENCE AND ENGINEERING PROGRAMS

=======================================================================

                                HEARING

                               BEFORE THE

                         SUBCOMMITTEE ON ENERGY

                          COMMITTEE ON SCIENCE
                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED EIGHTH CONGRESS

                             FIRST SESSION

                               __________

                             JUNE 10, 2003

                               __________

                           Serial No. 108-12

                               __________

            Printed for the use of the Committee on Science



     Available via the World Wide Web: http://www.house.gov/science






                      U.S. GOVERNMENT PRINTING OFFICE

87-545                       WASHINGTON : 2004
_______________________________________________________________________
For sale by the Superintendent of Documents, U.S. Government Printing Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800, DC area (202) 512-1800 Fax: (202) 512-2250 Mail: stop SSOP, Washington, DC 20402-0001





                          COMMITTEE ON SCIENCE

             HON. SHERWOOD L. BOEHLERT, New York, Chairman
LAMAR S. SMITH, Texas                RALPH M. HALL, Texas
CURT WELDON, Pennsylvania            BART GORDON, Tennessee
DANA ROHRABACHER, California         JERRY F. COSTELLO, Illinois
JOE BARTON, Texas                    EDDIE BERNICE JOHNSON, Texas
KEN CALVERT, California              LYNN C. WOOLSEY, California
NICK SMITH, Michigan                 NICK LAMPSON, Texas
ROSCOE G. BARTLETT, Maryland         JOHN B. LARSON, Connecticut
VERNON J. EHLERS, Michigan           MARK UDALL, Colorado
GIL GUTKNECHT, Minnesota             DAVID WU, Oregon
GEORGE R. NETHERCUTT, JR.,           MICHAEL M. HONDA, California
    Washington                       CHRIS BELL, Texas
FRANK D. LUCAS, Oklahoma             BRAD MILLER, North Carolina
JUDY BIGGERT, Illinois               LINCOLN DAVIS, Tennessee
WAYNE T. GILCHREST, Maryland         SHEILA JACKSON LEE, Texas
W. TODD AKIN, Missouri               ZOE LOFGREN, California
TIMOTHY V. JOHNSON, Illinois         BRAD SHERMAN, California
MELISSA A. HART, Pennsylvania        BRIAN BAIRD, Washington
JOHN SULLIVAN, Oklahoma              DENNIS MOORE, Kansas
J. RANDY FORBES, Virginia            ANTHONY D. WEINER, New York
PHIL GINGREY, Georgia                JIM MATHESON, Utah
ROB BISHOP, Utah                     DENNIS A. CARDOZA, California
MICHAEL C. BURGESS, Texas            VACANCY
JO BONNER, Alabama
TOM FEENEY, Florida
VACANCY
                                 ------                                

                         Subcommittee on Energy

                     JUDY BIGGERT, Illinois, Chair
CURT WELDON, Pennsylvania            NICK LAMPSON, Texas
ROSCOE G. BARTLETT, Maryland         JERRY F. COSTELLO, Illinois
VERNON J. EHLERS, Michigan           LYNN C. WOOLSEY, California
GEORGE R. NETHERCUTT, JR.,           DAVID WU, Oregon
    Washington                       MICHAEL M. HONDA, California
W. TODD AKIN, Missouri               BRAD MILLER, North Carolina
MELISSA A. HART, Pennsylvania        LINCOLN DAVIS, Tennessee
PHIL GINGREY, Georgia                RALPH M. HALL, Texas
JO BONNER, Alabama
SHERWOOD L. BOEHLERT, New York
               KEVIN CARROLL Subcommittee Staff Director
         TINA M. KAARSBERG Republican Professional Staff Member
           CHARLES COOKE Democratic Professional Staff Member
                    JENNIFER BARKER Staff Assistant



                            C O N T E N T S

                             June 10, 2003

                                                                   Page
Witness List.....................................................     2

Hearing Charter..................................................     3

                           Opening Statements

Statement by Representative Judy Biggert, Chairman, Subcommittee 
  on Energy, Committee on Science, U.S. House of Representatives.     9
    Written Statement............................................    10

Statement by Representative Nick Lampson, Minority Ranking 
  Member, Subcommittee on Energy, Committee on Science, U.S. 
  House of Representatives.......................................    11
    Written Statement............................................    12

Prepared Statement by Representative George R. Nethercutt, Jr., 
  Member, Subcommittee on Energy, Committee on Science, U.S. 
  House of Representatives.......................................    12

                               Witnesses:

Dr. Gail H. Marcus, Principal Deputy Director, Office of Nuclear 
  Energy, Science, and Technology, U.S. Department of Energy
    Oral Statement...............................................    13
    Written Statement............................................    15
    Biography....................................................    17

Dr. Daniel M. Kammen, Professor, Energy and Resources Group, 
  Goldman School of Public Policy; Department of Nuclear 
  Engineering, University of California-Berkeley
    Oral Statement...............................................    19
    Written Statement............................................    21
    Biography....................................................    31

Ms. Angelina S. Howard, Executive Vice President of Policy, 
  Planning, and External Affairs, Nuclear Energy Institute
    Oral Statement...............................................    31
    Written Statement............................................    33
    Biography....................................................    42

Dr. James F. Stubbins, Head of the Nuclear, Plasma, and 
  Radiological Engineering Department, University of Illinois-
  Urbana-Champaign (UIUC)
    Oral Statement...............................................    42
    Written Statement............................................    44
    Biography....................................................    56
    Financial Disclosure.........................................    57

Dr. David M. ``Mike'' Slaughter, Director, Center for Excellence 
  in Nuclear Technology, Engineering, and Research; Chair, 
  Nuclear Engineering Program, University of Utah, Salt Lake City
    Oral Statement...............................................    58
    Written Statement............................................    60
    Biography....................................................    65

Discussion.......................................................    66

             Appendix 1: Answers to Post-Hearing Questions

Dr. Gail H. Marcus, Principal Deputy Director, Office of Nuclear 
  Energy, Science, and Technology, U.S. Department of Energy.....    86

Dr. Daniel M. Kammen, Professor, Energy and Resources Group, 
  Goldman School of Public Policy; Department of Nuclear 
  Engineering, University of California-Berkeley.................    92

Ms. Angelina S. Howard, Executive Vice President of Policy, 
  Planning, and External Affairs, Nuclear Energy Institute.......    97

Dr. James F. Stubbins, Head of the Nuclear, Plasma, and 
  Radiological Engineering Department, University of Illinois-
  Urbana-Champaign (UIUC)........................................   102

Dr. David M. ``Mike'' Slaughter, Director, Center for Excellence 
  in Nuclear Technology, Engineering, and Research; Chair, 
  Nuclear Engineering Program, University of Utah, Salt Lake City   109

             Appendix 2: Additional Material for the Record

Statement of Harold L. Dodds, IBM Professor of Engineering and 
  Department Head, Nuclear Engineering Department, University of 
  Tennessee-Knoxville............................................   114

Closing the Nuclear Fuel Cycle for Current and Advanced Energy 
  Production: Actinide Chemistry for Radioactive Waste Disposal, 
  Partitioning, and Transmutation, Washington State University, 
  Department of Chemistry and Nuclear Radiation Center...........   116


   THE FUTURE OF UNIVERSITY NUCLEAR SCIENCE AND ENGINEERING PROGRAMS

                              ----------                              


                         TUESDAY, JUNE 10, 2003

                  House of Representatives,
                            Subcommittee on Energy,
                                      Committee on Science,
                                                    Washington, DC.

    The Subcommittee met, pursuant to call, at 10:07 a.m., in 
Room 2318 of the Rayburn House Office Building, Hon. Judy 
Biggert [Chairman of the Subcommittee] presiding.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                            hearing charter

                         SUBCOMMITTEE ON ENERGY

                          COMMITTEE ON SCIENCE

                     U.S. HOUSE OF REPRESENTATIVES

                    The Future of University Nuclear

                    Science and Engineering Programs

                         tuesday, june 10, 2002
                         10:00 a.m.-12:00 p.m.
                   2318 rayburn house office building

    On Tuesday, June 10, 2003, the Energy Subcommittee of the House 
Science Committee will hold a hearing to examine the future of 
university nuclear science and engineering programs, and how those 
programs might affect the future of the nuclear power industry in the 
United States. This hearing builds upon H.R. 238, the Energy Research, 
Development, Demonstration, and Commercial Application Act of 2003, 
which the Science Committee unanimously approved on April 2, 2003. The 
bill would authorize increased funding to the Department of Energy 
(DOE) for several university-based programs targeted at nuclear science 
and engineering. The structure and funding levels included in the bill 
generally follow the May 2000 recommendations of the Nuclear Energy 
Research Advisory Committee (NERAC), an outside advisory committee to 
the Secretary of Energy. H.R. 238 was subsequently incorporated into 
the omnibus House energy bill H.R. 6, which passed the House and now 
awaits action in the Senate. Any differences with the Senate energy 
bill will need to be resolved in conference.
    It is the Administration's stated policy to encourage the expansion 
of nuclear energy in the United States. Despite this, many of DOE's 
university nuclear science programs continue to receive the same 
funding levels that they have for the last several years, even as other 
portions of the nuclear R&D budget have doubled. The Administration's 
most recent budget request for university programs is shown in Table 1.
    In this hearing, the subcommittee will focus on DOE's support for 
university nuclear science and engineering programs, and the role they 
play in sustaining the U.S. nuclear power industry or allowing it to 
expand. It will explore the following questions:

        1. LHow can we best meet the workforce needs of the future?

        2. LHow should university nuclear research evolve to ensure its 
        vitality? How, if at all, should the federal research and 
        development programs be modified to support these changes?

        3. LHow do we determine the right level of support for 
        university nuclear programs, including infrastructure such as 
        university research reactors?

Nuclear Industry Overview

    With an installed capacity of 98.1 gigawatts, nuclear power now 
provides 20 percent of the electricity generated in the United States. 
Thirty-one states, most in the Eastern half of the United States, are 
home to nuclear power plants, with five states--New Jersey, Vermont, 
New Hampshire, South Carolina and New York--producing the largest 
percentage of their electricity from nuclear power, according to the 
Nuclear Energy Institute (NEI). The Energy Information Administration 
forecasts that nuclear generating capacity will increase slightly by 
2025, to 99.6 gigawatts, due to nuclear life extensions and uprating of 
existing plants. However, with the May 2001 announcement that the U.S. 
Federal Government will ``support the expansion of nuclear energy in 
the United States as a major component of our national energy policy,'' 
\1\ some observers now project a far larger increase in nuclear power. 
For example, if nuclear energy were to remain 20 percent of U.S. 
electricity production, nuclear generation capacity would have to 
increase by more than 60 gigawatts by 2020.\2\
---------------------------------------------------------------------------
    \1\ National Energy Policy, Report of the President's National 
Energy Policy Development Group, May 2001, pp. 5-17.
    \2\ Based on EIA demand forecasts for U.S. electricity in AEO 2003.
---------------------------------------------------------------------------

DOE University Nuclear Energy Programs

    DOE is the sole federal sponsor of university nuclear programs that 
support the university nuclear engineering programs and research 
reactors shown in Figure 1 below. Funding for programs of particular 
relevance to this hearing are shown in Table 1 and described below. 
These programs were authorized by the Committee on Science and are now 
included in H.R. 6, the omnibus energy legislation that passed the 
House on April 11, 2003.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    The Nuclear Energy Research Initiative (NERI) features a 
competitive, investigator-initiated, peer-reviewed selection process to 
fund innovative nuclear energy-related research. Modeled after 
successful research programs, such as those conducted by the National 
Science Foundation and DOE's Office of Science, the NERI program 
solicits proposals from the U.S. scientific and engineering community 
for research at universities, national laboratories, and industry. 
About one third of NERI's funding goes to university researchers.
    University Programs in nuclear science and engineering (identified 
in the DOE budget as the University Reactor Fuel Assistance Support 
[URFAS] Program) include:

        LFellowships: Funds for undergraduate scholarships and graduate 
        scholarships have been shown to help increase student 
        enrollments in nuclear engineering and related programs. DOE 
        fellowship funding in this program has remained constant for 
        six years. The fiscal year 2004 request would support about 25 
        graduate students at research universities.

        LThe Nuclear Engineering and Education Research Program (NEER) 
        was re-funded in fiscal 1998. In 1993, funding for this broad-
        based university science grants program had ceased. Since its 
        renewal, NEER has been a major source of research funding for 
        the academic nuclear science and engineering community. These 
        research grants cover areas of basic nuclear science and 
        engineering research and augment the more application-oriented 
        programs funded through NERI. The NEER program has been funded 
        for the past five years at $5 million, supporting one out of 
        every ten competitive proposals in a given year.

        LInnovations in Nuclear Infrastructure and Engineering (INIE): 
        In 2002, the DOE initiated the INIE program to support regional 
        university research reactor (URR) centers. Seven regional URR 
        consortia, distributed across the country, were selected 
        through an independent peer-review panel for funding. In fiscal 
        year 2002, DOE provided funding for four consortia. The fiscal 
        year 2003 funding did not increase enough to initiate funding 
        for the remaining three URRs. One of these, the University of 
        Michigan, will shut down and decommission its reactor in July 
        2003.

Issues

People: One of the most important questions in considering the 
appropriate size of DOE's university programs is how many nuclear 
scientists and engineers are needed. Clearly, the answer depends in 
large measure on the expected size of the nuclear power industry, which 
currently employs about 2,000 nuclear engineers. If the industry 
expects to grow, the demand for nuclear engineers might be expected to 
grow, too. According to data compiled by the Oak Ridge Institute for 
Science and Education (ORISE), the number of graduates in the field 
declined steadily throughout the 1990s. Also, the number of university 
programs that train students in this area have declined from 87 in 1990 
to 37 in 2001. Furthermore, the American Association for the 
Advancement of Science (AAAS) recently reported that in the next five 
years the U.S. nuclear power industry could lose as many as 30 percent 
of its nuclear engineers to retirement.
    On the other hand, the ability to predict how many employees the 
industry will need is complicated by a number of factors. First, the 
number of engineers needed to run a nuclear power plant has declined. A 
survey conducted last March by an industry consultant found that 
utilities intend to replace only about half of all departing employees, 
making up for the rest by applying new technology, improving processes, 
etc. Finally, there is disagreement about how much the industry will 
grow.
    Also complicating easy predictions of workforce demand is the 
tendency of a large portion of graduating nuclear engineers to find 
employment outside the nuclear power industry (some, for example, work 
for the military while others work in related careers like health 
physics). Conversely, not all employees of the industry have nuclear 
engineering degrees. Nor do they require one, as graduates with other 
technical degrees have successfully made careers in the nuclear 
industry. In fact, a recent report by NEI suggests that the future 
needs of the nuclear industry could be met by such a shift in career 
choice of a mere 0.25 to 0.35 percent of all graduates with other 
technical degrees.
    Other questions regarding the future nuclear power workforce 
involve who will compose it. If the U.S. universities cannot meet the 
demand for skilled graduates, the industry may be forced to turn to 
foreign students, which could raise concerns about security. Also, the 
overwhelming number of nuclear engineers in the workforce today is 
white and male. It is unclear how the culture of the industry will need 
to change if more women enter the field and how those changes will 
affect the industry.
    Finally, another important question any evaluation of DOE's 
university programs raises is who should bear the responsibility for 
workforce training--the government, the industry, or some combination 
of the two.

Ideas: The health of the nuclear research enterprise can be measured by 
the number and quality of new ideas in the field. Fewer students and 
graduates can mean fewer new ideas and ways to cope with important 
issues such as waste disposal and nuclear proliferation. For example, 
there are currently only two university professors that have published 
papers on the use of nuclear energy for producing hydrogen. How the 
U.S. encourages more effort in such innovative new areas could have 
important implications for the success of government initiatives, such 
as the making the transition to a hydrogen economy. A number of 
questions remain to be answered: In what ways can the government most 
economically encourage new ideas and research? What role is there for 
matching funding requirements, whether from states, industry, or the 
academic community? How do we determine the right level of government 
support for these efforts?

Tools: The nuclear research and education community needs the tools--
the facilities and equipment--necessary to carry out its work. How many 
facilities universities need to train students and conduct research is 
unclear. One the one hand, the number of university research reactors 
declined from 64 research reactors in the 1960s, to 27 in 2002 (see 
Figure 1 for the current locations of university reactors). On the 
other hand, many of the remaining reactors operate well below capacity. 
Universities continue to contemplate reactor shutdowns for a variety of 
reasons, not the least of which is low utilization by the university 
community. Low utilization, however, could result from several causes: 
antiquated equipment that has outlived its usefulness, a lack of 
resources for utilization, or simply a decline in demand generally. 
Some experts have even questioned the importance of university reactors 
to training the nuclear workforce of tomorrow, pointing out that 
numerous successful and well respected nuclear engineering programs do 
not have an on-campus reactor, and some campuses have a reactor but no 
nuclear engineering program. Again, a number of questions remain 
unanswered: What is the right number and distribution of research 
reactors? Is the research enterprise best served, as it was in the 
past, by many small reactors, each owned by an individual university; 
or by a few larger facilities shared by a number of institutions? If 
the latter, how will smaller colleges and universities fare? Would a 
shared approach lead to a more rational distribution of infrastructure 
and promote new ideas, or could it reduce the diversity of ideas that 
otherwise might develop among independent research groups? How does DOE 
decide what the right nuclear research infrastructure should be? How 
does DOE then ensure that these programs will lead to such 
infrastructure?

Witnesses

    The following witnesses have been confirmed for the hearing:

Dr. Gail H. Marcus is the Principal Deputy Director, Office of Nuclear 
Energy, Science and Technology at the Department of Energy. Dr. Marcus 
served as President of the American Nuclear Society (ANS) in 2001-2002. 
Dr. Marcus is a former member of the 1990 National Research Council 
Committee on the Future Needs of Nuclear Engineering Education. Dr. 
Marcus also worked at U.S. Nuclear Regulatory Commission (NRC) and the 
Congressional Research Service. She also is the first woman to earn a 
doctorate in nuclear engineering in the United States.

Dr. Daniel M. Kammen holds multiple appointments at the University of 
California, Berkeley. He is a professor in the Energy and Resources 
Group, the Goldman School of Public Policy, and in the Department of 
Nuclear Engineering. He is also the founding director of the Renewable 
and Appropriate Energy Laboratory. A physicist by training, his work is 
focused on the scientific and policy issues relating to energy systems, 
with a particular focus on renewable energy technologies. Kammen served 
on the Generation IV Roadmap NERAC Subcommittee (GRNS) from 2000-2002 
for the U.S. Department of Energy.

Ms. Angelina Howard is the Nuclear Energy Institute's Executive Vice 
President of Policy, Planning and External Affairs with responsibility 
for nuclear workforce issues. Before joining NEI, Ms. Howard was with 
the Atlanta-based Institute of Nuclear Power Operations (INPO). Before 
joining INPO in 1980, Ms. Howard was employed by Duke Power Company. 
She has completed the Reactor Technology Program for Utility Executives 
sponsored by the Massachusetts Institute of Technology and the National 
Academy for Nuclear Training. She also is a member of the Clemson 
University Research Foundation Board.

Dr. James F. Stubbins is head of the Nuclear, Plasma, and Radiological 
Engineering Department at the University of Illinois at Urbana-
Champaign, Illinois (UIUC), where he has been a faculty member since 
1980--and is the current Chair of the Nuclear Engineering Department 
Heads Organization (NEDHO). He also is a member of the ANS workforce 
committee and the DOE Nuclear Engineering (NE) University Working 
Group. Dr. Stubbins has maintained associations as a Faculty Appointee 
at Associated Western Universities, with Battelle Pacific Northwest 
National Laboratory in Richland, WA; is a Faculty Appointee at the 
Division of Educational Programs, Argonne National Laboratory; is an 
Affiliate of the Los Alamos National Laboratory, and is a Visiting 
Scientist with Oak Ridge National Lab.

Dr. David M. ``Mike'' Slaughter of the University of Utah is Chair of 
the Nuclear Engineering Program and Director of the Center for 
Excellence in Nuclear Technology, Engineering, and Research (CENTER). 
He also is the 2001-2002 Chair of the National Organization of the 
Test, Research, and Training Reactors (TRTR).

Questions for the Witnesses

    The witnesses have been asked to address the following questions in 
their testimony.
Questions for Dr. Marcus

        <bullet> LWhat kind and how large a role in producing the 
        Nation's energy does DOE expect the nuclear power industry to 
        play in the future?

        <bullet> LWhat kind of a workforce, how robust a research 
        enterprise and what kind and how many university research 
        facilities will be necessary to support such an industry? What 
        are DOE's projections for society's nuclear workforce and 
        research needs beyond those directly related to nuclear power?

        <bullet> LTo what extent will DOE's university nuclear science 
        and engineering programs, as currently configured, ensure the 
        Nation has the necessary workforce and nuclear research base to 
        maintain nuclear power and provide for society's other nuclear 
        needs? What metrics should policy-makers use to determine 
        whether the DOE programs are on target to achieve their goals--
        especially in the next ten years?
Questions for Dr. Kammen

        <bullet> LWhat kind and how large a role in producing the 
        Nation's energy do you expect the nuclear power industry to 
        play in the future?

        <bullet> LWhat kinds of innovations or other changes in the 
        industry, in university programs, and in federal nuclear 
        research policy do you believe are necessary if industry is 
        successfully to play that role?
Questions for Ms. Howard

        <bullet> LWhat kind and how large a role in producing the 
        Nation's energy does NEI expect the nuclear power industry to 
        play in the future? How does this projection differ from that 
        of the Energy Information Administration?

        <bullet> LWhat are the current trends in the number, age, and 
        skills of the nuclear workforce and in the number and 
        availability of university research reactors, and what 
        implications, if any, do these trends hold for the industries 
        ability to achieve the goals that NEI expects?

        <bullet> LHow likely are DOE's university nuclear science and 
        engineering programs, as currently configured, to ensure the 
        industry has the necessary workforce and nuclear research base? 
        What changes to these programs, if any, are needed? Other than 
        these programs, what actions should policy-makers take to 
        ensure that an adequate workforce is available?

        <bullet> LWhat steps does industry plan to take to ensure it 
        has the workforce it needs in the future?
Questions for Dr. Stubbins

        <bullet> LWhat were the most important recommendations the 
        Nuclear Engineering Department Heads Organization (NEDHO) 
        recently made regarding DOE's university nuclear science and 
        engineering programs? What are the implications for the health 
        of university nuclear science and engineering programs and for 
        the nuclear power industry if DOE were to fall short of 
        implementing those recommendations?

        <bullet> LTo what extent is the existing university nuclear 
        infrastructure, including nuclear research reactors, sufficient 
        to maintain a vibrant nuclear research enterprise the United 
        States? To what extent is it sufficient to provide the 
        workforce training and research opportunities necessary to 
        sustain the nuclear power industry and provide for other 
        societal needs into the future?

        <bullet> LTo what extent does the quality of a university's 
        nuclear science and engineering program depend upon the 
        university having a nuclear reactor? To what extent can the 
        national laboratories and industry support university programs?
Questions for Dr. Slaughter

        <bullet> LTo what extent is the existing university nuclear 
        infrastructure, including nuclear research reactors, sufficient 
        to maintain a vibrant nuclear research enterprise the United 
        States? To what extent is it sufficient to provide the 
        workforce training and research opportunities necessary to 
        sustain the nuclear power industry and provide for other 
        societal needs into the future?

        <bullet> LTo what extent do you believe DOE uses the right 
        criteria in determining whether to support university research 
        reactors? What changes to DOE's university nuclear science and 
        engineering programs, if any, do you believe are needed?

        <bullet> LTo what extent does the quality of a university's 
        nuclear science and engineering program depend upon the 
        university having a nuclear reactor?
    Chairman Biggert. I now call the Subcommittee on Energy to 
order.
    I want to welcome everyone to the hearing on--of the Energy 
Subcommittee of the House Science Committee entitled ``The 
Future of University Nuclear Science and Engineering 
Programs.''
    Nuclear science and engineering in the United States is a 
50-year success story that has been written by some of the 
brightest minds the world has ever known. America has been 
truly blessed as the world leader in this area.
    But even as there is renewed interest in nuclear energy as 
one of the solutions to our nation's energy problems, there has 
been a growing concern that fewer Americans are entering the 
nuclear science and engineering field and even fewer 
institutions are left with the capacity to train them. In fact, 
at about the same time that nuclear generation of electricity 
hit an all-time high, the supply of four-year trained nuclear 
scientists hit a 35-year low.
    These statistics tell only the beginning of the story, 
however. The American Association for the Advancement of 
Science recently warned that ``experts are predicting that up 
to 30 percent of current nuclear engineering workforce could 
retire within the next five years.'' And today, there are only 
27 universities that operate reactor--research reactors, less 
than half the number that there were in 1980, and a majority of 
which will be relicensed in the next five years, a lengthy 
process that most universities can not afford.
    That is why I introduced legislation in the 107th Congress 
to strengthen university nuclear science and engineering 
programs at the DOE and ensure an adequate supply of educated 
personnel. Four of the key provisions from this bill were 
updated and incorporated into the comprehensive energy bill, 
H.R. 6, approved by the House in early April, including: number 
one, financial support for the operation, maintenance, and 
improvement of expensive, yet essential, university nuclear 
research reactors; two, resources for the professional 
development of faculty in the field of nuclear science and 
engineering; three, incentives for students to enter the field 
and opportunities for education and training through 
fellowships and interaction with national laboratory staff; and 
four, general research funds for students, faculty, and 
national laboratory staff.
    The DOE is the only federal agency that supports these 
critical university programs, and the limited support it does 
provide often forms the core, pardon the pun, of these 
programs. While the budget has increased during the course of 
the last several years, the Department's fiscal year 2004 
budget request of just $18.5 million represents flat funding 
compared to fiscal year 2003 funding levels for these vital 
programs.
    And now, more than ever, nuclear scientists and engineers 
are needed for much more than simply operating nuclear power 
plants. Trained at American universities and national labs, 
these specialists are needed: to help design, safely dispose, 
and monitor nuclear waste, both civilian and military; to 
create radio isotopes for the thousands of medical procedures 
performed every day; to operate and safely maintain our 
existing supply of fission reactors and nuclear power plants; 
to help stem the proliferation of nuclear weapons and respond 
to any future nuclear crisis worldwide; to design, operate, and 
monitor current and future Naval reactors; and to teach the 
next generation of nuclear scientists.
    The good news is that universities' enrollments are showing 
some signs of rebounding. Two universities have actually 
established new programs in nuclear engineering. But not so 
much has changed as to eliminate the uncertainty of future 
demand for nuclear scientists and engineers or the predicted 
gap between supply and demand. Universities continue to 
question the need for nuclear science and engineering programs 
as they confront challenges, fiscal and otherwise, associated 
with maintaining research reactors. And additional security 
requirements mandated for university research reactors, in the 
wake of September 11, 2001, have increased costs, just as many 
cash-strapped states are cutting university budgets.
    How this story ends and what role DOE programs will play, 
remains to be seen. If we, as a nation, are to continue to rely 
on nuclear energy for 20 percent of our electricity, and that 
number reaches 50 percent in my home state of Illinois, then we 
must focus on the people, ideas, and tools necessary to provide 
an adequate supply of trained and educated personnel. That is 
what we are here to explore today, and I want to thank the 
witnesses for their contributions.
    [The prepared statement of Ms. Biggert follows:]
              Prepared Statement of Chairman Judy Biggert
    I want to welcome everyone to this hearing of the Energy 
Subcommittee of the House Science Committee, entitled ``The Future of 
University Nuclear Science and Engineering Programs.''
    Nuclear science and engineering in the United States is a 50-year 
success story that has been written by some of the brightest minds the 
world has ever known. America has truly been blessed as the world 
leader in this area.
    But even as there is renewed interest in nuclear energy as one of 
the solutions to our nation's energy problems, there has been a growing 
concern that fewer Americans are entering the nuclear science and 
engineering field, and even fewer institutions are left with the 
capability to train them. In fact, at about the same time that nuclear 
generation of electricity hit an all time high, the supply of four-year 
trained nuclear scientists hit a 35-year low.
    These statistics tell only the beginning of the story, however. The 
American Association for the Advancement of Science recently warned 
that ``experts are predicting that up to 30 percent of the current 
nuclear engineering workforce could retire within the next five 
years.'' And today, there are only 27 universities that operate 
research reactors--less than half the number there were in 1980--and a 
majority of which will have to be relicensed in the next five years, a 
lengthy process that most universities cannot afford.
    That's why I introduced legislation in the 107th Congress to 
strengthen university nuclear science and engineering programs at the 
DOE and ensure an adequate supply of educated personnel. Four of the 
key provisions from this bill were updated and incorporated into the 
comprehensive energy bill, H.R. 6, approved by the House in early 
April, including:

        1. LFinancial support for the operation, maintenance, and 
        improvement of expensive--yet essential--university nuclear 
        research reactors;

        2. LResources for the professional development of faculty in 
        the field of nuclear science and engineering;

        3. LIncentives for students to enter the field, and 
        opportunities for education and training through fellowships 
        and interaction with national laboratory staff; and

        4. LGeneral research funds for students, faculty, and national 
        laboratory staff.

    The DOE is the only federal agency that supports these critical 
university programs, and the limited support it does provide often 
forms the core--pardon the pun--of these programs. The Department's 
fiscal year 2004 budget request of just $18.5 million represents flat 
funding compared to fiscal year 2003 funding levels for these vital 
programs.
    And now, more than ever, nuclear scientists and engineers are 
needed for much more than simply operating nuclear power plants. 
Trained at American universities and national laboratories, these 
specialists are needed:

        <bullet> LTo help design, safely dispose and monitor nuclear 
        waste, both civilian and military;

        <bullet> LTo develop radio isotopes for the thousands of 
        medical procedures performed every day;

        <bullet> LTo operate and safely maintain our existing supply of 
        fission reactors and nuclear power plants;

        <bullet> LTo help stem the proliferation of nuclear weapons, 
        and respond to any future nuclear crisis worldwide;

        <bullet> LTo design, operate and monitor current and future 
        Naval reactors; and

        <bullet> LTo teach the next generation of nuclear scientists.

    The good news is that university enrollments are showing some signs 
of rebounding. Two universities have actually established new programs 
in nuclear engineering. But not so much has changed as to eliminate the 
uncertainty of future demand for nuclear scientists and engineers, or 
the predicted gap between supply and demand. Universities continue to 
question the need for nuclear science and engineering programs as they 
confront challenges--financial and otherwise--associated with 
maintaining research reactors. And additional security requirements 
mandated for university research reactors in the wake of September 
11th, 2001 have increased costs--just as many cash-strapped states are 
cutting university budgets.
    How this story ends, and what role DOE programs will play, remains 
to be seen. If we, as a nation, are to continue to rely on nuclear 
energy for 20 percent of our electricity--and that number reaches 50 
percent in my home state of Illinois--then we must focus on the people, 
ideas, and tools necessary to provide an adequate supply of trained and 
educated personnel. That's what we are here to explore today.

    Chairman Biggert. The Chair now recognizes Mr. Lampson, the 
Ranking Minority Member of the Energy Subcommittee, for an 
opening statement.
    Mr. Lampson. I thank the Chairwoman, Judy Biggert, for 
calling this hearing and for recognizing me. And I look forward 
to the testimony that is coming today.
    The Department of Energy's university science programs are, 
indeed, an important part of the nuclear power industry of the 
United States. The energy in my area is much produced--my area 
of Southeast Texas is produced largely by a company called 
Entergy, who is very much into nuclear generation of power here 
in the United States. And even my own cousin is commander of a 
nuclear submarine. So he has gotten some of that training about 
which we will be talking today.
    I am anxious to hear from our witnesses today on how they 
believe the Department of Energy should best utilize these 
university nuclear science and engineering programs, especially 
in the light of the Bush Administration's announcement in 2001 
of plans to expand the use of nuclear energy in the United 
States. I realize the importance of strong, university-based 
science and engineering programs in our country. We need to 
increase the number of U.S. students studying and receiving 
Associates or Bachelors degrees in establishing--in established 
or emerging fields within science, mathematics, engineering, 
and technology.
    The DOE's university nuclear energy programs are an 
important part of this effort, and I am pleased that this 
committee included language to strengthen these programs in 
H.R. 6, the House energy bill. And I have seen firsthand in 
Texas how important these undergraduate and graduate 
scholarships and fellowships are nationally. Texas A&M and the 
University of Texas have both seen--have both been important 
partners in the DOE nuclear energy program.
    So I thank you all for joining. I look forward to hearing 
your testimony and asking you a couple of questions when you 
are through.
    Thank you, Ms. Chairman.
    [The prepared statement of Mr. Lampson follows:]
           Prepared Statement of Representative Nick Lampson
    1 would like to thank Chairwoman Judy Biggert for calling this 
hearing today. The Department of Energy's university science programs 
are an important component of the nuclear power industry in the United 
States.
    I am anxious to hear from our witnesses today on how they believe 
the Department of Energy should best utilize these university nuclear 
science and engineering programs, especially in light of the Bush 
Administration's announcement in 2001 of plans to expand the use of 
nuclear energy in the United States.
    I realize the importance of strong university-based science and 
engineering programs in the United States. We need to increase the 
number of U.S. students studying and receiving Associate's or 
Bachelor's degrees in established or emerging fields within science, 
mathematics, engineering, and technology.
    The DOE's University Nuclear Energy programs are an important part 
of this effort. I am pleased that this committee included language to 
strengthen these programs in H.R. 6, the House energy bill.
    I have seen first-hand in Texas how important these undergraduate 
and graduate scholarships and fellowships are nationally. Texas A&M and 
the University of Texas have both been important partners in the DOE 
nuclear energy program.
    Thank you all again for joining us today and I look forward to your 
testimony.

    Chairman Biggert. Thank you. If there is no objection, all 
additional opening statements submitted by the Subcommittee 
Members will be added to the record. Without objection, so 
ordered.
    [The prepared statement of Mr. Nethercutt follows:]
     Prepared Statement of Representative George R. Nethercutt, Jr.
    I would like to thank the Chairwoman for calling this important 
hearing on the future of nuclear research at our nation's universities. 
I am a strong supporter of university research, and specifically 
nuclear fission research. It is imperative that we continue programs to 
ensure the long-term safety, technology and workforce needs. A 
University in my district, Washington State University, has an 
excellent program researching Actinide chemistry for radioactive waste 
disposal. I submit the attached white paper for the record on the WSU's 
program to highlight the good work they are doing.
    Note: The attachment is printed in Appendix 2, p. 116.

    Chairman Biggert. At this time, I would like to introduce 
our distinguished panel of witnesses. I also want to thank them 
for sharing their time and talent with us today so that we 
might better understand the potential workforce shortage and 
what is being done and needs to be done to address it.
    Dr. Gail Marcus is the Principal Deputy Director of the 
Office of Nuclear Energy, Science and Technology at the 
Department of Energy. Dr. Marcus, who is the first woman to 
earn a doctorate in nuclear engineering in the United States, 
will describe DOE's university programs.
    Second, we have Dr. Daniel Kammen, who holds multiple 
appointments at the University of California at Berkeley. He is 
a professor in The Energy and Resources group, the Goldman 
School of Public Policy, and in the Department of Nuclear 
Engineering. Dr. Kammen will make recommendations for changes 
in DOE's university programs to encourage greater innovation 
and thus increase their attractiveness to students.
    Ms. Angelina S. Howard is Executive Vice President of 
Policy, Planning, and External Affairs at the Nuclear Energy 
Institute and has primary responsibility for nuclear workforce 
issues. She is highlighted by the bells that you have just 
heard. Ms. Howard will discuss industry's workforce needs and 
how DOE's university programs can help address them.
    Dr. James Stubbins, excuse me, is Head of the Nuclear, 
Plasma, and Radiological Engineering Department at the 
University of Illinois at--or--this says--at Champaign-Urbana 
is the way I say it. I don't know. This says Urbana-Champaign. 
Maybe there is a story to that. And past Chair of the Nuclear 
Engineering Department Heads Organization, NEDHO. Dr. Stubbins 
will present NEDHO's recommendations and survey many new 
developments that make this hearing timely.
    Dr. David M. ``Mike'' Slaughter is Director of the 
Engineering--the Center for Excellence in Nuclear Technology, 
Engineering, and Research and Chair of the Nuclear Engineering 
Program at the University of Utah. He is also a past Chair of 
the National Organization of the Test Research and Training 
Reactors and will discuss the broad range of social needs 
addressed by the university reactors.
    As our witnesses know, spoken testimony is limited to five 
minutes each after which the Members of the Subcommittee will 
have five minutes each to ask questions after all of the panel 
has presented their testimony. So we will begin with Dr. 
Marcus.

  STATEMENT OF DR. GAIL H. MARCUS, PRINCIPAL DEPUTY DIRECTOR, 
    OFFICE OF NUCLEAR ENERGY, SCIENCE AND TECHNOLOGY, U.S. 
                      DEPARTMENT OF ENERGY

    Dr. Marcus. Thank you very much, Chairman Biggert, Mr. 
Lampson, Members of the Committee.
    I am very pleased to be here today to discuss university 
nuclear science and engineering programs and DOE's role in 
maintaining the university nuclear infrastructure. But first, 
as my bio indicates, I am also past President of the American 
Nuclear Society. And with my ANS hat on for just one moment, 
and with your indulgence, I would like to introduce some very 
special members of the audience.
    May I ask the WISE (Washington Internship for Student 
Engineering) students and their Professor, Jim Dennison, to 
please stand up for a moment? These students are participating 
in a policy internship program for engineering students 
supported by engineering societies, including the ANS. I would 
also ask the ANS students--Jennifer Cole of the University of 
Tennessee, and Laura Beth Bienhoff of Kansas State University--
to please raise your hands. Thank you. It is for students like 
these that we are holding this hearing today, and I am very 
pleased that they were able to join us.
    I want to begin by observing that, at least since the late 
1980's, that I am aware of, there has been concern about 
university nuclear infrastructure. I was a member of the 
National Research Council Committee that produced the 1990 
report on this issue. I don't believe much changed as a result 
of that report, largely because there have been no new orders 
for nuclear power plants. So I have to ask: Why are we 
discussing this issue yet again today? Is this deja vu all over 
again?
    I believe that this time things are different. We are in a 
new environment. For the first time in a very long time, 
utilities are giving very serious consideration to building new 
nuclear power plants in the U.S. As you said, Chairman Biggert, 
there are also a lot of other interesting trends and 
initiatives: consideration of nuclear power for hydrogen 
production, continuing and growing demand for radioisotopes for 
medicine and other applications, and interest in developing the 
next generation of advanced nuclear power plants. As activity 
in all of these areas increases, so has the interest in nuclear 
engineering training among students at universities. Even so, 
demand for trained and qualified nuclear engineers continues to 
outpace enrollments.
    As you indicated, partly as a result of the improved 
prospects, enrollments are turning around at many universities. 
For the first time in about 30 years, we have two new nuclear 
programs at universities: the University of South Carolina, and 
South Carolina State University.
    Yet other programs and facilities do remain at risk.
    As you know, the DOE university nuclear program supports 
universities in a variety of ways, and you know these well. In 
the interest of time, I will focus mainly on our newest 
initiative--the Innovations in Nuclear Infrastructure and 
Education, or INIE, program. This program was established just 
last year, to encourage partnerships between universities, 
national laboratories, and industry to share facilities and 
expand academic and research opportunities. It is designed 
specifically to help maintain the nuclear infrastructure that 
you spoke about, Chairman Biggert.
    I am very pleased to be able to announce today that DOE is 
funding two additional INIE consortia above and beyond the four 
funded last year. The two new grants are for the University of 
Missouri consortium and the Southeast consortium, led by North 
Carolina State University. This will bring to six the total 
number of consortia supported and these will encompass 23 
universities and a number of other organizations. Only a few 
university nuclear programs are now not affiliated with one of 
the six INIE consortia, and these are going to be encouraged to 
affiliate. Therefore, we hope to have most of the programs 
under this partnership program, and consequently, to realize 
the maximum benefit from our academic resources.
    The last point I would like to make is that university 
support is well integrated into all of our R&D programs, and we 
plan to make that even more the case in the future. Building on 
the successes we have had in involving universities and 
students in programs such as NERI (Nuclear Energy Research 
Initiative) and AFCI (Advanced Fuel Cycle Initiative), I am 
pleased to announce that we intend to pursue a new strategy for 
our R&D funding in the future. We anticipate that we will 
devote a fixed percentage of our total R&D funds, likely 
between five and ten percent, to universities. This will be a 
win/win, both for the universities, by providing more funding 
support for them, and for DOE, by tapping the creativity and 
expertise of the university community for all of our research 
programs.
    In summary, we believe there are continuing needs in the 
nuclear industry for the unique training provided by nuclear 
engineering programs at the universities and that these needs 
will increase if new nuclear power plants are ordered, and some 
of the other expansions of nuclear applications are realized. 
As I noted at the outset, there are some signs of improvement 
in the university nuclear programs in recent years, but 
problems do remain, and therefore the programs that we operate 
need continuing attention and support. I commend the Committee 
for holding a hearing in this important area, and thank you for 
the opportunity to describe DOE's programs and plans.
    [The prepared statement of Dr. Marcus follows:]
                  Prepared Statement of Gail H. Marcus
    Chairman Biggert and Members of the Subcommittee, it is a pleasure 
to be here to discuss the current readiness of university nuclear 
programs to meet the anticipated workforce needs of the nuclear 
industry and the Department of Energy's role in maintaining and 
improving the university infrastructure.
    Concern over the health of the nuclear academic infrastructure is 
not new. As long ago as the late 1980s, the National Research Council 
conducted a study entitled ``U.S. Nuclear Engineering Education: Status 
and Prospects'' (published 1990). I was a member of the Committee on 
Nuclear Engineering Education that conducted that study. By that time, 
all of the trends we are discussing today were apparent: enrollments in 
nuclear departments and programs were declining, nuclear departments 
were being converted to programs under other engineering disciplines, 
research reactors were being shut down. The study foresaw potential 
shortages of nuclear engineers, both for existing government and 
industry activities, and for an anticipated renewal of interest in 
nuclear power. Despite the study, not much changed, and enrollments, 
numbers of departments, and numbers of university research reactors 
continued to decline.
    The predicted industry crisis from this declining academic trend 
failed to materialize, largely because other factors mitigated against 
new nuclear power plant orders. Today, however, we have the greatest 
prospects in several decades for the renewed construction of nuclear 
power plants. Power generators are actively considering the business 
case for new nuclear power plants. Furthermore, the world nuclear 
community is looking beyond the next nuclear power plants, and 
beginning to formulate plans to conduct research on Generation IV 
nuclear technologies that can help meet global energy demands in the 
future.
    All these activities will need growing numbers of highly trained 
nuclear professionals. While the nuclear industry has always employed 
scientists and engineers from a broad range of disciplines, and will 
continue to do so, the National Research Council study found that there 
is a need for personnel with specialized nuclear training. In 
particular, the study highlighted the importance of the broad 
interdisciplinary knowledge in physics, mathematics and engineering 
processes that characterizes the training of nuclear professionals. 
There is also a need for personnel with the hands-on reactor experience 
that can be gained from research and training reactors.
    With that in mind, I am pleased to report that today, we seem to 
have turned a corner in the academic community. Enrollments are on the 
upswing, two new nuclear engineering programs have opened their doors, 
and concerted efforts are underway in the Department to maintain and 
strengthen the remaining nuclear academic infrastructure. University 
nuclear departments have broadened their offerings, and some of their 
growth is helping to meet an increasing demand for personnel in non-
power nuclear applications.
    While the picture looks much better today, it is too soon to 
declare victory. Not only do some university nuclear programs remain at 
risk, but even more important, the growing prospects for construction 
of new nuclear power plants in the United States suggests that the need 
for trained nuclear engineers will continue to grow.
    I would like to take this opportunity to outline for you some of 
the Department's programs aimed at helping address the needs for a 
growing nuclear workforce in the future. I will cover both our direct 
university-related support and our research programs which have 
supported a number of students.
    As you know, our university support is multifaceted. It includes 
scholarships, fellowships, research grants for universities, provision 
of fuel for university research reactors and funding for upgrades of 
university reactors. We also support reactor sharing, a matching grant 
program, university partnerships between majority and minority 
institutions, an international student exchange program, summer 
internships, and workshops for middle and high school teachers. In 
addition, university nuclear programs supply the needs of the non-power 
portion of the nuclear industry--such as the health physicists and the 
nuclear medical professionals--and we provide support in some of these 
areas as well.

Innovations in Nuclear Infrastructure and Education

    I would like to focus first on our newest program, Innovations in 
Nuclear Infrastructure and Education (INIE), because we believe this 
program will provide critical support to help integrate nuclear 
research facilities and educational programs in a way that enhances 
both. This program, established in FY 2002, encourages strategic 
partnerships between universities, the DOE national laboratories, and 
U.S. industry. The partnerships result in a sharing of facilities and 
an expansion of academic and research opportunities for the students. 
With the award last week to the Missouri consortium and the Southeast 
consortium (led by North Carolina State), there are currently six 
consortia of institutions in INIE. In total, these comprise 23 
universities and a number of national laboratories, utilities, and 
other research organizations. Only a few universities with nuclear 
programs are not affiliated with one of the consortia, and these 
remaining universities are being encouraged to affiliate.

University Partnerships

    I would also like to highlight our university partnerships, which 
have played a significant role in the first establishment of a new 
nuclear program in about three decades. South Carolina State University 
is the first Historically Black College or University (HBCU) to offer a 
degree in nuclear engineering. Their degree is offered in collaboration 
with the University of Wisconsin under a partnership initiated and 
sponsored by the DOE. Current DOE support for their nuclear program 
includes funding for two junior faculty and scholarships for 12 to 14 
students. The University of South Carolina also started a nuclear 
engineering graduate program in 2002, and currently has 15 students 
beginning their graduate programs, and plans to double in size this 
year.
    Another element I would like to emphasize is that we partner with, 
and involve, many organizations in implementing our programs. I have 
already mentioned the university-research institute-national laboratory 
partnerships encouraged by our INIE program. I should also note that 
many of our other academic programs also engage various elements of the 
nuclear community. For example, we support student internships at 
national laboratories and international student exchanges with several 
countries. We also operate a matching grant program with industry. We 
have about 35 private sponsors each year, and more offers by industry 
than we have been able to match with our funding. This program not only 
demonstrates the strong industry support for the university programs, 
but it also multiplies the effectiveness of our funding. And finally, 
as Past President of the American Nuclear Society, I am particularly 
proud to point out that the American Nuclear Society, with support from 
the Department, has conducted a number of workshops for high school and 
middle school teachers. These workshops help train teachers to allow 
them to provide accurate information on nuclear technology to middle 
and high school students, and to help attract technically-minded 
students to the study of nuclear engineering.
    In addition to these programs, which are explicitly designed to 
benefit the university community, I would like to point out that a 
number of our other programs also provide significant benefit to 
academic institutions. In particular, I want to emphasize some of our 
research support, because research has proven to be one of the most 
effective mechanisms to attract talented students to the field. While 
the university programs are vital, from a student's point of view, they 
are largely structural. To be sure, they keep research reactors going 
and they provide scholarships and fellowships, which are all good 
things, but there is no substitute for the opportunity to engage in 
exciting, cutting-edge research.
    Our Nuclear Energy Research Initiative (NERI) has proven to be a 
particularly effective recruiting tool in this regard. Although we do 
have research programs geared specifically to universities, in 
particular, the Nuclear Engineering Education Research (NEER) grant 
program, the NERI program has added significantly to the support we 
provide to the academic community. The NERI program was designed as a 
broad-based research program to conduct exploratory research on 
advanced reactor and fuel-cycle concepts. The program is open to all 
researchers, including universities, industry, and national 
laboratories. It was not a tool targeted specifically or exclusively at 
the university community. Nevertheless, the academic community has won 
a significant share of the NERI awards (approximately one third of all 
funding between 1999 and 2002), and the latest figures available show 
that these awards have involved over 250 students (71 BS, 131 MS, and 
65 Ph.D.). Furthermore, a great majority of the NERI grants involve 
collaborations among multiple institutions, both U.S. and foreign (the 
foreign institutions are not supported financially by DOE). Therefore, 
students working on NERI-funded projects often have the opportunity to 
work with top researchers in industry, the national laboratories and 
foreign countries in completing their theses.
    Our growing recognition of the value of involving students in the 
advanced research we support has caused us to build support for 
students directly into our newer programs. Perhaps the best example is 
the student support element of our Advanced Fuel Cycle Initiative 
(AFCI). AFCI, as you know, is looking at options for partitioning and 
transmutation of spent nuclear fuel in order to reduce the burden on a 
repository and recycle useful elements of the fuel. The AFCI program 
has supported student and faculty research at several universities 
through laboratory funded research; since FY 2001 the Program has 
supported approximately 115 students. In addition, we have in the past 
awarded fellowships for master's degree students in science and 
engineering, and in the future, we hope to develop a fellowship program 
for doctoral candidates.
    This approach is part of a new strategy to provide funding for 
university nuclear engineering programs. In the future, we are planning 
to devote a percentage of the research funds from all our programs to 
be implemented by universities. Doing so will increase the level of 
experience of students entering the workforce, make more funding 
available to the universities, and allow the creativity and energy of 
the university community to be applied to our programs. In addition to 
AFCI, we anticipate we will operate in this mode for our Generation IV 
effort and many of our other research endeavors.
    Therefore, one must look beyond our University programs alone for a 
true measure of our support of universities, and for a true measure of 
the extent to which we contribute to university vitality.
    We believe these programs and others, which I did not describe in 
detail, form a solid foundation for a strong university infrastructure 
to support nuclear workforce needs. However, some concerns remain. One 
important university research reactor--at Cornell University--was 
recently shut down, while another--at the University of Michigan--plans 
to cease operating this summer. These decisions were made despite the 
evidence that nuclear power was experiencing a renaissance and despite 
offers of assistance from the Department. Several more university 
research reactors and academic programs are still at risk. While 
acknowledging the revival of the industry, university administrators 
are under severe fiscal pressures, and the historical weakness of 
student enrollments and under-utilization of campus reactors make 
nuclear programs and facilities an inviting target for economizing.
    In the long-term, it is apparent that the viability of university 
nuclear engineering departments is tied to the success of industry in 
deploying new nuclear power plants in this country. New nuclear 
construction will increase demand for nuclear engineers and interest in 
the study of nuclear engineering. As a result, programs in trouble 
today will likely experience growth and revitalization. It will be 
vital to maintain the remaining research reactors and to sustain a 
strong base of academic programs to meet the expected needs for trained 
personnel to support the design, construction and operation of nuclear 
power plants and to conduct research on future generations of nuclear 
technology. A vital academic nuclear infrastructure will also be able 
to meet the needs of the non-power nuclear community.
    In conclusion, we are at a real crossroads for nuclear engineering 
education. There are a number of signs of revitalization in our 
academic programs, and the Department of Energy sponsors a strong and 
diverse program, both through its university funding and through its 
general research support, which should help assure that these positive 
trends continue.

                      Biography for Gail H. Marcus
    Dr. Gail H. Marcus serves as Principal Deputy Director, Office of 
Nuclear Energy, Science and Technology. In this capacity, she assists 
William D. Magwood, IV, Director, Office of Nuclear Energy, Science and 
Technology in providing technical leadership for DOE's nuclear energy 
programs and facilities, including the development of next-generation 
nuclear power plants and advanced nuclear fuel cycle technologies, and 
the production and distribution of isotopes required for medical 
treatment, diagnosis and research. In addition, she assists in 
overseeing the operation of DOE test and research reactors, and of 
various DOE research, environmental and facility management activities.
    Dr. Marcus came to DOE from the U.S. Nuclear Regulatory Commission 
(NRC). She had been at NRC since 1985, serving in a variety of 
positions including Deputy Executive Director of the Advisory Committee 
on Reactor Safeguards/Advisory Committee on Nuclear Waste; Director of 
Project Directorate III-3, providing regulatory oversight of seven 
nuclear power plants in the Midwest; and Director of the Advanced 
Reactors Project Directorate, where she was responsible for technical 
reviews of advanced reactor designs.
    She served as technical assistant to Commissioner Kenneth Rogers at 
the NRC for over four years, providing advice and recommendations on a 
broad range of technical and policy issues of interest to the 
Commission. From this position she was detailed for five months to 
Japan's Ministry of International Trade and Industry, where she was 
NRC's first assignee to Japan, studying Japan's licensing of the 
Advanced Boiling Water Reactor.
    From 1998-1999, Dr. Marcus spent a year in Japan serving as 
Visiting Professor in the Research Laboratory for Nuclear Reactors, 
Tokyo Institute of Technology. She conducted research on comparative 
nuclear regulatory policy in Japan and the United States.
    Prior to her service at NRC, Dr. Marcus was Assistant Chief of the 
Science Policy Research Division at the Congressional Research Service 
(1980-1985). In this position, she was responsible for policy analysis 
in support of Congress covering all fields of science and technology, 
and played a lead role in broad issues of energy policy and in the 
development of policies for risk assessment and management.
    Dr. Marcus served as President of the American Nuclear Society 
(ANS) in 2001-2002. She also serves on the Board of Directors of the 
Washington Internships for Students of Engineering (WISE), and on the 
American Management Association R&D Council. She is a Fellow of the ANS 
and of the American Association for the Advancement of Science.
    Dr. Marcus is a former member of the National Research Council 
Committee on the Future Needs of Nuclear Engineering Education. She 
served three terms on the MIT Corporation Visiting Committee for the 
Nuclear Engineering Department. She has authored numerous technical 
papers and publications. Her research interests have included nuclear 
regulatory policy, energy technology and policy, risk assessment and 
management, international nuclear policy, and advanced nuclear 
technologies.
    Dr. Marcus has an S.B. and S.M. in Physics, and an Sc.D. in Nuclear 
Engineering from MIT. She is the first woman to earn a doctorate in 
nuclear engineering in the United States.

    Chairman Biggert. Thank you, Dr. Marcus. And thank you for 
introducing the students to us. I can't help but notice how 
many young women there are that are involved in these programs. 
And I think this is--you know, as--we see more and more women 
entering into this field, and it is very gratifying. I know 
when I go out to speak to schools of children of all ages, I am 
always encouraging them that, you know, the fields of 
scientists and engineering and mathematics are very important 
and that we need more young women to take advantage of the 
opportunity. And I think it is working. So thank you very much 
and also for you young men. I know that that is a very 
important field for you. I don't want to be--have any 
partisanship between men and women here, but I am gratified to 
see that they are here, so thank you very much. Thank you all 
for coming.
    Dr. Kammen, if you would like to present.

   STATEMENT OF DR. DANIEL M. KAMMEN, PROFESSOR, ENERGY AND 
     RESOURCES GROUP, GOLDMAN SCHOOL OF PUBLIC POLICY, AND 
  DEPARTMENT OF NUCLEAR ENGINEERING, UNIVERSITY OF CALIFORNIA-
                            BERKELEY

    Dr. Kammen. Well, I, too, would like to applaud the WISE\1\ 
students here. My wife, actually, a Nigerian immigrant, did a 
WISE program, and is now a pediatric radiologist, so it 
branches off in a number of interesting and important ways.
---------------------------------------------------------------------------
    \1\ Washington Internship for Student Engineering
---------------------------------------------------------------------------
    Chairperson Biggert, I would like to thank you for letting 
me appear before you. Again, I had the pleasure to testify 
before you in a field hearing when you and Congresswoman 
Woolsey held a very interesting hearing on fuel cells and on 
renewable energy.
    The United States, today, faces a significant number of 
technological, environmental, and strategic issues related to 
our energy future. And the critical role that nuclear could or 
might or will play in that, and currently does play, I am 
delighted to see we are talking about that, because I have--I 
see too little discussion about the integrating aspects of our 
energy policy and our energy future overall.
    The questions that--before us today are not just about the 
training of students, but they are also the mix of fossil fuels 
and nuclear renewables, energy efficiency, and which of these 
measures the United States plans to support. Most of these 
questions have not received as much attention as one might 
think, despite the current interest, the revived interest, I 
would say, in energy issues. So I am very concerned about us 
looking more broadly at these energy questions as the hearing 
progresses.
    I direct the Renewable Energy Lab at UC-Berkeley, and our 
focus is on a mix of energy sources. We do scientific, 
technical, economic, and policy work on looking at how energy 
systems can work together in harmony and not compete for what 
are often seen as a small pool of resources. And as you 
mentioned in your opening statement, nuclear fission provides 
1/5 of U.S. electricity at the present. At the same time, it is 
certainly the most controversial form of power production in 
the country.
    The future for nuclear power could be anything from a 
dominant energy supply, as it is in Illinois with 50 percent of 
the power, to a technology, which faces elimination if certain 
other groups had their way. That tremendous range of 
possibilities, from conceivably zero to 50/60 percent of power, 
means that the role of university training is critical, because 
to answer those questions would require an expanded amount of 
research into how these technologies work together and what we 
are likely to do about that.
    In my estimation, and I would take it up in the questioning 
period, the 20 percent share that nuclear power has now is 
likely to be the level it stays at for some time for a whole 
variety of reasons that I do detail in the written testimony.
    While Dr. Marcus provides an excellent review of the 
innovative programs currently underway and Dr. Slaughter and 
Stubbins make compelling cases for addressing the shortages of 
trained professionals in certain areas, I would like to focus 
the Committee's attention a little bit on the degree to which I 
am more concerned about the lack of new innovative approaches 
than I am directly about the number of programs, per se. And I 
think that is probably the bottom line for me, I think, through 
this process.
    The Generation IV process, of which I was on the Gen IV 
subcommittee, the oversight--one of the oversight committees, 
is an example of this. In my view, the Gen IV committee did an 
excellent job of thinking through near-term R&D issues, the 
kind of Generation III+ plans that we are--we were operating 
today, but it didn't do the job that I actually thought the 
Generation IV process was about, and that was to really think 
more long-term about how we would manage the R&D program for 
plans that we would commission conceivably 2030 and 2040 and 
beyond. And it is in this area that, again, I do have concerns 
more about quality than about quantity of programs and of 
emerging nuclear professionals.
    Work in hydrogen is an example of this sort of concern. 
Nuclear power plants that produce--that could produce hydrogen 
may, in fact, be very different in style and structure, 
operating temperature regimes than plants we operate today. And 
yet work on nuclear-generated hydrogen is an active area of 
research, but one researcher in the United States accounts for 
almost all--half of all of the papers in this field over the 
past five years. This is a testament to this individual's 
tremendous intellectual capacity and work, but it is also a 
warning sign. This individual at Oak Ridge, Tennessee also 
comments regularly that that is a dangerous situation on a 
variety of levels.
    Engineering programs in nuclear power, in my view, need to 
take on this challenge and find ways to innovate more at the 
expense, potentially, of generating more overall programs. Some 
of the ways that one might do that are to look at the ABET, the 
accreditation process for undergraduates, and find ways at the 
graduate level to support more diverse energy education for 
future nuclear engineers. I detail a few mechanisms, like 
encouraging students to have Master's Degrees in more than one 
field of engineering. And I also, since I serve on the faculty 
of nuclear engineering at Berkeley, am stunned by the degree to 
which an elective course for a nuclear engineering student is 
often Advanced Calculus as opposed to finding ways to diversify 
the education so that the range of issues that they will face 
as nuclear professionals are covered in their training. And I 
can think of a variety of mechanisms, and I detail them in the 
testimony: exchange programs with universities, exchange 
programs overseas.
    But the bottom line message is that I don't think that the 
amount of cross-disciplinary training that future nuclear 
engineers receive is up to the task. I certainly also feel that 
hydrogen is a critical area where we are not supporting as much 
research, not only in nuclear, but in the other technologies 
that could produce hydrogen that may work in concert with 
nuclear hydrogen production. Solar, other technologies may, in 
fact, be compliments of a broader system.
    And finally, there are some issues in the nuclear industry 
where many nuclear operators also have coal-fired power plants 
in their portfolio. That means that the motivations for these 
operators may be mixed. So for example, a system for carbon 
trading may be very beneficial to nuclear power, but it may 
also compete with other sides of the business of these same 
companies. So there is a variety of issues here that we need to 
address, the bottom line being the interdisciplinary nature of 
the training that I think the next generation of nuclear 
engineers need to get, to a larger degree than they have today.
    Thank you very much for your time and attention.
    [The prepared statement of Dr. Kammen follows:]
                 Prepared Statement of Daniel M. Kammen

United States: Facing a Defining Moment of Energy Choices

    Chairperson Biggert, Members of the Subcommittee on Energy, and 
other invited guests, thank you for this opportunity to appear before 
you today to provide testimony on the university capacity to educate 
and innovate to meet the challenges of nuclear energy capacity. I am a 
professor in the Energy and Resources Group, the Goldman School of 
Public Policy, and the Department of Nuclear Engineering at the 
University of California, Berkeley. I am also the founding director the 
Renewable and Appropriate Energy Laboratory. From 2000-2002 I served on 
the Subcommittee for Generation IV Technology Planning of the Nuclear 
Energy Research Advisory Committee (NERAC). This subcommittee, also 
referred to as Generation IV Roadmap NERAC Subcommittee (GRNS), was 
formed in October 2000 to provide advice to the Director, Office of 
Nuclear Energy, Science and Technology of the U.S. Department of Energy 
on the development of the Generation IV Roadmap. GRNS was also tasked 
with developing the technology goals for Generation IV nuclear energy 
systems. The Generation IV documents can be accessed at: http://gen-
iv.ne.doe.gov/. I am the co-author of Should We Risk It?, an 
instructional text on technical, social, and policy aspects of risk 
management. I serve as a board member of The Utility Reform Network 
(TURN). I am Fellow of the American Physical Society, and have served 
on American Academy of Arts and Sciences Committee on the Social 
Impacts of Technology (Section X).
    The United States faces a significant number of technological, 
economic, environmental, and strategic issues and options surrounding 
the future evolution of our energy infrastructure. These questions 
include the mix of fossil-fuel, nuclear, renewable energy, and energy 
efficiency measures that the U.S. will support, the degree of 
environmental damage that we will implicitly or explicitly permit to 
take place as a result of our energy choices, the overall role of 
innovation and global energy leadership that the U.S. will assume, and 
our commitment to a transition to a more sustainable and socially 
desirable energy infrastructure. Most of these questions have not been 
addressed in a significant way, even with the increased attention that 
energy issues have recently commanded at the state, federal, and 
international levels.
    The role of nuclear energy in the current and future mix of energy 
technologies, markets, and risks is of major importance to the overall 
energy strategy that we will pursue. The role of nuclear power, 
specifically the impacts, economics, and risks of the full nuclear fuel 
cycle, is arguably one of the most ideologically divisive energy policy 
issues facing the country.
    In this testimony I will address a number of critical issues that 
must be addressed if we are to develop and implement a reasoned and 
diverse sustainable energy strategy for the United States. In this 
testimony, specifically regarding nuclear power I will comment on:

        <bullet> LThe current status of the U.S. nuclear energy 
        industry and its relationship to the rest of our energy 
        resource base;

        <bullet> LThe university capacity to manage the current and 
        future nuclear energy infrastructure; and,

        <bullet> LThe areas where federal attention is most critically 
        needed to evaluate and plan for our future energy 
        infrastructure.

    Finally, I will provide a set of recommendations that I believe are 
critical if nuclear energy is to be evaluated in the wider context of 
national energy choices and international energy leadership on both the 
technical and socioeconomic aspects of our current and envisioned 
sustainable energy infrastructure.

Overview of the Nuclear Industry/University Status

    The commercial nuclear industry in the United States has undergone 
a roller coaster evolution over the past decade.
Signs of Decline
    Many of the trends during the early 1990s were particularly 
negative for the industry. A decade ago few commercial reactors 
appeared headed for re-licensing, and undergraduate and graduate 
enrollments were declining, and a significant number of university 
programs were headed for closure. In addition, the busbar cost of 
electricity generated from nuclear plants was actually climbing, 
largely as the result of increased operation and maintenance (O&M) 
costs. This trend was in stark contrast to that seen for virtually 
every other energy technology where the costs have been declining 
according to a predictable pattern. For most power systems the costs 
have been seen to decline by 10 percent for each doubling of installed 
capacity. Photovoltaics, biomass power plants, wind turbines, and gas 
turbines, for example, have each been well studies, and follow this 
relationship particularly well. This trend, known as a learning curve 
is well understood, and has been used as the basis of forecasts for the 
future cost declines for wide range of energy systems and other 
technologies that can be mass-produced. Nuclear power plants--in 
addition to their largely unresolved issues of closed, reprocessing 
cycles, uncertain waste management costs, questionable federal 
oversight, and strong public skepticism--are largely unique, `one-off' 
facilities in the United States, and thus not expected even 
theoretically to exhibit this attractive learning curve. The prospects 
for nuclear power in the United States were dim. Figure 1 illustrates 
the decline in enrollment by new undergraduates at three leading 
nuclear engineering programs in the United States.
    Enrollment decline is particularly serious for the industry, which 
is already on average significantly aging, in part because university 
resources as well as those from federal agencies decline with lower 
enrollment levels, creating a negative feedback loop that further 
reduces, innovation and resources. This problem became even more sever 
as the next natural step took place: the closing or dramatic reduction 
of over one-third of U.S. nuclear engineering programs between 1991 and 
1998. These changes have been well described in a 2000 report on The 
Future of University Nuclear Engineering Programs and University 
Research & Training Reactors. This excellent analysis, known widely as 
the ``Corrandini report'' found among other things that there was:

        <bullet> LA serious decline of nuclear science and engineering 
        personnel, the relevant technical facilities and the needed 
        institutional support for each of them;

        <bullet> LA growing imbalance between the supply of qualified 
        personnel and the demand;

        <bullet> LA persistent lack of effective communication with the 
        public, both technical and non-technical, which leads to public 
        opinion based on incomplete information (page 7).
        <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
        

    Figure 1 also illustrates the dramatic importance of policy 
direction and leadership to the nuclear industry. The statement by 
President Clinton in his 1993 State of the Union Address that nuclear 
energy will be largely removed from U.S. energy policy, coupled with 
the lack of any prospects for new nuclear reactors, led to a dramatic 
decline in enrollment in nuclear science and engineering departments. 
By the same token, the new emphasis that nuclear power is receiving 
under the current Bush administration has lead to a resurgence in the 
industry that I will discuss below. In both these negative and positive 
phases high-level policy leadership is clearly a vital factor in the 
direction and vitality of the industry and the academic departments.
    Graduate enrollment trends during this period remained more stable 
(Figure 2), but this in, in fact deceptive. While overall enrollment 
has not changed significantly, the composition of the graduate nuclear 
engineering pool shifted during the past decade. At the University of 
California, Berkeley, foreign students comprised less than 20 percent 
of full-time doctoral enrollment, while in 2000 foreign students 
accounted for almost 70 percent of the student population. This trend 
has taken place in departments across the country to varying degrees.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    In the mid-1990s the few optimists about nuclear power saw Asia as 
the primary market for growth, both in terms of new plant construction 
and as a region of nuclear economic viability.
Signs of Growth
    Over the last several years the situation in the nuclear industry 
has changed dramatically. U.S. nuclear power plants have increased 
their capacity factor, defined as the percentage of time during the 
year that the plant is available for electricity generation, has 
increased sharply. From a low of roughly 55 percent two decades ago, 
the nuclear industry implemented a range of reforms and the capacity 
factor began to change. A steady improvement in the operation of 
nuclear facilities was followed in the mid-1990s by an even more rapid 
upsurge in plant availability. This second phase was driven by in part 
by changes in the energy industry, where deregulation experiments, and 
increasing concerns over the impacts of fossil-fuel based plants 
expanded the market for nuclear-generated electricity.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    The impact of this whole-scale change in the industry cannot be 
underestimated. Over the past decade the nuclear industry in the U.S. 
has added the equivalent of over 20 power plants to the national fleet 
without building a new facility. In 2000 nuclear power provided 19.8 
percent of total U.S. electricity, or 754 billion kilowatt hours, and 
in each of the past two years the industry has set new production 
records.
    In addition to the dramatic change in the industry capacity factor, 
nuclear power plants have gone from readily available on the market for 
investors, to difficult to impossible to find available for sale. At 
the same time virtually every U.S. nuclear facility either has, or is 
expected to apply for re-licensing/license extension. In 2003, nearly 
half of the Nation's 103 nuclear power plants have either renewed their 
licenses (14 reactors), filed with the Nuclear Regulatory Commission 
for license renewal (16 reactors), or officially informed the NRC that 
they expect to apply for license renewal over the next six years (20 
reactors). In all, this will increase the life-span of the U.S. fleet 
of nuclear reactors by roughly 20 years per plant.
    The nuclear industry has received a significant boost from efforts 
such as those of the Nuclear Energy Institute (www.nei.org) to portray 
the industry as not only the source of low-cost electricity, but also 
as carbon-free power (Figure 4, below).
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    The nuclear energy industry has also received arguably the most 
important support from the current administration which has included 
nuclear power as part of its core energy strategy.
    Industry arguments for nuclear power of course also highlight the 
low production cost of fission-generated electricity, currently at a 
little over 2 cents per kilowatt-hour. It is in this area of economics 
that the complexities of nuclear become most apparent. While pro-
nuclear analyses, such as those of the Nuclear Energy Institute, list 
capital costs of 3.8-4.8 cents/kWh, nuclear opponents such as Rocky 
Mountain Institute (www.rmi.org) cite costs of 8-12 cents/kWh. A 
credible argument can be made for either cost calculation.
    In fact, a key issue that must be addressed in evaluating nuclear 
power is degree to which ideology--either for or against--drives the 
analysis of cost. The differences in the costs for a variety of nuclear 
energy related factors are often extreme. The NEI, for example, lists 
the 20 construction times of 4-5 years possible for new nuclear power 
plants, while RMI quotes the historical construction time of over 10 
years per plant, and costs, including overruns of $2200-4,000/kW. NEI 
cites the initially computed costs of $1550-1880/kW. In perhaps the 
most egregious example, NEI quotes the cost of waste management at 0.1 
cent/kWh, while RMI cites the same 0.1 cent/kWh per plant, but then 
adds in 1 cent/kWh more if the cost of Yucca mountain facility is 
included in the cost. Similarly, NEI quotes 0.05-0.1 cent/kWh for the 
decommissioning cost (a fee paid into the decommissioning fund) while 
RMI quotes a cost of 0.4-1.0 cent/kWh for decommissioning when the 
California nuclear bailout (AB1890) is included in the cost. These 
differences reflect an important disconnect between the nuclear energy 
industry and much of the rest of the national energy infrastructure.
    If I were to guess, nuclear power is likely to continue to provide 
roughly 20 percent of our electricity for many years to come. This is 
based on the continuing tension between the pro- and anti-nuclear 
energy lobbies. The current level represents an uneasy truce where 
current facilities continue to operate, with the potential for some new 
plants there, but unlikely to greatly exceed those that must be retired 
due to age or other factors. A significant increase in nuclear plants 
is in my view both unlikely due to opposition, and unnecessary in light 
of the growing number of low-carbon alternatives, that include energy 
efficiency, biomass, wind, and solar energy. A wealth of models exists, 
of course, that collectively are used to forecast anything from a 
complete elimination of the industry, to a dramatic expansion of our 
nuclear fleet. Experts who pretend to have a more precise forecast than 
this are not being realistic: the extent of our nuclear future is a 
consequence of policy, not an economic forecasting.

University Capacity for Nuclear Energy Training and Innovation

    There is a great deal of concern within the nuclear industry and 
the academic community over the decline in the number of nuclear 
engineering programs and research reactors in the United States (see, 
e.g., the Corrandini report; footnote 3). A recent GAO analysis, 
however, estimated that the number of nuclear engineering graduates 
would be sufficient to meet the personnel demands of even a ``high 
growth'' scenario (with the U.S. nuclear fleet growing to 110 plants 
by 2020) for an expansion of nuclear power such as that advocated by 
the Nuclear Energy Institute. While the GAO is quick to caution that 
this calculation is fraught with uncertainties, in particular over the 
number of nuclear engineering graduates that find employment in other 
fields, it is consistent with my own estimates and those of several 
colleagues. The current set of graduate nuclear science and engineering 
programs in the U.S. is more than capable of producing 50-70 new 
graduates per year, which would be more than enough to sustain this 
industry.
    In light of this rough calculation, efforts to create more nuclear 
engineering departments are, in my view, misguided. A smaller number of 
departments that are strong in research and teaching will serve the 
country better than a larger number of diluted, weaker, ones. In fact, 
nuclear engineering departments already suffer from an important 
weakness: nuclear science and engineering is not, on average, 
attracting the best students. There are some outstanding students, to 
be sure, but even with the recent upturn in the industry enrollments 
are flat, at best. The current wave of plant re-licensing, while 
important to the industry, does not provide the excitement to draw in 
the best students. In fact, nuclear engineering programs are losing 
students to electrical and computer science departments.
    In every field the surest way to attract the best students is to be 
innovative, daring, and relevant. Nuclear engineering programs, while 
staffed with many excellent individuals, are not at the cutting edge. 
New vision is needed. In my service on the Department of Energy's GRNS 
Committee in the Generation IV process I was greatly disturbed to 
discover that the roadmap process was not overflowing with individuals 
excitedly discussing new reactor ideas, ways to dramatically reduce the 
waste stream, and ideas for how to integrate nuclear energy training 
more fully into the wider energy infrastructure. The Generation IV 
mandate was to develop a process for a truly innovative research and 
development process for the next generation of nuclear plants. Instead, 
it was a very well managed, analytically sound, evaluation of a range 
of relatively near-term extensions of current plant designs. This is 
not a criticism of the individuals, many of whom are outstanding, but 
it is a strong recommendation that the ways that nuclear energy systems 
are conceived and researched needs an overhaul.
    In an important example, the Gen IV discussions of hydrogen 
production by nuclear power plants was painfully limited and 
conventional. Over the past five years half of the papers in the field 
of nuclear hydrogen, a field that could revolutionize both the nuclear 
energy industry and potentially the U.S. energy system overall, were 
authored or co-authored by one individual. This researcher, Charles 
Forsberg of Oak Ridge National Laboratories, is outstanding and has 
made major contributions. However, at the point in history when 
hydrogen is now on the threshold of potentially becoming a major energy 
carrier for both stationary and vehicle applications, the lack of a 
diverse research base on the critical issues of nuclear hydrogen 
production is startling.
    Each of these concerns with the university capacity for nuclear 
science and technology training largely reflects the overly insular 
nature of many departments and programs. Engineering programs generally 
are infamous for packing the schedules of their students so that they 
have little opportunity to diversify their education. The ABER 2000 
accreditation process is thankfully imposing conditions of departments 
that force them to not only offer a wider range or courses themselves, 
but to broaden the training of students with courses in other 
engineering and non-engineering areas. This is absolutely critical to 
prevent ``in-breeding'' and to challenge students and faculty to thin 
in new, innovative ways. Graduate students in nuclear engineering 
departments very much need this more diverse education. A number of 
mechanisms exist to support this broader energy education, including:

        <bullet> LEncourage students to obtain Master's degrees in a 
        different discipline than their intended Ph.D. field (for 
        example through fellowships or support for added time and 
        flexibility in graduate school)

        <bullet> LDevelop a curriculum in ``energy engineering'' that 
        schools could consider, and adopt in sum or in part to provide 
        nuclear engineering students and even post-doctoral fellows 
        with a broader energy systems and even energy economics and 
        policy perspective

        <bullet> LDevelop university exchange programs, particularly 
        with overseas departments where very different teaching styles 
        exist, and where the nuclear energy industry is very different 
        from that in the U.S.

    An important first step would be to convene a group of U.S. and 
foreign nuclear energy experts, along with scholars, practitioners, and 
policy makers from other energy sub-fields to develop a more 
comprehensive suite of mechanisms that could be implemented to 
diversify and to add excitement and innovation to the field.

The Federal Role

    The Federal Government plays the pivotal role in the encouragement 
of innovation in the energy sector. Not only are federal funds 
critical, but as my work and that of others has demonstrated, private 
funds generally follow areas of public sector support. One particularly 
useful metric--although certainly not the only measure--of the 
relationship between funding and innovation is based on patents. Total 
public sector funding and the number of patents, across all 
disciplines, in the United States have both increased steadily over at 
least the past three decades (Figure 5).S6602
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    The situation depicted here, with steadily increasing trends for 
funding and results (patents) is not as rosy when energy R&D alone is 
considered. In that case the same close correlation exists, but the 
funding pattern has been one of decreasing resources (Figure 6A). 
Figure 6A shows energy funding levels (symbol: ) and patents held by 
the national laboratories (symbol: <diamond>). The situation need not 
be as bleak as it seems. During the 1980s a number of changes in U.S. 
patent law permitted the national laboratories to engage in patent 
partnerships with the private sector. This increased both the interest 
in developing patents, and increased the interest by the private sector 
in pursuing patents on energy technologies. The squares (<box>) in 
figure 6 show that overall patents in the energy sector derived from 
public sector funds increased.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Figure 6B reveals the crucial truth: patent levels in the nuclear 
field have declined, but not only that, public-private partnerships 
have not developed significantly in the nuclear field in the United 
States. This is a particularly important message for federal policy. 
Novel approaches are needed to encourage new and innovative modes of 
research, teaching, and industrial innovation in the nuclear energy 
field. To spur innovation in nuclear science a concerted effort would 
be needed to increase the types and levels of cooperation by 
universities and industries in areas that depart significantly from the 
current ``Generation III'' and equally, away from the ``Generation IV'' 
nuclear power plans. Similar conclusions were reached by M. Granger 
Morgan, head of the Engineering and Public Policy Program at Carnegie 
Mellon University, in his evaluation of the organization and sociology 
of the U.S. nuclear power industry.
    A second important issue that this committee should consider is the 
degree of federal support for nuclear fission relative to other 
nations. Funding levels in the U.S. are significantly lower than in 
both Japan and France. Far from recommending higher public sector 
funding, what is arguably a more successful strategy would be to 
increase the private sector support for nuclear R&D and student 
training fellowships. Importantly, this is precisely the sort of 
expanded public-private partnership that has been relatively successful 
in the energy sector generally (Figure 6B) but is largely lacking in 
nuclear science and engineering.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    This emphasis on industry resources used to support and expanded 
nuclear program, under careful public sector management, has been 
echoed by a variety of nuclear engineering faculty members:

        LI believe that if you were to survey nuclear engineering 
        department heads, most would select a national policy to 
        support new nuclear construction, over a policy to increase 
        direct financial support to nuclear engineering departments. A 
        firm commitment by the Federal Government, to create incentives 
        sufficient to ensure the construction of a modest number of new 
        nuclear plants, with the incentives reduced for subsequent 
        plants, would be the best thing that could possibly be done for 
        nuclear engineering education and revitalization of the 
        national work force for nuclear science and technology.

                                                Professor Per Peterson, 
                                                Chair,
                                                Department of Nuclear 
                                                Engineering,
                                                University of 
                                                California, Berkeley

Recommendations

    Cross-disciplinary training is critical in the energy field, and is 
particularly critical for the nuclear power sector, which should be 
more fully integrated into energy planning and evaluation across a wide 
range of energy technologies and systems. Nuclear science and 
engineering departments should be supported and encouraged to provide a 
more widely interdisciplinary training at both the undergraduate and 
graduate levels.
    The economics of nuclear power provide a telling example of it 
being managed as a ``technology apart'' instead of engaging in a more 
consistently comparable evaluation of energy options and issues as part 
of a true national energy policy.
    Hydrogen is a particularly important promising future energy 
carrier. The potential for nuclear power plants to play an important 
role in a hydrogen future exists, but far more research needs to be 
conducted on this relationship.

Acknowledgments

    I would like to thank Charles Forsberg, Bill Kastenberg, and Per 
Peterson for their input on the issues of the relationship of 
university programs and the U.S. nuclear energy industry. Greg Nemet, 
doctoral student in the Energy and Resources Group provided invaluable 
research assistance in the preparation of this testimony. E-mail: 
<a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="d3b4bdb6beb6a793a0bcb0a1b2a7b6a0fdb1b6a1b8b6bfb6aafdb6b7a6">[email&#160;protected]</a>

                     Biography for Daniel M. Kammen
    Daniel M. Kammen received his undergraduate education in physics 
from Cornell University 1984. He received his Masters (1986) and 
Doctorate (1988) degrees in physics, from Harvard University. He was a 
Bantrell & Weizmann Postdoctoral Fellow at the California Institute of 
Technology, and then a lecturer in the Department of Physics at Harvard 
University. From 1992-1998 Kammen was on the faculty of the Woodrow 
Wilson School of Public and International Affairs at Princeton 
University, where he was Chair of the Science, Technology and 
Environmental Policy Program. Kammen is now Professor of Energy and 
Society in the Energy and Resources Group (ERG), and in the Department 
of Nuclear Engineering at the University of California, Berkeley. At 
Berkeley Kammen is the founding director of the Renewable and 
Appropriate Energy Laboratory (http://socrates.berkeley.edu/rael), and 
is campus representative to the University of California Energy 
Institute. He has been a Lecturer in Physics and Natural Science at the 
University of Nairobi.
    Kammen's research centers on the science, engineering, economics 
and policy aspects of energy management, and dissemination of renewable 
energy systems. He also works on the health and environmental impacts 
of energy generation and use; rural resource management, including 
issues of gender and ethnicity; international R&D policy, climate 
change; and energy forecasting and risk analysis. He is the author of 
over 140 journal publications, a book on environmental, technological, 
and health risks (Should We Risk It? Princeton University Press, 1999) 
and numerous reports on renewable energy and development. Kammen 
received the 1993 21st Century Earth Award and is a Fellow of the 
American Physical Society. He is a Permanent Fellow of the African 
Academy of Sciences. He appears frequently in the media as a 
commentator on energy and environmental issues.
    For information of any of these activities, see http://
socrates.berkeley.edu/dkammen.

    Chairman Biggert. Thank you, Dr. Kammen.
    Ms. Howard.

 STATEMENT OF MS. ANGELINA S. HOWARD, EXECUTIVE VICE PRESIDENT 
   OF POLICY, PLANNING, AND EXTERNAL AFFAIRS, NUCLEAR ENERGY 
                           INSTITUTE

    Ms. Howard. I believe we are putting some slides up. Here 
we go.
    Chairwoman Biggert, Ranking Member Lampson, and 
distinguished Members of the Subcommittee, I am Angie Howard, 
Executive Vice President of the Nuclear Energy Institute, which 
is the Washington, DC-based policy institute for the nuclear 
energy industry.
    [Slide.]
    America's 103 nuclear power plants are the safest, most 
efficient, and reliable in the world, and are the largest 
source of emission-free electricity in the United States. Last 
year, our nuclear plants reached record levels for safety, 
efficiency, and electricity production. Sixteen reactors have 
received renewed operating licenses, and will expect--and we 
expect the vast majority of the remaining reactors in our 
country will extend their lives from 40 years to 60 years. In 
fact, the workers who will operate the Quad Cities plant in 
Illinois or the Comanche Peak in Texas are not even in the 
workforce yet. And to meet future electricity demand and 
protect the environment, new nuclear power plants will be 
needed in the future. In fact, the industry has a program in 
order to achieve and maintain the 20 percent of electricity 
that we have today in this country generated from nuclear 
energy. We will need to add 50,000 megawatts of new nuclear 
generation by 2020 in order to just maintain the 20 percent 
non-emitting generation that we enjoy today.
    So we feel that it is essential for Congress to adopt 
policies that will foster the vital training and research 
infrastructure of the nuclear technology sector. Today, I would 
like to touch on the staffing crisis that we are seeing in the 
industry, how federal funded programs are critical to meeting 
the staffing needs, including nuclear engineering, health 
physics, and other engineering disciplines, and also the 
federal support for skilled craft and technician training, 
which is vital to the industry.
    [Slide.]
    A study conducted by the NEI last--two years ago indicates 
a need for 90,000 new workers in the industry between 2002 and 
2011 and 26,000 in just the power sector alone. A key part of 
this slide shows that not only does the power sector need a 
significant number of individuals in the coming years, there 
will be great competition for the available pool of workers. We 
expect to see the first wave of retirements in the next three 
to five years, but far more in the 7- to 10-year range. In a 
report on the issues facing the Department of Energy, the 
General Accounting Office concluded that the shortage of 
technical staff at DOE could reach crisis proportions within 
the next 10 years. And also, in addressing the Nuclear 
Regulatory Commission, the GAO found that 33 percent of the 
Commission's technical professionals will be eligible for 
retirement by the end of 2005, again threatening the agency's 
ability to achieve its missions.
    [Slide.]
    Workers--unfortunately, the supply of workers for key areas 
of nuclear technologies will decrease in the next decade, as 
shown in this slide. And most effected will be in the health 
physics and nuclear engineering. The number of four-year 
programs across our nation to train future nuclear scientists 
has declined to approximately 25, a 50 percent reduction since 
1970 and this year, as the Chairwoman said, 27 operating 
research and training reactors, more than a 50 percent decline 
since 1980.
    The industry supports H.R. 6, which includes Chairwoman 
Biggert's legislation. This legislation will fully fund the 
university programs by increasing funding for student 
recruitment, teaching facilities, fuel, and other reactor 
equipment, and instructors to educate a new generation of 
American nuclear specialists. We hope to see these provisions 
in the final legislation that should pass both Houses of 
Congress. NEI encourages the Committee to consider, also, a new 
$2 million program within the Office of Nuclear Energy to 
support universities that have undergraduate and graduate 
programs in health physics.
    [Slide.]
    We also need support for technical training programs and 
skilled craft. As you can see from this slide, the need for 
technical and craft personnel is the third most vital for the 
industry. And the industry supports the implementation of a 
program to support technician and craft training within the 
context of the energy bill now being considered in the Senate. 
This bill sets aside $20 million each year through fiscal year 
2008 to train skilled personnel. This funding will supplement 
the aggressive workforce programs conducted by organized labor 
and supplement the industry's activities.
    And the industry continues to support this vital and--these 
vital issues. Scholarships and fellowship programs at the rate 
of about $1 million a year are awarded annually by the 
industry. And plus we have in place programs to help retain--
attract and retain young professionals to the industry.
    We urge you to continue to support Chairwoman Biggert's 
legislation contained in H.R. 6 and the investments in the DOE 
university programs. To maintain our nation's position as the 
international leader in nuclear technology, it is vital that 
these start to turn around.
    Thank you very much.
    [The prepared statement of Ms. Howard follows:]
                Prepared Statement of Angelina S. Howard
    Chairman Biggert, Ranking Member Lampson and distinguished Members 
of the Subcommittee, I am Angie Howard, Executive Vice President of the 
Nuclear Energy Institute (NEI). NEI is the Washington, D.C.-based 
policy organization for the nuclear energy industry.
    NEI's 270 corporate and other members are engaged in the beneficial 
use of nuclear technologies. They represent a broad spectrum of 
interests, including every U.S. energy company that operates a nuclear 
power plant. NEI's membership also includes nuclear fuel cycle 
companies, suppliers, engineering and consulting firms, national 
research laboratories, manufacturers of radiopharmaceuticals, labor 
unions, law firms and 57 universities.
    America's 103 nuclear power plants are the safest, most efficient 
and reliable in the world. Nuclear energy is the largest source of 
emission-free electricity generation in the United States. Nuclear 
power plants in 31 states provide electricity for one of every five 
homes and businesses in the Nation, and the industry again last year 
reached record levels for efficiency and electricity production.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    The first illustration shows how much more electricity has been 
produced by our nuclear plants over the past five years through greater 
efficiency--increased electricity output from our existing nuclear 
reactors. From 1998 to 2002, the increases in efficiency were 
equivalent to adding 13 1,000-megawatt power plants to our nation's 
electricity grid.
    Last year's record performance capped the best decade in the 
industry's history. Even with growth in overall energy demand and 
production, America's nuclear power plants have kept pace and, as our 
nation's second largest source of electricity, continue to provide 
approximately 20 percent of the Nation's electricity.
    The growth in nuclear power production avoided the environmental 
disruptions and impacts that would have occurred if new electric 
generation had to be brought on line to meet our country's electricity 
needs. The lack of new nuclear construction since the 1980s often is 
identified as a sign of industry stagnation, when in fact, expanded 
operation of existing facilities has actually been the environmentally 
preferable alternative for making additional electricity.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    As you can see from my next illustration, nuclear power plant 
capacity increases and operating efficiencies continue. Plant uprates, 
improved maintenance and reduced outage times will contribute to even 
higher operating efficiency and additional electricity output from 
existing power plants. But these increases are finite, limited to the 
maximum capacity of each reactor. What can we expect from our current 
operating fleet as far as lifetime service is concerned?
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    In the 1990s, we began the process of extending the operating 
licenses of our nuclear reactors for an additional 20 years, to a total 
of 60 years. Congress selected the original 40-year license period 
because it was a typical amortization period for an electric power 
plant. Congress also allowed for license renewal. As this illustration 
shows, 16 reactors have renewed operating licenses. We expect the vast 
majority of plants to extend their operating licenses beyond the 
initial 40-year period. The people who will operate and maintain these 
plants toward the end of the licenses are not even in the work force 
yet.
    We should expect total electric output from nuclear plants to 
continue to increase along with increases in productivity and 
additional plant uprates. But to meet future demands of an electricity-
hungry digital economy, especially when environmental requirements 
limit some options, several electric companies are beginning to examine 
the market for new nuclear power plants. Demand for electricity is 
expected to grow by 40 percent by 2020, according to the Department of 
Energy. In order to maintain at least one-third of our total 
electricity production from emission-free sources, the industry has set 
an ambitious goal for the future: building 50,000 megawatts of new 
nuclear energy production by 2020, and gaining another 10,000 megawatts 
of capacity by making today's plants even more efficient.
    Already, the industry is working in a private-public partnership 
with the Department of Energy. DOE's Nuclear Power 2010 initiative has 
as its goal to help the first of those new nuclear plants begin 
operation by the end of this decade. But it is essential that Congress 
adopt policies that foster the further development of this vital part 
of our nation's energy mix--including support to the vital training and 
research infrastructure of the sector.
    My testimony today will address three key points:

        1. LThe nuclear industry is facing a looming staffing crisis.

        2. LFederally funded university programs are critical to 
        meeting staffing needs in several critical areas, including 
        nuclear engineering, health physics and various engineering 
        disciplines.

        3. LFederal support for skilled craft and technician training 
        also is key to meeting the need for the highly qualified work 
        force our industry needs to continue its high levels of 
        efficiency and electricity production.

    Without question, nuclear energy in the United States is 
experiencing a renaissance. We see clear signs that this renaissance is 
gaining new recognition in Congress--through bipartisan legislation 
introduced this year in the House and Senate, by the Administration in 
its national energy policy and among the American public. The 
renaissance is driven by the overwhelming need to maintain our diverse 
mix of energy generation and to meet the ambitious energy and 
environmental requirements of the future.
    The industry is entering a new phase--one of developing new plants 
incorporating new, advanced reactor technologies that could be used 
uniformly across the Nation to meet increasing electricity demand. As 
we enter this dynamic new era, it is critical that we do so on the safe 
foundation that only a strong federal research and development base can 
provide.

Looming Workforce Crisis
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Last year, NEI conducted a major study on the staffing needs of the 
nuclear industry, which includes plant operations, plant outages, 
government personnel and government contractors, front- and back-end 
fuel cycle, engineering design, services and construction, and 
universities. Although the study did not take into account the 
possibility for new plant construction and operation, it indicates a 
need for 90,000 new workers in our industry from 2002 to 2011.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    A more recent study of staffing for the nuclear power sector alone 
indicates that many plants are facing significant attrition in such 
areas as maintenance, engineering, operations, safety and radiation 
protection. Most of the attrition in the nuclear power sector will be 
due to retirement. We expect to see the first wave of retirements in 
the next three to five years, but a far more significant number of 
retirements seven to 10 years from now.
    Data show that the need for nuclear engineers and health physicists 
will outstrip supply.
    A recent study conducted by the Health Physics Society\1\ concluded 
that a critical shortage exists in the supply of qualified radiation 
protection professionals throughout a broad spectrum of activities, 
including nuclear power production. The society also concluded that the 
current imbalance between supply and demand will significantly worsen 
in the near-term after which it will become completely untenable. The 
present demand for radiation protection professionals is approximately 
130 percent of supply, and over the next five years demand will 
outstrip supply by 160 percent. The Nuclear Energy Institute study\2\ 
concluded that the demand will be 210 percent of supply in 10 years.
---------------------------------------------------------------------------
    \1\ ``Human Capital Crisis in Radiation Safety; Position Statement 
of the Health Physics Society,'' August 2001.
    \2\ ``Nuclear Pipeline Analysis,'' Nuclear Energy Institute. 
December 2001.
---------------------------------------------------------------------------
    A shortage of radiation protection professionals has also been 
identified as a major strategic issue by the Institute of Nuclear Power 
Operations (INPO) \3\ and several power producers.
---------------------------------------------------------------------------
    \3\ ``A Strategic Look at the Future of Radiological Protection,'' 
Proceedings of the 2001 Radiation Protection Manager's Workshop, 
Institute of Nuclear Power Operations. September, 2001.
---------------------------------------------------------------------------
    Another area where we project a critical shortage is in nuclear 
engineering. According to NEI's study, demand for nuclear engineers 
will be about 150 percent of supply over the next 10 years.
    To give you some figures, DOE reports that the number of nuclear 
engineering Bachelor of Science enrollments declined from 1,400 in 1993 
to about 500 in 1998. Oak Ridge Institute for Science and Education 
found that total U.S. undergraduate nuclear engineering degrees 
decreased by 20 percent in 2000 and masters by 6 percent.\4\ Although 
some universities are seeing a stabilization or slight upturn in 
nuclear engineering enrollments, we still must address this shortfall.
---------------------------------------------------------------------------
    \4\ ``Nuclear Pipeline Analysis,'' Nuclear Energy Institute. 
December 2001.
---------------------------------------------------------------------------
    The Government Accounting Office (GAO) has prepared a series of 
reports analyzing the looming crisis in human capital and its effects 
on key government agencies, designating the issue of human capital as a 
government-wide high-risk area.\5\ In a report on the issues facing the 
Department of Energy,\6\ the GAO concluded that the shortage of 
technical staff at DOE will reach crisis proportions within the next 10 
years.
---------------------------------------------------------------------------
    \5\ GAO-01-357T, ``Human Capital: Meeting the Governmentwide High-
Risk Challenge,'' Statement of David M. Walker, Comptroller General of 
the United States, in testimony before the U. S. Senate. February 1, 
2001.
    \6\ GAO-01-246, ``Major Management Challenges and Performance 
Risks: Department of Energy,'' Government Accounting Office. January, 
2001.
---------------------------------------------------------------------------
    In a report on the issues facing the Nuclear Regulatory 
Commission,\7\ the GAO concluded that 33 percent of the technical 
professionals will be eligible for retirement by the end of 2005. In a 
further analysis of the NRC's human capital issues, the GAO also 
concluded that the NRC's ability to maintain the skills needed to 
achieve its mission is threatened by the decline in university 
enrollments in nuclear engineering and other fields related to nuclear 
safety.\8\ In response to this, the NRC has already initiated an 
aggressive recruiting campaign and has instituted a practice of hiring 
non-nuclear-educated personnel and providing customized training 
programs in nuclear technology. This is a laudable stop-gap measure, 
but it will not resolve the problem over the long-term.
---------------------------------------------------------------------------
    \7\ GAO-01-259, ``Major Management Challenges and Performance 
Risks; Nuclear Regulatory Commission,'' Government Accounting Office. 
January, 2001.
    \8\ GAO-01-241, ``Major Management Challenges and Performance 
Risks; A Governmentwide Perspective,'' Government Accounting Office. 
January, 2001.
---------------------------------------------------------------------------
    With the advent of advanced medical techniques, competition between 
the medical community and nuclear industry for nuclear engineers and 
health physics degreed personnel has also increased. The government--
including the Department of Homeland Security--also will be competing 
for this same labor pool.

Need for DOE University Programs

    As our industry matures, so does our workforce. Our dramatic 
improvements in productivity and efficiency are due in large part to 
our highly skilled and excellently trained employees.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    This training comes primarily from two sources: Universities and 
accredited industry training (through INPO). With the looming waves of 
retirement throughout the nuclear technologies sector, it will be vital 
that the new employees coming into the industry are highly skilled upon 
entrance and the best and brightest our nation has to offer. For 
example, new nuclear engineers will be needed to replace retiring staff 
in the commercial sector, as well as faculty members at leading 
educational institutions.
    Unfortunately, the pipeline for key areas of nuclear technologies 
will continue to go unfilled in this decade as identified in this 
illustration.
    With nuclear plant relicensing and plans for new plants, demand for 
highly educated and trained professionals will continue. The only 
program that provides Federal Government support for educating and 
training our nuclear energy science, technology and engineering 
knowledge base is DOE's University Support Program. This program 
supports vital research and educational programs in nuclear science at 
the Nation's colleges and universities.
    The number of four-year programs across our nation to train future 
nuclear scientists has declined to approximately 25--a 50 percent 
reduction since about 1970. Current state budget shortfalls are 
exacerbating the closure rate. Universities across the United States 
cannot afford to maintain their small research reactors, forcing their 
closure at an alarming rate. This year there are only 28 operating 
research and training reactors, more than a 50 percent decline since 
1980. Two-thirds of the nuclear science and engineering faculty are 
over age 45, with little ability to draw new and young talent to 
replace them.
    NEI recommends $26.5 million for DOE's University Support Program 
for fiscal year 2004 to stop the disintegration of this valuable 
infrastructure. To maintain our nation's position as the international 
leader in nuclear technology, it is vital that the trends mentioned 
here be reversed and that our nation's best and brightest technical 
minds be attracted to the nuclear technologies. We support H.R. 6, 
which includes Chairman Biggert's legislation, H.R. 2126. This 
legislation will fully fund university programs by increasing funding 
for student recruitment, teaching facilities, fuel and other reactor 
equipment, and instructors to educate a new generation of American 
nuclear specialists. We hope to see these provisions in final 
legislation that passes both houses of Congress.
    NEI encourages the Committee to consider a new $2 million program 
within the Office of Nuclear Energy to support universities that have 
undergraduate and graduate programs in health physics. The industry's 
most recent survey of human resources revealed that health physics 
professionals are declining in numbers and the need will become acute 
in the next few years, when many will retire. This critical resource 
will be necessary to support the industry, government programs at DOE 
sites and national laboratories, NRC activities and homeland security 
programs.
    For more than 20 years, the industry has had a program to support 
higher education.
    To foster the training of engineers, the nuclear industry funds 
several educational assistance programs through the National Academy 
for Nuclear Training. The National Academy Educational Assistance 
Program supports U.S. nuclear engineering education, encourages 
students to consider careers in the nuclear energy industry, and 
supports students who would be likely candidates for employment in the 
industry after graduation. Each year, the program awards $560,000 in 
graduate fellowships and $375,000 in undergraduate scholarships. Since 
1980, the industry has provided more than $19 million to support some 
3,400 students.

Need for Skilled Craft and Technician Training Programs

    One area that is not currently supported by the Federal Government 
to any great degree is technical and skilled craft training programs. 
The industry supports the implementation of such a program within the 
context of the energy bill now being considered in the Senate. The bill 
sets aside $20 million each year through fiscal year 2008 to train 
skilled technical personnel. This funding will supplement the 
aggressive work force programs conducted by organized labor and the 
industry.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    As you can see from this illustration, the need for this type of 
personnel is the third most vital for the industry. The legislation 
does the Nation a great service by recognizing and addressing vital 
personnel and training needs for the energy sector. In so doing, 
Congress is cultivating the vital talent and skill needed to power our 
homes, our cities, our economy and our future.
    I commend the Science Committee for its foresight in addressing 
secondary school technical education last year. It is important to 
foster science and math education for young children, because they 
ultimately will fill college classrooms in technical fields. In 
particular, I want to thank Rep. Ehlers for working to secure 
appropriations for the National Science Foundation. The law that was 
passed, Public Law 107-368, includes many exciting provisions that 
support science and math education. And although the focus in the past 
has been on advanced education, Section 9 authorizes grants to 
institutions of higher learning, or eligible nonprofit organizations, 
to establish math and science education partnership programs to improve 
secondary school instruction. It also emphasizes training master 
teachers and encouraging girls to pursue studies in science, math, 
engineering and technology. This is exciting and far-sighted 
legislation that further supports America's need for technically 
trained professionals.
    In conclusion:

        1. LThe nuclear industry is facing a looming staffing crisis.

        2. LFederally funded university programs are critical to 
        meeting staffing needs in several critical areas, including 
        nuclear engineering, health physics and other engineering 
        disciplines.

        3. LFederal support for skilled craft and technician training 
        is key to meeting the need for the highly qualified work force 
        our industry needs to continue its high levels of efficiency 
        and electricity production.

    There are critical steps to be taken in cultivating the next 
generation of nuclear professionals to advance the use of proven and 
vital nuclear technologies, including nuclear power plants. These 
plants are and will continue to be a vital part of our nation's energy 
mix--and the only large source of emission-free electricity that is 
readily expandable. I ask for your continued support in the effort to 
ensure an adequate supply of highly qualified technical professionals 
for nuclear energy and other beneficial uses of nuclear technologies. 
Thank you.

                    Biography for Angelina S. Howard
    Angie Howard is Executive Vice President of Member Relations and 
External Affairs for the Nuclear Energy Institute. Ms. Howard, who 
joined NEI in 1996, has also been responsible for the organization's 
Industry Communications activities.
    Before joining NEI, Ms. Howard was Vice President and Director of 
Industry Relations and Information Services for the Atlanta-based 
Institute of Nuclear Power Operations. She also was involved in the 
formation of the World Association of Nuclear Operators and the 
development of communications activities for the WANO-Atlanta Center, 
which is co-located with INPO. Before joining INPO in 1980, Ms. Howard 
was employed by Duke Power Company from 1969 to 1980.
    Ms. Howard received a Bachelor's degree from Clemson University, 
and is a graduate of the Advanced Management Program at the Harvard 
University Graduate School of Business. She has completed the Reactor 
Technology Program for Utility Executives sponsored by the 
Massachusetts Institute of Technology and the National Academy for 
Nuclear Training. Ms. Howard is an accredited member of the Public 
Relations Society of America and is a member of the American Nuclear 
Society. She also is a member of the Clemson University Research 
Foundation Board.

    Chairman Biggert. Thank you, Ms. Howard.
    Dr. Stubbins.

   STATEMENT OF DR. JAMES F. STUBBINS, HEAD OF THE NUCLEAR, 
PLASMA, AND RADIOLOGICAL ENGINEERING DEPARTMENT, UNIVERSITY OF 
                ILLINOIS-URBANA-CHAMPAIGN (UIUC)

    Dr. Stubbins. Chairwoman Biggert, Mr. Lampson, and Members 
of the Committee, thank you for the opportunity to provide your 
Committee with some information and perspectives about the 
future of university nuclear science and engineering programs.
    This topic is of central concern to the Nuclear Engineering 
Department Heads Organization, NEDHO, which I chaired until 
last week. This organization includes Heads and Chairs of all 
of the nuclear engineering departments in the U.S. and broadly 
represents our common interests to see the nuclear engineering 
discipline flourish at universities.
    I am also speaking for my personal interest as Head of the 
Department of Nuclear, Plasma, and Radiological Engineering at 
the University of Illinois at Urbana-Champaign. It is the 
single department of nuclear engineering in the State of 
Illinois, the most highly nuclear state in the U.S. and the 
home of the first manmade nuclear reactor.
    The timing of this hearing is particularly opportune since 
there are several forces interacting currently to focus 
attention on the need to support and grow university programs 
in nuclear science and engineering, and some of those you have 
already heard. These forces included several recent positive 
developments to expand the use of nuclear technology for 
advanced nuclear energy systems, nuclear medicine, nuclear 
fusion, and to deal directly with the lingering issues of 
nuclear waste management, and national and international 
security. In fact, the many current positive activities are too 
numerous to mention in this short time.
    These positive trends have refocused the national outlook 
on important and broad role of nuclear technology and 
techniques can play in meeting our societal needs. The role of 
government has been critical in shaping and supporting many of 
these positive trends.
    These positive dynamics, however, are balanced by several 
concerns, which present major challenges to further development 
of nuclear power and technology. These include: as you have 
seen, an aging workforce; pressures on nuclear academic 
programs and university research reactors, pressures that are 
increasing now in times of tight university budgets; lingering 
public perceptions about nuclear power, nuclear waste, and 
international nuclear security; and difficulties in the 
emergence of a competitive nuclear utility industry through 
deregulation.
    In fact, both the positive and challenges--positive aspects 
and challenges have been helpful in attracting a new generation 
of students to study nuclear science and engineering. These 
students are buoyed by the positive trends in the nuclear 
industry and are willing to accept the challenges that lie 
ahead. These students see meaningful and rewarding future in 
the nuclear engineering profession due to the expanding and 
long-term opportunities that the field now offers. This is a 
real turnaround from the low-enthusiasm enrollments of the 
1990's, a difficult period not only for the nuclear industry, 
but also for university degree programs and university research 
reactors. This period saw the continued decline of several 
nuclear engineering departments and academic programs and the 
loss of university-based research reactors. This decline is 
still underway despite the current upward enrollment trends and 
increased research support for nuclear engineering programs.
    Two of the most recent serious concerns were the impending 
closure of the Ford Nuclear Reactor at the University of 
Michigan, the reactor that I used for my undergraduate Nuclear 
Engineering Degree program days, and the moves to terminate my 
department at the University of Illinois and change its status 
to a program, or to disperse the faculty and program 
altogether. It is important to note that these are major issues 
at two of the largest and best science and engineering 
universities in the country and will have broad, negative, and 
lasting impact.
    There are currently 17 ABET accredited Bachelor of Science 
Degree programs in Nuclear Engineering and one accredited 
Master of Science program. This number is in decline in recent 
years and be--and can be contrasted to the 295 BS Degree 
programs in Electrical Engineering and the 250 BS Degree 
programs in Mechanical Engineering in the U.S. It should be 
noted that the Nuclear Engineering Degree programs are--require 
excellent math and science skills and attract the very best 
students. These programs reside in the best science and 
engineering universities in the country. Nevertheless, at least 
two of the existing BS programs are under severe pressure and 
may not survive. These are the program at Maryland--the 
University of Maryland, and my program at the University of 
Illinois, as mentioned above.
    The situation for university research reactors is no 
better. The current number of university research reactors is 
27, down from a high of 65. Furthermore, the losses have not 
been orderly. Several of the largest, most well maintained 
reactors have closed due to local university pressures. My 
reactor at the University of Illinois is among this group. We 
closed in 1998 due to a local administrative decision not to 
re-license one of the top reactors in the country, our Advanced 
TRIGA Reactor, the last research reactor in the State of 
Illinois. Several of the best reactors have been shut down due 
to local pressures rather than some view to national needs.
    Now the DOE recognizes the need to better support these 
national assets and instituted a few directed studies, which 
led to the development of the Innovations in Nuclear 
Infrastructure and Education, the INIE program, last year. This 
program, which is only partially funded, has provided support 
to several university reactor consortia with significant 
national lab and industry participation. It has encouraged 
enhanced cooperation among university nuclear programs and will 
lead to much broader use and support of the small fleet of 
remaining university research reactors.
    The DOE has taken several other critical steps to direct 
support--to directly support university degree programs, 
including the Nuclear Engineering Education Research, NEER, 
Program, the DOE-Industry Matching Grant Program, and several 
fellowship and scholarship programs, though none of these are 
yet supported at full funding levels.
    These efforts are critical for supporting nuclear programs, 
but challenges remain. For almost all university programs, 
resources are based on undergraduate enrollments. The decade of 
low undergraduate enrollments in the 1990's has compromised the 
position of many nuclear engineering departments that we have 
seen. We need to continue to address the undergraduate 
enrollment issue for a number of reasons. The most important is 
the need to cultivate a highly-qualified, well-educated group 
of nuclear engineers to meet national manpower requirements. 
This should also help stabilize the still shaky status of many 
of the university Bachelor of Science Degree programs.
    In conclusion, the government has played the key role in 
defining and supporting nuclear development in the U.S., an 
area which, in many aspects, the U.S. continues to lead. 
Nuclear engineering education infrastructure in the U.S. has 
maintained its international leadership role. The U.S. 
universities are still the best place in the world to learn 
nuclear science and engineering. This educational leadership 
must be maintained as the necessary means for keeping all of 
the other sectors in the U.S. nuclear portfolio vital and 
vibrant.
    Several possible steps have been taken to support and grow 
the university nuclear education and nuclear reactor 
infrastructure. Further steps are necessary. These include: 
steps which----
    Chairman Biggert. Dr. Stubbins, if you could conclude, and 
we will----
    Dr. Stubbins. Yes.
    Chairman Biggert. I am sure we will get to a lot of this in 
the questions.
    Dr. Stubbins. Okay. These steps include: full funding to 33 
million for nuclear university programs; full funding for the 
INIE program; enhanced interaction between the labs and 
universities and industry; and continued support of the 
development of a new reactor system in the U.S.
    Thank you.
    [The prepared statement of Dr. Stubbins follows:]
                Prepared Statement of James F. Stubbins
    Chairwoman Biggert, Mr. Lampson and Members of the Committee, thank 
you for the opportunity to provide your committee with some information 
and perspectives about The Future of University Nuclear Science and 
Engineering Programs. This topic is the central concern of the Nuclear 
Engineering Department Heads Organization (NEDHO), which I chaired 
until last week. This organization includes the Heads and Chairs of all 
of the nuclear engineering departments in the U.S., and broadly 
represents our common interests to see the nuclear engineering 
discipline flourish at universities. I am also speaking from my 
personal interests as the Head of the Department of Nuclear, Plasma and 
Radiological Engineering at the University of Illinois at Urbana 
Champaign. It is the single department of nuclear engineering in 
Illinois, the most highly nuclear state in the U.S., and the home of 
the first man-made reactor.
    The timing of this hearing is particularly opportune since there 
are several forces interacting currently to focus attention on the need 
to support and grow university programs in nuclear science and 
engineering. These forces include several recent positive developments:

        <bullet> LThe regrouping of nuclear power utilities under 
        deregulation to provide a strong and sustainable nuclear power 
        generation infrastructure;

        <bullet> Lnuclear plant license extensions--several nuclear 
        plants have or will apply for extension of up to 20 years in 
        their operating license;

        <bullet> Lpower up-rates of several existing nuclear power 
        reactors to increase overall nuclear generated electricity;

        <bullet> Lnew nuclear power reactor designs--both abroad and at 
        home, new and future generations of nuclear plants are under 
        active development. The long-term focus of the Generation IV 
        (Gen IV) reactors is headed toward new, more efficient, more 
        passively safe, and secure reactors;

        <bullet> Lnew waste-efficient and proliferation-resistant 
        nuclear fuel cycles--developments are underway to support 
        ``high burn-up'' fuels and the Advanced Fuel Cycle Initiative 
        (AFCI) to develop new fuels and fuel cycles which reduce waste 
        and deter the build up of undesirable side products;

        <bullet> Lcontinuing and growing interest in nuclear fusion--
        the U.S. is now committed to a burning plasma experiment and is 
        negotiating to rejoin ITER (one of the options for a burning 
        plasma experiment);

        <bullet> Lnuclear medicine--nuclear diagnostic techniques, 
        radioisotopes, and a variety of nuclear-based imaging 
        modalities are in increasing use to provide safe, effective 
        medical procedures;

        <bullet> Lmovement forward with management of current nuclear 
        waste at Yucca Mountain--the license process for Yucca Mountain 
        is underway following the recommendation by the President and 
        the assent of Congress last year;

        <bullet> Lpositive steps toward new civilian nuclear plant 
        construction--the DOE and others are supporting an initiative 
        for new nuclear plant construction in the ``2010'' Program. A 
        few utilities have started inquiries for site approval as a 
        first step toward new construction;

        <bullet> LBroad-based research initiatives for improving and 
        advancing nuclear power facilities and operation for example 
        through the Nuclear Energy Research Initiative (NERI) and the 
        international version, INERI;

        <bullet> Lincreased awareness of the impact of carbon-
        containing emissions--the growing public awareness of the role 
        nuclear power can play in reducing carbon-containing and other 
        environmentally unfriendly gases;

        <bullet> Lnational and international security--the growing need 
        for enhanced national and international security through the 
        National Nuclear Security Administration (NNSA) and a broad 
        range of activities to monitor and uncover dangerous nuclear 
        agents;

        <bullet> Lspace nuclear power--the development of a nuclear 
        power base for manned missions to Mars and beyond where 
        nuclear-based propulsion is the only way to provide sufficient 
        continuous power to keep flight times short and mission goals 
        manageable;

        <bullet> Land the emergence of a balanced National Energy 
        Policy--a balance approach to the development of a variety of 
        energy resources in which nuclear power plays a central and 
        long-term role. In addition, the trend toward a hydrogen-based 
        fuel economy will certainly include nuclear power generation.

    These positive trends have refocused the national outlook on the 
important and broad role nuclear technology and techniques can play in 
meeting our societal needs. The role of government has been critical in 
shaping and supporting many of these positive trends.
    These positive dynamics are balance by several concerns which 
present major challenges to further development of nuclear power and 
technology. These include:

        <bullet> Lan aging nuclear workforce;

        <bullet> Lpressures on nuclear academic programs and university 
        research reactors, pressures that are increasing now in times 
        of tight university budgets;

        <bullet> Llingering public perception of nuclear power, nuclear 
        waste and international nuclear security;

        <bullet> Land difficulties in the emergence of a competitive 
        nuclear utility industry through deregulation.

    In fact, both the positive aspects and the challenges have been 
helpful in bringing a new generation of students to study nuclear 
science and engineering. These students are buoyed by the positive 
trends in the nuclear industry and are willing to accept the challenges 
that lie ahead. These students see a meaningful and rewarding future in 
the nuclear engineering profession due to the expanding and long-term 
opportunities that the field now offers. This is a real turn around 
from the low enthusiasm and enrollments of the 1990's, a difficult 
period not only for the nuclear industry, but also for university 
degree programs and university reactors. This period saw the continued 
decline of several nuclear engineering departments and academic 
programs, and the loss of several critical university-based teaching, 
research and training reactors. This decline is still underway despite 
the current upward enrollment trends and increased research support for 
nuclear engineering programs. Two of the most recent serious concerns 
are the impending closing of the Ford Nuclear Reactor at the University 
of Michigan (the reactor I used in my undergraduate studies in Nuclear 
Engineering) and the moves to terminate my department at the University 
of Illinois and change its status to a program, or to disperse the 
faculty and program altogether. I will return to these points later, 
but it is important to note that these are major issues at two of the 
largest and best science and engineering universities in the country, 
and will have broad, negative impact.
    There are currently 17 ABET accredited BS degrees in Nuclear 
Engineering, and one accredited MS degree program. This number has 
declined in recent years and can be contrasted to 295 BS degree 
programs in Electrical Engineering and 250 BS degree programs in 
Mechanical Engineering. Table 1 shows an indication of the engineering 
BS degree types at the top ten graduate colleges of engineering. Note 
that Nuclear Engineering is a prominent degree program at many top 
institutions. Nevertheless, at least two of the existing BS programs 
are under severe pressure and may not survive. These are the program at 
the University of Maryland and my program at the University of 
Illinois, as mentioned above. Several features of nuclear engineering 
educational programs are noteworthy and indicate the need for specific, 
focused attention to the well being of the discipline:

        <bullet> LNuclear engineering is a unique discipline--it is not 
        a sub-discipline of other traditional engineering fields, 
        making it difficult to impossible to flourish as sub-discipline 
        in another department.

        <bullet> LMany nuclear engineering programs which were merged 
        into other engineering departments have dwindled or are 
        completely gone.

        <bullet> LThe nuclear discipline is new--the first reactor was 
        assembled in Chicago just over 60 years ago, and many nuclear 
        engineering programs were formed staring in the late 1950's to 
        early 1960's to educate a new generation of students for a 
        variety of nuclear applications.

        <bullet> LNuclear is ``high tech''--the discipline requires 
        strong math, science and technical skills so nuclear 
        engineering programs are found at the best universities and 
        attract the best students, students who, on graduation, attract 
        the best salaries in the short- and long-term and who have the 
        highest average passing scores on the professional engineering 
        exams.

        <bullet> LNuclear programs are under pressure due to the low 
        enrollments during the 1990's and needs to redistribute 
        resources to other academic areas. This is exacerbated by 
        current, severe university budget pressures.

        <bullet> LThe resurgence of the nuclear engineering profession 
        has prompted the formation of new programs and departments--the 
        most recent are BS programs at South Carolina State and at the 
        U.S. Military Academy, and MS programs at the University of 
        South Carolina and at the University of Nevada at Los Vegas. 
        The development of new programs requires extensive new 
        resources to be successful. Thus these programs should be seen 
        as complementary to the existing programs, and serve to further 
        emphasize the value of the existing nuclear degree programs.

    The situation for university research reactors is no better. The 
current number of university research reactors (URR) is 27, down from a 
high of 65. Furthermore, the losses of have not been orderly. Several 
of the largest, most well maintained reactors have closed due to local 
university pressures. My reactor at the University of Illinois is among 
this group. We closed in 1998 due to a local administrative decision 
not to relicense one of the top few reactors in the country, our 
Advanced TRIGA Reactor, the last research reactor in the State of 
Illinois. Nor have these closures been systematically planned since 
several of the best reactors have been shut down due to local 
pressures, rather than some view to national needs. The DOE recognized 
the need to better support these national assets and instituted a few 
directed studies which led to the development of the in Innovations in 
Nuclear Infrastructures and Education (INIE) Program last year. This 
program is aimed at providing the support base to maintain a national 
university research reactor program with coordination between 
participating universities, national laboratories and industry. In a 
highly competitive process, four reactor consortia were funded last 
year, and two more consortia will be added this year. This effort came 
too late to help reactors which closed in the 1990's, including mine, 
and could not influence more recent closures at Cornell and an 
impending closure at the University of Michigan. Other reactors, 
including some in existing consortia, are still at risk. Table 2 
provides an indication of which of the current largest university 
research reactors are included in INIE consortia. (My reactor is in 
SAFSTOR, but its prominent position on the list indicates the magnitude 
of its loss to our program.) The INIE program, as the Table only 
partially indicates, has led to wide partnering between universities to 
share reactors, reactor technology and reactor resources. Partnering on 
this scale has not been seen before, and has broad benefits for sharing 
teaching and outreach resources which can only strengthen the nuclear 
discipline in general, while also supporting a diminished, but 
necessary, fleet of university reactors.
    The DOE has taken several other critical steps to directly support 
university degree programs, including the Nuclear Engineering Education 
Research (NEER) Program, the DOE-Industry Matching Grant Program, and 
several Fellowship and Scholarship programs. These are in addition to 
university participation in other, broader research programs supported 
by DOE-NE and other DOE offices. Dr. Marcus will describe these in much 
more detail in her testimony, so I will not delineate them further 
here. These programs have been critical to the well being of university 
program. They have been offered on a competitive basis with highly 
focused peer review processes to determine and award only the very best 
proposals. Both the resources and the competitive nature of the award 
process have strengthened university degree programs. These programs 
have also been important in developing and strengthening ties between 
research programs at universities, national labs and with the nuclear 
industry. Nevertheless, these programs remain under-supported. For 
example, more than half of the NEER grant applications are worthy of 
funding. In a good year, less than 20 percent will receive funding, and 
this year less than 10 percent of the new grant applications were 
funded. In addition, only one new DOE-NE Fellowship will be awarded 
this year.
    These efforts are critical for supporting nuclear programs, but 
challenges remain. For almost all university programs, resources are 
based on undergraduate enrollments. The decade of low undergraduate 
enrollments in the 1990's has compromised the position of many nuclear 
engineering departments. We need to continue to address the 
undergraduate enrollment issues for a number of reasons--the most 
important are the need to cultivate a highly-qualified and well-
educated group of nuclear engineers to meet national manpower 
requirements. Increases in undergraduate student enrollments to meet 
this need will also restore the strength of the departments at 
universities. These manpower requirements are widespread--at national 
labs, at utilities, at nuclear vendors, and at nuclear utilities. The 
time line to the biggest impact differs between industry sectors, but 
it is clear that the future well-being of the industry rest entirely on 
attracting and educating new students. Even in sectors where the 
manpower needs are further in the future, for example, the nuclear 
utilities, they will need an extremely well educated workforce to 
provide them the edge they need for the competitive markets they are 
entering, and to maintain secure and safe operation. In the nuclear 
defense sector, international security issues demand a highly educated 
and highly dedicated workforce to replace the currently aging experts. 
The success in every sector of the nuclear enterprise will depend on 
the quality and education of the people they hire. This underlines the 
continuing, acute need to support the nuclear education infrastructure 
in the U.S.
    In this regard, my situation at the University of Illinois is 
instructive, and foreboding. My Department is under pressure to be 
merged with another department or to be dispersed altogether. This is 
despite strong increases in research funding and moderate, but steady 
increases in undergraduate student numbers, and very high national 
ranking and reputation. This problem is exacerbated by the faculty age 
distribution--we, too, have a major issue with an aging work forces, 
common to many university nuclear programs. The average age of my 
faculty is over 56 years, with three of the nine faculty members at age 
70 or more. The older faculty members represent a wealth of knowledge 
in the nuclear field dating back nearly to the beginning. In fact, one 
of these faculty members is the first Ph.D. in Nuclear Engineering 
awarded in the U.S. Nevertheless, my Dean is looking to redistributing 
resources in the College of Engineering and, in the process, to merge 
or disband my Department. This problem is related almost solely to our 
low undergraduate enrollment numbers. At a time when we should be 
building for the future with the rest of the country, we are fighting 
for existence. This is particularly alarming for us. We are the only 
nuclear engineering department in the State of Illinois, a state with 
11 operating nuclear power reactors (and associated spent fuel), 
Argonne National Laboratory, and other nuclear facilities. Illinois 
residents have paid more than $2.4 billion into the federal Nuclear 
Waste Fund. Our program has contributed widely to the state and 
national nuclear infrastructure that supports nuclear power, technology 
and national security. It is hard to accept that a State with such a 
large stake in nuclear power and technology cannot support a Department 
of Nuclear Engineering and the necessary ten to twelve faculty members. 
This picture may be extreme compared to situations elsewhere where 
undergraduate enrollments have climbed more quickly than ours, but it 
is a warning about how fragile the nuclear engineering educational 
infrastructure remains in the U.S., particularly in times of tight 
state and university budgets. Action is required to support and 
maintain these valuable programs.
    In conclusion, the government has played the key role in defining 
and supporting nuclear development in the U.S., an area which, in many 
aspects, the U.S. continues to lead. The globalization of much of the 
nuclear reactor design and support activities leaves the U.S. as a 
major player, at least. In other areas, which directly impact national 
and international security (both in defense and energy self-
sufficiency), and in areas of advanced nuclear systems design, in 
nuclear fusion, in nuclear medicine, and in nuclear space applications, 
the U.S. maintains, and must protect, its leadership role. The nuclear 
educational infrastructure in the U.S. has maintained its international 
leadership role: the U.S. universities are still the best place in the 
world to learn nuclear science and engineering. This educational 
leadership must be maintained as THE necessary means for keeping all of 
the other sectors in the U.S. nuclear portfolio vital and vibrant.
    Several positives steps have been taken to support and grow the 
university nuclear education and nuclear reactor infrastructure. 
Further steps are necessary. These include:

        <bullet> LSteps which lead to supporting the NERAC 
        recommendation of a funding level of $33M for nuclear 
        university programs;

        <bullet> LFull and continuous funding for the INIE program to 
        support university research reactors;

        <bullet> LSupport for enhanced interactions (intellectual and 
        financial) among universities, national laboratories, and 
        industry;

        <bullet> LBetter national liaison with universities to 
        underline the national, as well as local, importance of a 
        strong nuclear education and reactor infrastructure, 
        particularly to protect and enhance existing programs, and to 
        provide opportunities for new programs; and

        <bullet> LContinued support of efforts to establish a new 
        nuclear plant order in the U.S.--this is seen almost 
        universally as a national commitment to nuclear power and is 
        likely to attract many new students to the discipline.

    Thank you for your attention and interest.

Answers to Specific Questions (in addition to comments in the body of 
                    the Statement)

        <bullet> LWhat were the most important recommendations the 
        Nuclear Engineering Department Heads Organization (NEDHO) 
        recently made regarding DOE's university nuclear science and 
        engineering programs? What are the implications for the health 
        of university nuclear science and engineering programs and for 
        the nuclear power industry if DOE were to fall short of 
        implementing those recommendations?

    NEDHO has supported a request for increasing funds in the DOE-NE 
support for University Nuclear Science and Engineering Programs, 
designated in the DOE-NE budget as University Reactor Fuel Assistance 
Support (URFAS). We support a funding level of $26.5 for FY04, an 
increase from $18.5M, with priorities given to, in order, increase INIE 
to nearly full funding ($11M from 6.5M), increase NEER ($8M from $5M), 
and increase Fellowships ($1.9M from $1.5M). These increases will 
support the necessary growth of the university programs. In the longer-
term, we support the recommendations of NERAC (Nuclear Energy Research 
Advisory Committee to DOE-NE) to increase URFAS to reach a level of 
$33M, with appropriate increases in several categories including those 
mentioned above. Without these resources, several programs would come 
under severe risk of merger or closure. Stability of research and 
infrastructure support, through DOE and others, remains a critical 
issue in the health of U.S. nuclear engineering programs. One only 
needs to reflect on the dire situation in the mid-1990's when the 
university support was zero, to see the lasting impact of funding 
shortfalls and instability of support.
    A specific justification of the requested increases for FY04 are 
included here as an appendix.

        <bullet> LTo what extent is the existing university nuclear 
        infrastructure, including nuclear research reactors, sufficient 
        to maintain a vibrant nuclear research enterprise the United 
        States? To what extent is it sufficient to provide the 
        workforce training and research opportunities necessary to 
        sustain the nuclear power industry and provide for other 
        societal needs into the future?

    We feel that the nuclear infrastructure needs to grow to meet the 
increasing and lasting need for nuclear-educated professionals. 
However, first we need to commit to supporting the current number of 
excellent nuclear science and engineering educational programs, many of 
which are still struggling for resources in an increasing competitive 
atmosphere in under-funded university programs. This includes a 
commitment to replace aging faculty to maintain the important 
collective knowledge that will soon be gone. We also support the 
development of new programs, there are some recent examples, since the 
workforce issue will not diminish. Finally, almost all nuclear programs 
are increasingly using distance education techniques to reach wider 
audiences more quickly and efficiently. This technology can also be 
used to capture the wisdom of the more senior university faculty before 
they leave the system completely. In order to accomplish all of this, 
we require the substantial and continued support of the government.

        <bullet> LTo what extent does the quality of a university's 
        nuclear science and engineering program depend upon the 
        university having a nuclear reactor? To what extent can the 
        national laboratories and industry support university programs?

    There are several aspects to maintaining high quality educational 
programs, and facilities, including university research reactors, are 
an important part of the picture. As indicated above, nuclear programs 
are found at the leading science and engineering universities. This is 
due in no small part to the high degree of science and mathematical 
skills required of student of the discipline. Our degree programs are 
able to maintain high academic standards in the absence of a reactor, 
but clearly reactor experience can be a defining event for student 
development. In the past year, the founding of the INIE program will 
provide for wider research reactor experience for students at 
universities without reactors (as well as many in other disciplines and 
other educational levels). We think this will have a very positive 
effect on maintaining the quality of nuclear engineering education. 
While remote access to reactor technology is helpful, the INIE, and 
earlier the ``Reactor Sharing'' Program, provide a mechanism for visits 
and research experiences on an existing reactor. National labs and 
industry have been supportive of reactor experiences for students when 
practicable. There are relatively few national lab reactors, and access 
to industry based power reactors is difficult. The nuclear industry has 
participated broadly in making their reactor simulators available for 
educational purposes. In addition, there is significant partnering with 
national labs and industry in the INIE program (as well as NERI, etc.) 
which support more expansive use of valuable reactor facilities.
    National lab and industry interaction and support of university 
nuclear programs is critical in a very broad sense. There are many 
long-standing interactions of this sort which have resulted in graduate 
student experiences at national labs, and a variety of internships for 
undergraduate students at utilities and at national labs. In the 
research area, many of the most successful exchanges are done on an 
individual basis. Cooperative research through NERI, AFCI and 
partnerships within INIE have also been important in enhancing 
university-national lab-industry interactions. We support further 
considerations now underway at DOE-NE to provide better and more 
plentiful means of participating intellectually and financially in 
funded research at national labs, and with industry where appropriate. 
We feel that many of the current national nuclear initiatives will not 
succeed without strong university-national lab-industry cooperation.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

Appendix

FY04 Funding Request for the University Nuclear Science and Engineering 
                                Programs

    James F. Stubbins, John C. Lee, Andrew C. Klein, and Michael L. 
                               Corradini

           Nuclear Engineering Department Heads Organization

    The FY04 Department of Energy funding for the University 
Reactor Fuel Assistance Support (URFAS) Program is inadequate 
to meet our nation's critical need for university-based nuclear 
education and research. The URFAS Program is the primary source 
of funding for the university nuclear science and engineering 
(NSE) educational programs and university research reactors 
(URRs). This testimony presents the unanimous position of both 
the Nuclear Engineering Department Heads Organization (NEDHO) 
and the National Organization of the Test, Research, and 
Training Reactors (TRTR).

Key Issues and the Request

    The U.S. has become keenly aware of the importance of 
secure and affordable energy supply for the present and future 
well-being of the Nation. Nuclear energy can play a crucial 
role in stabilizing and reducing energy prices, and in meeting 
the energy needs of the country by the production of 
electricity as well as hydrogen for transportation. This has 
been emphasized in recent Congressional bills and in speeches 
by Secretary Abraham and President Bush. Significant concerns 
have been raised, however, regarding the maintenance of the 
workforce required to retain our nation's nuclear energy 
option. Grossly inadequate student enrollments in NSE programs, 
despite modest improvements over the past few years, and 
imminent threats to continued operation of URRs are primary 
concerns that need to be addressed immediately.
    Despite these escalating problems, the FY04 DOE request of 
$18.5M remains flat at the FY03 appropriation and is 
significantly below the $33M recommended in the Energy 
Research, Development, Demonstration, and Commercial 
Application Act of 2003, H.R. 238. In light of the severe 
budgetary constraints anticipated for FY04, we respectfully 
request:
    The House and Senate Energy and Water Appropriations 
Subcommittees appropriate for FY04 $26.5M for the University 
Reactor Fuel Assistance Support Program within DOE's Office of 
Nuclear Energy Science and Technology Programs.
    This represents a modest increase of $8.0M from the FY03 
appropriation and is required to prevent further declines in 
the URRs and university NSE programs. A detailed breakdown for 
the FY04 funding request for the university NSE programs is 
given in Table I below.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    NEDHO and TRTR unanimously agree that the FY04 funding request 
should be, in order of priorities: (1) Innovations in Nuclear 
Infrastructure and Engineering (INIE) program increase of $4.5M to a 
total of $11.0M, (2) Nuclear Engineering Education Research (NEER) 
program increase of $3.0M to $8.0M, and (3) fellowship and scholarship 
program increase of $0.5M to $1.9M.

Justification for the Request

    The Nuclear Energy Research Advisory Committee (NERAC) to the 
Secretary of Energy discussed in a recent report\1\ the importance of 
academic NSE programs in meeting the infrastructure and workforce 
requirements for sustained nuclear technology development related to 
(a) current and future generations of nuclear power plants, (b) 
radiation sciences with industrial, medical, and biotechnology 
applications, (c) national security and weapons nonproliferation 
programs, and (d) nuclear propulsion in the U.S. Navy. This NERAC 
report highlights the near-crisis status of the country's NSE programs, 
noting that over the past two decades the number of academic nuclear 
engineering programs has halved to the current total of only 25, with a 
similar decrease in the number of URRs from 65 to 26.
---------------------------------------------------------------------------
    \1\ M.L. Corradini, et al., ``The Future of University Nuclear 
Engineering Programs and University Research and Training Reactors,'' 
Nuclear Energy Research Advisory Committee, U.S. Department of Energy 
(2000).
---------------------------------------------------------------------------
    In light of the decision by Cornell University in 2001 to 
decommission its campus reactor and the imminent risk to the URRs at 
the University of Michigan and Massachusetts Institute of Technology, 
DOE initiated in 2002 the INIE program to support regional URR centers. 
Seven regional URR consortia, distributed across the country, were 
selected through an independent peer review panel for funding. Due to 
the limited FY02 INIE appropriation of $5.5M, DOE was able to provide 
funding only for four consortia, with the three additional consortia to 
receive INIE grants as additional funding becomes available. In the 
FY03 omnibus appropriations bill, the INIE funding is increased only by 
$1M to a total of $6.5M, despite a funding request of $8.5M in the 
Senate appropriations bill. With this limited INIE FY03 appropriation, 
DOE would be unable to initiate funding for the remaining three URRs 
selected, but not funded to date. Without increased INIE funding the 
University of Michigan will shut down and decommission its reactor due 
to inadequate external financial support. The current INIE 
appropriation provides only partial funding even for the four URR 
consortia already funded. Our requested FY04 INIE funding of $11M 
provides the minimum support required to initiate funding for the three 
remaining consortia and sustain a total of seven URR regional centers 
distributed across the country. The lead institutions for the seven URR 
centers selected for funding are as follows:

        1. LMassachusetts Institute of Technology

        2. LPennsylvania State University

        3. LOregon State University and University of California, Davis

        4. LTexas A&M University

        5. LUniversity of Missouri, Columbia

        6. LUniversity of Michigan

        7. LNorth Carolina State University

    The seven consortia involve participation by at least 15 other 
universities and several national laboratories. Because these URRs 
belong to the group of best-utilized facilities, and are associated 
with the top nuclear engineering departments in the country, a 
premature demise of any of these leading URRs would be a major blow to 
the Nation's nuclear energy program and the loss of valuable national 
scientific research and training resources. This loss would be tragic 
particularly as the Nation begins to actively consider expanding 
nuclear electricity generating capacity to meet the increasing energy 
demand for the Nation. Because contributions of nuclear scientists and 
engineers extend well beyond traditional nuclear power, including 
national defense, homeland security, medical applications of radiation 
science, and industrial applications, the shortage of technically 
trained nuclear professionals is even more critical.
    A recent NEDHO study\2\ indicates that the annual demand for 
nuclear engineers is expected to exceed the supply by 400 in the 
immediate future. This shortage of nuclear engineers is due primarily 
to the retirement of the first generation of engineers engaged in the 
development, construction and operation of current generation of 105 
nuclear power plants operating in the country. This shortage has 
resulted in a very tight job market for employers seeking nuclear 
engineers and a number of utilities are investigating programs to train 
non-nuclear engineers to work in the nuclear fields. With a number of 
U.S. utility companies establishing plans to order new nuclear power 
plants in the very near future, however, the demand for nuclear 
engineers will grow and the Nation's ability to expand nuclear 
electricity generating capacity may likely be limited by the trained 
workforce, not by the financial resources.
---------------------------------------------------------------------------
    \2\ G.S. Was and W.R. Martin, Eds., ``Manpower Supply and Demand in 
the Nuclear Industry,'' Nuclear Engineering Department Heads 
Organization (2000).
---------------------------------------------------------------------------
    In addition to the urgent funding increase for the INIE program 
discussed above, we offer comments on various budget categories for the 
proposed university NSE funding:

        <bullet> LThe NEER program, since its inception in the current 
        form in FY98, has been a major source of research funding for 
        the entire academic NSE community and has contributed 
        significantly to our ability to attract quality graduate 
        students into research programs. These research grants cover 
        areas of basic nuclear science and engineering research and 
        synergistically augment much more application-oriented programs 
        funded through the Nuclear Energy Research Initiative (NERI). 
        The NEER funding has been flat for the past five years at 
        $5.0M, supporting only one out of every ten competitive 
        proposals in a given year. Thus, the proposed increase of the 
        NEER funding from $5.0M to $8.0M is very much needed, although 
        still insufficient to fund many of the research proposals that 
        are highly evaluated but not supported due to limited funding. 
        The NEER grants have been and will continue to support research 
        programs not only in nuclear science and engineering but also 
        in related fields of health physics and radiation safety. An 
        increased FY04 appropriation for the NEER program will be 
        especially necessary for this purpose.

        <bullet> LFunds for undergraduate scholarships and graduate 
        scholarships are essential in our effort to increase student 
        enrollments in nuclear engineering and related programs. 
        Although the DOE fellowship funding has been highly valuable, 
        the funding level has remained flat for the six years and 
        woefully inadequate. To simply illustrate the inadequacy of 
        $1.4M fellowship support in the FY04 DOE request, we note that 
        it requires up to $55,000 per year to support a graduate 
        student at many research universities.

        <bullet> LThe other academic programs for a total of $1.3M 
        include the DOE/Industry Matching Grants, which leverage the 
        DOE funding for broad-based support from the nuclear industry 
        for the university NSE and URR programs. Many schools use the 
        Matching Grants to augment the DOE fellowship funding for 
        undergraduate scholarships and graduate student research 
        support. The remainder of the $1.3M funding will support a 
        modest program in radiochemistry and facilitate closer 
        collaborations in research and instructional programs between 
        DOE national laboratories and academic institutions. The 
        funding will also promote community outreach effort including 
        the training of high school teachers in nuclear science and 
        technology.

        <bullet> LThe remaining $4.3M funding for the URRs cover the 
        costs for (1) supply of fresh reactor fuel and shipment of 
        irradiated fuel, (2) refurbishment and upgrade of 
        instrumentation primarily for URRs not included in the INIE 
        consortia, and (3) providing URR access to researchers at 
        universities without a campus reactor.

        <bullet> LUniversity research reactors provide essential 
        support both for instructional and research programs on 26 
        university campuses. These campus reactors offer programs in 
        (a) incore irradiations for materials science study, isotope 
        production in medical and industrial applications, neutron 
        activation analysis in manufacturing and environmental 
        applications, and nuclear wasteform study, (b) neutron beam 
        port applications for neutron scattering as a materials 
        diagnostic tool, neutron radiography as a nondestructive 
        testing tool, semiconductor processing, characterization of 
        materials in nuclear and non-nuclear applications, and boron 
        neutron capture therapy, (c) reactor control study involving 
        digital instrumentation and control for advanced reactors as 
        well as for the current generation of nuclear power plants, (d) 
        neutron and reactor physics studies offering research in 
        medical imaging, radiation detectors for homeland security, 
        nuclear fuel development, and advanced reactor design and 
        safety features. In addition, each URR serves as a magnet for 
        recruiting students and is a focal point for community 
        outreach.

Summary of the Request

    We respectfully request that Congress provides in the FY04 budget 
$26.5M for operations and research support for university research 
reactors and research and student support of the nuclear science and 
engineering departments. This amount will fund the seven INIE regional 
reactor centers and strengthen academic programs in nuclear science and 
engineering. This funding level is required to guarantee the Nation 
secure energy sources for the future and enhance the scientific, 
medical, and industrial applications of radiation science and 
technology for the Nation.
                    Biography for James F. Stubbins
    Dr. James F. Stubbins is a Professor and Head of the Nuclear, 
Plasma, and Radiological Engineering Department at the University of 
Illinois at Urbana-Champaign, Illinois (UIUC), where he has been a 
faculty member since 1980. His previous positions include Guest 
Scientist, Institute for Materials and Solid-State Research, 
Forschungszentrum (Research Center), Karlsruhe, Germany (1976-1977); 
Research Associate, Department of Metallurgy and Science of Materials, 
University of Oxford, Oxford, England (1977-1978); and Materials 
Engineer, Principal Investigator--Gas Cooled Reactor Materials Program, 
Energy Systems Programs Department, General Electric Co., Schenectady, 
NY (1978-1980).
    He has extensive research and teaching experience related to issues 
surrounding the production, transport, and interactions of radiation 
with matter, irradiation damage and effects in materials, mechanical 
properties, high temperature corrosion, and electron microscopy.
    Dr. Stubbins has enjoyed long-standing professional relationships 
with a number of national labs. He has maintained associations as a 
Faculty Appointee, Associated Western Universities (AWU) with Battelle 
Pacific Northwest National Laboratory, Richland, WA; a Faculty 
Appointee, Division of Educational Programs, Argonne National 
Laboratory; an Affiliate, Los Alamos National Laboratory, and a 
Visiting Scientist with Oak Ridge National Lab. He has a long-standing 
Visiting Scientist appointment in the Materials Science Department at 
the Riso National Laboratory, Roskilde, Denmark. He has written more 
than 75 technical articles and publications, and more than 40 
conference proceeding.
    Dr. Stubbins serves on several national boards and committees, such 
as Member of Department of Energy (DOE), Nuclear Engineering (NE) 
University Working Group, Program Reviewer DOE, and Program Advisory 
Committee Pacific Northwest National Lab (PNNL). He served as an ex-
officio member of the Fusion Energy Scientific Advisory Committee 
(FESAC). He serves as chair of Materials Science and Technology 
Division, American Nuclear Society and is the immediate past Chair of 
the Fusion Energy Division, American Nuclear Society. He is also the 
current Chair of the Nuclear Engineering Department Heads Organization 
(NEDHO).
    Dr. Stubbins earned his BS Degree in Nuclear Engineering at the 
University of Michigan, his MS degree in Nuclear Engineering and Ph.D. 
degree in Materials Science both from the University of Cincinnati.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Chairman Biggert. Thank you.
    And Dr. Slaughter.

STATEMENT OF DR. DAVID M. ``MIKE'' SLAUGHTER, DIRECTOR, CENTER 
    FOR EXCELLENCE IN NUCLEAR TECHNOLOGY, ENGINEERING, AND 
  RESEARCH, CHAIR, NUCLEAR ENGINEERING PROGRAM, UNIVERSITY OF 
                      UTAH, SALT LAKE CITY

    Dr. Slaughter. Chairwoman Biggert, Mr. Lampson, and the 
other Members of the Committee, thank you for inviting me for 
this testimony.
    We see growth and a need for different education research 
paradigms. During the decline over the past several decades of 
student enrollments in nuclear engineering and radiation 
science programs, many universities chose not to replace 
faculty who left, which has created a shortfall of qualified 
faculty at a time when student enrollments are increasing. In 
addition, infrastructure neglect has occurred during the past 
few decades due to a number of complex issues, which include 
restricted budgets, increased cost of operation, the necessary 
diversion of resource to meet increased regulatory demands, and 
faculty turnover that may have resulted in the change to 
program--changes to program directions.
    These factors leave many colleges and universities ill-
equipped to impart basic skills, interdisciplinary courses, 
industrial training, and relevant research needed to better 
serve the industrial and government sectors. Most research 
reactors were initially constructed for nuclear engineering and 
radiological science research and education. They were, and 
still remain, available for teaching, reactor design, core 
physics, nuclear safety, and radiological protection and 
support research in reactor physics, cross section 
measurements, and reactor component development.
    Today's research reactors enjoy a broader academic and 
research mission that encompass a wide variety of disciplines: 
energy, medical, radiopharmaceuticals, physical science, 
engineering, and material sciences. As a result of these 
evolving and broadening missions, no one university is able to 
provide a comprehensive nuclear science engineering experience. 
And no one reactor program can provide the entire capabilities 
that education, research, and the industrial community demand.
    Does an individual university have to own and operate a 
nuclear reactor to have a successful nuclear science and 
engineering program? Of course not. Does a university need 
reasonable access to such facilities? Yes, most likely, 
although it also depends on the institutional choices and 
directions, such as technical focus of an institution's 
departments, faculty, strategic plan, and the community needs. 
Are university nuclear reactors and the related highly 
specialized infrastructure required to maintain a vibrant 
nuclear research enterprise in the United States? Absolutely. 
While it is not known exactly how many university reactors are 
needed to fill the broad mission, it is clear from the demand 
that the current numbers may not be enough, although current 
numbers must suffice. One thing is certain: New research 
reactors will not be constructed on university campuses in the 
near future, in part due to the prohibitive costs associated 
with construction, the necessary and extensive compliance with 
regulatory restrictions, safety and security issues, and a 
general, although erroneous, negative public perception.
    The most cost-effective and practical long-term strategy to 
maintaining the existing research reactors by strategic funding 
initiatives and an encouraged reactor program and university 
administrations to think beyond their institutional boundaries. 
We need to avoid duplication and share resources, when 
possible, with our counterparts at other educational 
institutions, in industry, and at government facilities.
    We see research reactor education research activities 
expanding. Large companies and corporations that have 
historically maintained well-funded research and development 
components are now downsizing in order to better cope with 
competition. As an alternative to such onsite research 
facilities, many corporations are refreshing their links with 
universities that have reactor programs to help maintain an 
aggressive stance in technology development. Additionally, 
small companies without financial resources or reserves to 
support technology groups often seek to develop new products by 
teaming with universities to ensure their own competitiveness.
    Reactors at universities have been successful in assisting 
a significant number of industrial clients in improving 
existing and creating new niche technologies. Most of the 
research reactors at universities maintain a strong and 
creative mix of faculty, staff, and students. Funds provided by 
industry heavily impact the development and movement of 
technologies, not to mention graduate students, who are the 
inventors of these technologies, into the mainstream of the 
industrial community.
    We have seen a need for additional, stable funding from 
university, industry, and government. Engineering students are 
expensive to educate, with nuclear engineers and radiation 
scientists the most costly of this group. The high cost is due 
to the sensitive, unique, and highly regulative equipment that 
is required. If those greater educational costs can not be 
carried by state funding or by students themselves, such costs 
then must be covered by governmental grants and contracts with 
the industrial sector in resource-sharing strategies.
    The health and vitality of an academic infrastructure in 
nuclear engineering reaches--depends on federal support, the 
same as any other vibrant science and engineering discipline.
    While new funds must be made available that will adequately 
support the delivery of educational research missions, the 
effective administration of appropriate funds for distribution 
by the DOE needs equal attention. The key recommendations from 
the respective Corradini and Long Reports to Nuclear Energy 
Research Advisory Committee, NERAC, blue-ribbon panel suggests 
the most important role for the Department of Energy/Nuclear 
Energy, DOE/NE, is to assure significant numbers of nuclear 
science/engineering education programs and to maintain an 
effective research infrastructure.
    Currently, the U.S. DOE has three priorities in the 
following order of importance, as provided: licensing issues 
for Yucca Mountain; transportation; and research and science. 
It is not clear how these DOE priorities will impact DOE/NE 
appropriations for nuclear education and research activities in 
2003 and 2004 or in the future. The present DOE/NE 
administration, unfortunately, may be forced to reprogram 
critically important funds over to other areas of the DOE 
budget if significant budget cuts are undertaken. To protect, 
or buffer, vital program funds from reprogram, congressional 
appropriation bills should be well defined on disbursement and 
should clearly indicate what limits and justifications will be 
allowed for reprogramming.
    The educational and research infrastructure needs to be 
funded at the $15 million-level recommended by the May 2000 
Corradini Report to NERAC while increasing the current grant 
programs: Fuel Assistance, Reactor Sharing, and Instrumentation 
Upgrade. The current INIE program also needs to be revamped so 
it more closely resembles the April 2001 Long Report to NERAC, 
which recommended both regional research reactor consortia and 
regional education and training consortia.
    It was presented in the Long Report, the INIE program was 
discussed at--as--excuse me, as was presented----
    Chairman Biggert. Dr. Slaughter, if you could conclude. 
Thank you.
    Dr. Slaughter. It--in brief, equitable distribution of the 
new and existing DOE/NE funds is required for a healthy, 
effective, and fair delivery of federal support. Guidelines 
should be effectively presented at the time the solicitation is 
issued by the DOE, with an explanation of how funds are to be 
used and an outline of the reasonable performance criteria. It 
should be stated whether or not termination of fundings might 
occur if certain performance criteria are not met.
    Thank you.
    [The prepared statement of Dr. Slaughter follows:]
                Prepared Statement of David M. Slaughter

Developing New Paradigms to Improve Educational Experiences and Support 
   Unique Infrastructure in Nuclear Engineering and Nuclear-Related 
                              Disciplines

New Paradigms

    We in the academic community feel the classic and cyclic directive 
to: 1) generate as many graduates as possible; 2) publish the results 
of research in a timely manner; and 3) locate new sources of revenue 
through research contracts. It is mainly through Masters and Doctoral 
candidates that such research goals are pursued and met in the course 
of the students' education and their increasing proficiency. A sharp 
increase has occurred in student enrollments in most nuclear 
engineering programs (NEPs). Thus, faculty in nuclear engineering are 
even more highly motivated to encourage undergraduates to enroll in 
nuclear engineering courses and programs, and to continue to 
enthusiastically foster graduates in these programs. At times, it seems 
that typical NEP directors and faculty are struggling with the number 
of students we are able to graduate than uniting the quality and 
relevancy of their educational experience to contemporary industrial 
and commercial domains. We strongly believe it is time to establish 
better methods for resource sharing, information exchange, and general 
cooperation between universities and viable businesses in the nuclear 
engineering and radiation science industries as well as governmental 
agencies in the field.
    During the decline over the past several decades of student 
enrollments in nuclear engineering and radiation science programs, many 
universities chose not replace faculty who left, which has created a 
shortfall of qualified faculty at a time when student enrollments are 
back on the rise. In addition, infrastructure neglect has occurred 
during the past few decades due to a number of complex issues, which 
include restricted budgets, increased costs of operation, the necessary 
diversion of resources to meet increased regulatory demands, and 
faculty turnover that may have resulted in changes to program 
directions. All of these factors and others combined with recent rapid 
technological and economic changes in nuclear engineering and radiation 
science leave many colleges and universities ill-equipped to impart the 
basic skills, interdisciplinary courses, industrial training, and 
modern and relevant research needed to better serve the industrial and 
government sectors. Universities should foster excellence and provide 
equal opportunity in the areas of Nuclear Engineering education, 
research, and public service. In order for us to succeed now and in the 
future, we must employ newly adopted educational paradigms that require 
continuous evaluation and advancement. Rigorous university reactor 
programs should:

        <bullet> LDeliver a ``back-to-basics'' educational program that 
        encourages sound fundamentals, adapts new research and service 
        strategies, and facilitates creative thinking.

        <bullet> LDevelop performance-based and team-oriented faculty 
        with diverse abilities and experiences, along with a credible 
        background, who work together to deliver a broad and integrated 
        laboratory experience with what is learned in the classroom.

        <bullet> LIncorporate innovative and legal budget strategies 
        that tap into governmental, industrial, and other non-
        traditional sources to support educational activities and 
        research combined with traditional federal and state funding.

        <bullet> LFoster an environment that provides good advising, 
        frequent interaction, and practical and applied experiences for 
        students that emphasize capability, mastery, self-motivation, 
        and creativity in academic and research endeavors.

        <bullet> LPromote multi-tasking and multi-disciplinary 
        experiences.

    University Research Reactors (URRs) advance both research and 
education activities. University facilities have state-of-the-art 
experimental resources distributed within an appropriate educational 
environment, and students, especially at the graduate level, have 
access and opportunities for hands-on experiences using contemporary 
equipment. New concepts that require multiple trials are evaluated in a 
context where time pressures are not as competitively prohibitive, 
unlike research reactors available at national laboratories. Because of 
the university setting, activities at URRs are usually cross-
disciplinary and use neutron science as a focal point. Results are most 
successful when faculty from several departments, educational 
institutions, and industry are able to input into the required 
experimental program outcomes, design, and implementation.
    Most URRs were initially constructed for nuclear engineering and 
radiological science research and education. They were and still remain 
available for teaching reactor design, core physics, nuclear safety, 
and radiological protection, and support research in reactor physics, 
cross-section measurements, and reactor component development. Today's 
URRs (100 kW or higher) enjoy broad academic and research missions that 
encompass a wide variety of disciplines: energy, medical, radio 
pharmaceuticals, physical sciences, engineering, and material sciences. 
As a result of these evolving and broadening missions, no one 
university is able to provide a comprehensive nuclear science and 
engineering experience, and no one reactor program can provide the 
entire capabilities that education, research, and the industrial 
community demand.
    Does an individual university have to own and operate a nuclear 
reactor to have a successful nuclear science and engineering program? 
Of course not. Does a university need reasonable access to such 
facilities? Yes, most likely, although it also depends on institutional 
choices and directions, such as the technical focus of a given 
institution's departments and faculty, strategic plan, and community 
needs. Are university nuclear reactors and the related highly 
specialized infrastructure required to maintain a vibrant nuclear 
research enterprise in the United States? Absolutely! While it is not 
known exactly how many university reactors are needed to fulfill the 
broad mission that these facilities serve, along with the ever-changing 
needs of government and industry, it is clear from demand that the 
current number may not be enough, although current numbers must 
suffice. One thing is certain: New research reactors will probably not 
be constructed on university campuses in the near future, in part due 
to prohibitive costs associated with construction, the necessary and 
extensive compliance with regulatory restrictions, safety and security 
issues and activities, and a general, although erroneous, public 
perception of danger that needs to be overcome because it is not 
warranted.
    Some may cite the current low research/service activity at a few 
reactor facilities as proof that the United States already has an 
abundance of neutrons and the current levels aren't fully being 
utilized. As a professor of nuclear engineering and scientist, I could, 
in turn, argue that today's measured outcome actually represents the 
result of institutional, government, and industry neglect of programs. 
The most cost-effective and practical long-term strategy is to maintain 
existing URRs by strategic funding initiatives and to encourage reactor 
programs and university administrations to think beyond their own 
institutional boundaries. We need to avoid duplication and share 
resources whenever possible with our counterparts at other educational 
institutions, in industry, and at government facilities.
    In present-day URR programs, faculty and students are involved in 
relevant technology advancement and research collaboration with 
industry and government to better understand practical and real-world 
issues. As an example, at the University of Utah's reactor program 
contains an NRC-licensed 100kW Modified TRIGA Mark I nuclear reactor 
with no operational beam ports except for vertical access through the 
pool. It is compact; we have limited space to conduct research. But it 
is versatile and well designed, containing radiochemistry, radiation 
detection, dosimetry, and computational capabilities. Our laboratory 
performs the duel function of research and education. Faculty, 
students, and our reactor participate with industrial and governmental 
agencies to solve unique challenges.

        <bullet> LWe do not build the missiles that stand in the 
        defense of this country, yet we test electronic components to 
        assure they perform as designed under adverse conditions.

        <bullet> LWe do not manufacture turbine blades, munitions, or 
        detonators, yet we ensure their performance by developing 
        increasingly advanced inspection techniques that use neutron, 
        gamma, and x-ray radiography.

        <bullet> LWe do not manufacture small remote nuclear power 
        plants, yet we are in the process of designing a more advanced 
        fuel that may one day be used in such a plant.

        <bullet> LWe do not commercially dispose of radionuclides, yet 
        we assist in understanding how radionuclides are transported 
        through the environment (in both natural and human-engineered 
        systems).

        <bullet> LWe did not expose the Mayak workers who operated 
        Russia's first weapons-grade plutonium manufacturing plant in 
        the 1940s to radiation, yet we use dose reconstruction tools 
        and modern techniques to better understand the long-term health 
        impact of radiation exposure on living beings.

        <bullet> LWe do not dig up archaeological artifacts or 
        participate in art creation, yet we use non-destructive testing 
        to explore where human eyes and hands cannot reach and verify 
        the authenticity and integrity of priceless historic artifacts 
        and artwork.

Expanding Roles for URRs

    Large companies and corporations that have historically maintained 
well-funded and fruitful Research and Development (R&D) components are 
now downsizing in order to better cope with amplified competition and a 
bear market. The benefits of an in-house R&D are often eclipsed in a 
grim economic climate, and thus they tend to be a target for 
elimination of risk and reduced costs. As an alternative to such on-
site research facilities, many corporations are refreshing their links 
with universities that have reactor programs to help maintain an 
aggressive stance in technology development. Additionally, small 
companies without the financial resources or reserves to support 
technology groups often seek to develop new products by teaming with 
universities to ensure their own competitiveness. In the face of their 
own budget cuts, universities are serendipitously capitalizing on these 
industry trends to diversify and strengthen their funding sources, and 
are turning to the private sector to participate in developing 
technologies that assist the private sector in boosting a community's 
economy.
    Since universities are playing a larger role in technology 
development for businesses, we as educators are requiring that these 
businesses assist us in the education of their future employees. 
Potential employers seek students who have industrial experience as 
part of their academic program. Such experience gives the employer 
another way in which to measure the candidate's ability to successfully 
apply skills learned in the classroom and the university laboratory to 
the working world.
    Reactors at universities have been successful in assisting a 
significant number of industrial clients in improving existing and 
creating new niche technologies. Most of the URRs at universities 
maintain a strong and creative mix of faculty, staff, and students. 
Funds provided by industry heavily impact the development and 
comprehensive movement of technologies-not to mention graduate 
students, who are the respective inventors of these technologies-into 
the mainstream industrial community.

Funding from University, Industry, and Government

    Engineering students are expensive college students to educate, 
with nuclear engineers and radiation scientists the most costly of this 
aspiring group. The high cost is due to the sensitive, unique, and 
highly regulated equipment (i.e., nuclear reactors) required for use 
during students' educational tenure. If those greater educational costs 
cannot be carried by state funding or by students themselves, such 
costs then must be covered by both governmental grants and contracts 
with the industrial sector in resource-sharing strategies. Such 
collaboration enhances our ability to overcome the outstanding burden 
of educational costs, and provides internship and cooperative programs 
that allow students to explore and implement creative research 
innovations in an actual work environment. The benefits for industrial 
partners are that these cooperative research efforts provide relatively 
inexpensive access to bright minds and cutting-edge expertise in these 
fields and a conduit to future employees for the specific needs of 
their businesses. To make the most of all available resources, Nuclear 
Reactor programs such as ours must responsibly share resources with 
other academic programs in these fields as well as the industrial 
sector and with Federal and State governments in order to ensure the 
broadest and best training possible for students in nuclear engineering 
and radiation science.
    The health and vitality of the academic infrastructure in nuclear 
engineering and radiation science depends on federal support, the same 
as any other vibrant science and engineering discipline. Historically, 
federal agencies have left the matter of research funding in nuclear 
engineering and radiation science to the Department of Energy (DOE); 
hence, programs like ours are discouraged from seeking funding from the 
National Science Foundation (NSF) or from other federal agencies. 
Nevertheless, the scarcity of funding available from the DOE and other 
beleaguered federal agencies has made it increasingly difficult for 
academic programs in these fields to provide and maintain top-quality 
professional training to students. Such training is essential for the 
future managers and leaders of these important and rapidly expanding 
technical spheres because the industrial sector requires expertly 
trained engineers and researchers to maintain growth, innovation, and a 
competitive edge regardless of economic factors and tenuous support.
    The URR federal funding mechanisms that currently exist include:

        <bullet> LFuel Assistance to URRs. These funds cover the entire 
        fuel cycle (front and back end). It is essential for the 
        continued uninterrupted operation of URRs (especially reactors 
        >1 MW) that these funds remain distinct from other nuclear 
        engineering appropriations. If these funds were merged with 
        other programs, the possibility of their being diverted to 
        another program would exist. Prolonged interruptions of these 
        funds would force premature closure of selected URRs.

        <bullet> LReactor Sharing. These funds are awarded on a peer-
        reviewed basis to URRs. They were originally obtained from the 
        surplus in the fuel assistance budget (if any in a given year) 
        and were provided to allow universities that lacked a URR to 
        purchase services from a host URR. More recently, this program 
        has become independent of the fuel assistance budget and a 
        portion of the budget (35 percent of the awarded funds) now may 
        be spent on the host university to reimburse it for real costs 
        associated with off-campus users.

        <bullet> LUniversity Reactor Instrument Upgrade. Funds from 
        this program are awarded on a peer-reviewed basis to URRs. The 
        funding was designed to allot specific funds to help maintain 
        critical reactor safety and operations infrastructure.

    Research URRs (100 kW and higher) offset their operating costs by 
charging users for neutrons. This revenue does not cover all 
operational needs. Faculty research grants typically provide little 
funding for reactor support. I do not advocate allowing university 
reactors that are currently subsidized with a combination of State, 
federal funds, and Nuclear Regulatory Commission (NRC) cost waivers to 
compete directly with their U.S. commercial counterparts. However, for 
areas where no U.S. commercial competitors exist for the product 
produced, university participation in delivering nuclear-related 
technologies should be allowed, and considered a community and 
industrial service.
    While new funds must be created and made available that will 
adequately support the delivery of educational and research missions, 
the effective administration of appropriated funds for distribution by 
the DOE needs equal attention. The key recommendations from the 
respective Corradini and Long reports to the Nuclear Energy Research 
Advisory Committee (NERAC) blue-ribbon panel suggest that the most 
important role for the Department of Energy/Nuclear Energy (DOE/NE) is 
to assure a sufficient number of nuclear science/engineering education 
programs and to maintain an effective research infrastructure.
    Currently, the U.S. DOE has three priorities in the following order 
of importance: 1) licensing issues for Yucca Mountain; 2) 
transportation; and 3) research and science. It is not clear how these 
DOE priorities will impact DOE/NE appropriations for nuclear education 
and research activities in 2003-2004 or in the future. No clear 
consensus is apparent among different DOE administrators regarding the 
value of nuclear R&D and the necessity and level required for funding 
URRs. The present DOE/NE administration unfortunately may be forced to 
reprogram critically important funds over to other areas of the DOE 
budget if significant budget cuts are undertaken. To protect or buffer 
vital program funds from reprogramming, congressional appropriation 
bills should be well defined on disbursement and should clearly 
indicate what limits and justifications will be allowed for 
reprogramming.
    The educational and research infrastructure needs to be funded at 
the $15 million-level recommended in the May 2000 Corradini Report to 
NERAC while increasing the current grant programs (Fuel Assistance, 
Reactor Sharing and Instrument Upgrade). The current INIE program also 
needs to be revamped so it more closely resembles the April 2001 Long 
Report to NERAC, which recommended both regional research reactor 
consortia and regional education and training consortia.
    As was presented in the Long Report, the INIE program was discussed 
at a DOE/NE-sponsored meeting held in Chicago, Illinois. Participants 
included university administrators, reactor directors, DOE/NE 
representatives, and others. The solicitation that was issued shortly 
afterward was confusing, incomplete, and contrary to recommendations 
contained in the Long report. In addition, the request did not reflect 
the understanding of university reactor directors and their 
administrations obtained at the Chicago meeting. The relatively short 
time frame to respond to the solicitation did not allow for extensive 
explanations and corrective actions. This inadvertentently 
disenfranchised a significant number of our URR constituencies. What 
opportunities still exist for reactors associated with those 
unsuccessful INIE proposals is unclear.
    In brief, equitable distribution of new and existing DOE/NE funds 
is required for a healthy, effective, and fair delivery of federal 
support. Guidelines should be effectively presented at the time the 
solicitation is issued by the DOE, with an explanation of how funds are 
to be used and an outline of reasonable performance criteria. It should 
be stated whether or not termination of funding might occur if certain 
performance criteria are not met.
    University administrations that do not see value in maintaining 
their reactor for either education and/or research should not be 
considered for DOE/NE financial programs. Federal funds would be better 
spent in support of nuclear reactor programs at institutions that 
perceive the education and research infrastructure as critical to the 
delivery of their institution's mission. For example, a stable 
education/research nuclear reactor (>100 kW) program should derive 
funding from university, industry, and government sources. Like a 
three-legged stool, if any one of the financial legs is eliminated, the 
reactor program fails to effectively serve its full purpose.
    Educational facilities (such as University Research Reactors or 
URRs) are coming under increased scrutiny by the NRC in terms of 
security issues. Significant URR program funds along with general 
university resources are being tapped to address these new security 
obligations, yet limited funding has been made available from the DOE/
NE to assist URRs in transition. Sufficient funds also should be 
provided to purchase new fuel for URRs as well as timely and 
appropriate removal when the fuel is spent.

In Summary

    Present-day URR programs involve faculty and students in the 
development and advancement of relevant technology along with research 
collaboration with industry and government to better understand 
practical, real-world issues. Historically, URRs received federal 
assistance that shared costs associated with fuel, reactor sharing 
(host and receiver), and instrument upgrades. However, such funding 
only covers a portion of URR operating costs. Federal and State sources 
of funding can fluctuate dramatically depending on the economic climate 
and trends in agencies that sponsor research and education.
    If the United States is going to remain competitive in nuclear 
power and nuclear-related technologies in the scientific and industrial 
world communities, a continued and dedicated investment nationwide in 
its URRs is vital. URRs need to be funded at the $15 million-level 
recommended in the May 2000 Corradini Report to NERAC, and current INIE 
programs revamped to ensure an adequate number and diversity of 
operational facilities nationwide. On its part, the DOE can assist most 
by showing continuous support of priorities that are in alignment with 
and fulfill the intentions of congressional appropriations bills by how 
equitably allocations are delivered.

                    Biography for David M. Slaughter
    Dr. David M. Slaughter is currently the director of the Center for 
Excellence in Nuclear Technology, Engineering, & Research (the 
``CENTER'') at the University of Utah in Salt Lake City, Utah, and has 
been the director of the CENTER for the past 10 years. He is the 
Reactor Administrator of the University's 100 kW TRIGA Nuclear Reactor 
and holds a Senior Reactor Operator's license. Dr. Slaughter chairs the 
Nuclear Engineering Program and is the graduate advisor. He holds 
faculty appointments in three departments within the College of 
Engineering: Civil and Environmental Engineering, Mechanical 
Engineering, and Chemical and Fuels Engineering. For three years, he 
led the Environmental Radiation Toxicology Laboratory at the University 
of Utah School of Medicine as its director. Dr. Slaughter has extensive 
experience in nuclear engineering, radioenvironmental sciences, 
radioassays, radiotoxicology, chemical engineering and radiation and 
materials interactions, and is familiar with environmental monitoring, 
dose reconstruction, and nuclear forensics techniques and analyses. He 
has participated in regulatory matters with the Environmental 
Protection Agency (EPA), the Nuclear Regulatory Commission (NRC), and 
the Occupational Safety and Health Administration (OSHA). Dr. Slaughter 
has either been the Principal Investigator or a Co-PI for over 50 
contracts for government-sponsored research, has published over 20 
journal articles, presented 30 technical papers at conferences, and 
authored 35 technical reports. He has supervised more than 15 Ph.D. and 
Masters graduate students, and has had more than 15 undergraduates 
perform research projects under his direction. He has been an 
enthusiastic and rigorous supervisory committee member for 25 students 
in a variety of engineering and science disciplines. Dr. Slaughter 
received his Ph.D. in Chemical Engineering from the University of Utah 
in December 1986.
    A selected list of recent publications is appended to this short 
biography.

Selected Recent Journals Publications/Presentations:

Choe, Dong-Ok, Brenda N. Shelkey, Justin L. Wilde, Heidi A. Walk, and 
        David M. Slaughter, ``Calculated Organ Doses for Mayak 
        production Association Central Hall Using ICRP and MCNP,'' 
        Health Physics Journal, Vol. 84, No. 3, March 2003.
Slaughter, David M., Dong-Ok Choe, Melinda P. Krahenbuhl, Scott C. 
        Miller, Evgenii Vasilenko, Michail Gorelov, ``Reconstruction of 
        Individual External Exposure Doses to the Mayak Production 
        Association Workers: External Doses 2000,'' Submitted to Health 
        Physics Journal, 2003.
Krahenbuhl M.P., Slaughter D.M., Wilde Bess J.D., Miller S.C., 
        Khokhryakov V.F., Suslova K.G., Vostrotin V.V., Romonov S.A., 
        Menshikh Z.S., Kudryavtseva T.I., ``The historical and current 
        application of the FIB-1 model to assess organ dose,'' Health 
        Physics 82(4):445-454, 2002.
Choe, D.O., B.N. Shelkey, D.M. Slaughter, ``An Investigation Comparing 
        the Criticality of Stored DOE Waste Using MCNP with Previously 
        Published Results Obtained with KENO,'' HPS Joint Midyear 
        meeting, Anaheim, CA, Feb. 2001
Khokhryakov V.F., Suslova K.G., Aladova E.E., Vasilenko E., Miller 
        S.C., Slaughter D.M., Krahenbuhl M.P., ``Development of an 
        Improved Dosimetry System for the Workers at the Mayak 
        Production Association,'' Health Physics, Vol. 79, No. 1, 2000.
Choe, D.O., D.M. Slaughter, and K.D. Weaver, ``Utilizing Distinct 
        Neutron Spectra and a System of Equations to Differentiate 
        Competing Reactions in Activation Analysis,'' Journal of 
        Radioanalytical and Nuclear Chemistry, Volume 244, No. 3, 2000.
Krahenbuhl M.P., Wilde J.L., Slaughter D.M., ``Using Plutonium 
        Excretion Data to Predict Dose from Chronic and Acute 
        Exposures,'' Rad. Prot. Dos., Vol. 87, No. 3, 2000, 179-185.
Alexandrova O.N., E.K. Vasilenko, M.P. Krahenbuhl, D.M. Slaughter, 
        ``The Statistical Analysis of Occupational Radiation Dose 
        Caused by Professional Exposure to External Gamma Radiation,'' 
        International Data Analysis Conference, Innsbruck, Austria, 
        Sept. 2000.
Choe, D.O., M.P. Krahenbuhl, and D.M. Slaughter, ``Dose Reconstruction 
        from Pu Exposure Using Fission Track Analysis (FTA) with Two 
        Neutron Energy Spectra,'' Workshop on Standards, 
        Intercomparison and Performance Evaluations of Low-Level 
        Radionuclides by Mass Spectrometry and Atom Counting. 
        Gaitherburg, Maryland, 1999.
Krahenbuhl M.P., and D.M. Slaughter, ``Improving Process Methodology 
        for Measuring Plutonium Burden in Human Urine Using Fission 
        Track Analysis,'' Journal of Radioanalytical and Nuclear 
        Chemistry, Volume 230, No. 1-2, 1998.

                               Discussion

    Chairman Biggert. Thank you, Dr. Slaughter. You can all 
rest assured that all of your written testimony will be 
included in the record. And so--and we will probably get to a 
lot of it in the question period, which is now.
    We will now have--the Members of the Committee will have 
time to ask their questions within a five-minute period, also, 
so we have to adhere to that time. So I now recognize myself 
for five minutes.
    And this is a question for the panel. Both Dr. Marcus and 
Dr. Kammen, in their testimony, stress the importance of 
cutting-edge research as a tool to drive the best of talent to 
the field of nuclear engineering. But Dr. Kammen points out 
that while most university programs are good, they are not 
truly innovative and do not attract the best students. So does 
the government have its priorities wrong? Should the government 
shift more of its resources into university research programs, 
like NERI or--and that has been cut in half by--the funding has 
been cut in half in the DOE's request for fiscal year 2004 
instead of subsidizing the regulatory permitting process for 
nuclear plants? Would anyone like to start on that question?
    Dr. Marcus.
    Dr. Marcus. Let me start by saying I think both tailored 
funding for university programs and funding for universities 
through R&D programs are needed. As I mentioned in my 
testimony, we hope to increase the funding through the latter 
mechanism.
    While the NERI program may be reduced over prior year 
appropriation, what we see ahead are some larger programs 
arising out of the Generation IV activities. As such, I 
anticipate there would be a substantial amount of R&D funding 
and a substantial amount applied to universities.
    Chairman Biggert. Thank you.
    Dr. Kammen.
    Dr. Kammen. I just wanted to clarify one of the points that 
you started with, but I agree with your--with the sentiment. 
And that was that I--what I did not mean to say was that the 
programs we have are not sufficiently innovative. I believe in 
the--many of the traditional areas, neutronics, heat transfer, 
they are doing a very impressive job. But in thinking about the 
longer-term future of the programs, that is where I see the 
disconnection between where we are training students and where 
we need to think about very different potential plants down the 
line.
    So that is just the--let me just say one thing with the 
funding levels, and I would agree with Dr. Marcus on the need 
for some increased direct university support. In my testimony, 
I provided a graph that showed funding--federal funding levels 
in the United States, Japan, the UK. And it is dramatic that 
the United States, with the--this very large nuclear fleet, has 
a very low federal funding level relative to Japan, certainly, 
which actually has a nuclear energy R&D budget larger than, 
essentially, our entire energy R&D budget. I would argue that, 
in fact, if you look at the importance of energy to national 
affairs, that increasing that number overall is one of the best 
things we could do.
    But the other feature of it is that if you look at the 
amount of collaborative work between nuclear engineering 
companies and federal support programs, often at universities, 
what we have seen in many fields of energy work is an increase 
in these collaborative programs, linking, for example, the 
National Energy Lab with a number of private companies. And we 
have not seen that same level of increase of collaborative R&D, 
and I measured that in the testimony in terms of patents, in 
the nuclear area for a variety of reasons. So I would say it is 
not just a question of increased federal funding, which is the 
easy answer on some level, but that it is finding those ways to 
induce more industry money to support these programs that are 
now stressed.
    Chairman Biggert. Ms. Howard.
    Ms. Howard. Yes, if I may, please. To address and to pick 
up on what Dr. Kammen has said, as well as to your question on 
funding for R&D or funding for new plants, I think it is very 
important that we do have an infrastructure that will support a 
new generation of nuclear energy from the standpoint of 
providing energy to a direct generation of hydrogen or for the 
continuing non-emitting source of electricity production. And 
in order to do some of that, and also then to stimulate some of 
the collaborative research that Dr. Kammen has suggested, I 
think that it is an appropriate role for the initial few new 
nuclear units to come on line for government to provide some 
type of loan or loan guarantee, that would be repaid, perhaps 
from a loan guarantee standpoint, not even needing to be 
involving any federal funds, to start the program over again. 
And I think that is just one of the issues that, in fact, will 
be debated this afternoon in the Senate chambers on the energy 
bill.
    So it is necessary as we re-look at a new generation of 
nuclear units to supply our vital energy for our economy going 
forward that we stimulate that. That, in turn, will stimulate 
the industry to move forward, make those necessary investments, 
and work through the universities and collaborative research 
through the Electric Power Research Institute and others to 
provide the overall type of environment that would encourage 
new students to come into the program as well.
    Chairman Biggert. Well, I see that my time is up, so I will 
hopefully have an opportunity to come back to it.
    And with that, I would recognize the Ranking Member, Mr. 
Lampson, for five minutes.
    Mr. Lampson. Thank you, Madam Chairwoman.
    Let me start with a question that my daughters would 
probably want me to ask first, both of whom are graduates of 
Texas A&M University. And I will ask it of Dr. Kammen. You 
cited that Texas A&M was a notable exception to the nationwide 
trend of declining nuclear engineering programs. How and why 
was the program at A&M in Texas able to expand so rapidly at a 
time when other nuclear programs were shrinking?
    Dr. Kammen. I--that is, I believe, the first graph in my 
written testimony. And I watched the program at A&M with, sort 
of, delight, because I really thought that they took on this 
issue in the right way. The issues of declining enrollment, in 
my opinion, are not things to be met through programs designed 
to support more enrollment through just simply applying more 
funds.
    In my opinion, you would get increased enrollment by having 
exciting programs. And what A&M did was to focus on the 
traditional areas but also look very hard at hydrogen, which is 
interesting to many students across the board: those who plan 
to go into nuclear engineering and those who want a very, very 
solid technical basis to think about new--hydrogen that might 
come from biological production, from wind, from solar. And I 
really think that that is the right approach. You do not 
guarantee a place of a certain number of spots, but you make 
the program cutting-edge and innovative. And I think that A&M 
did a dramatically quick, as you pointed out, job of getting on 
the map by saying, ``We are going to take on a broader mission 
in nuclear engineering.'' So that is how I think they did it so 
quickly.
    Mr. Lampson. Is this being recognized by other 
universities, and are they trying to emulate it? Are they 
trying to do things that are going to attract the students in?
    Dr. Kammen. Well, I think that we should also have Dr. 
Stubbins talk about it. But my view on this one is that A&M 
is--went from, essentially, off of the charts to certainly one 
of the programs knocking at the door to be in the top five with 
Berkeley, MIT, Wisconsin, Michigan, etcetera. So I think that 
they were able to make that jump very quickly by specifically 
taking on that exciting mandate.
    Mr. Lampson. A comment, Dr. Stubbins?
    Dr. Stubbins. Yes, let me make a couple comments. I would 
agree that Texas A&M has been very proactive in developing 
programs. I am not sure how much of it is related to hydrogen. 
I think, in fact, they have spent a lot of money attracting 
students to the nuclear industry, in general, for a wide 
variety of things. My program, as another example where we have 
broadened our focus from nuclear power to other areas, as the 
title of my department indicates, we are a nuclear, plasma, and 
radiological engineering program. And many departments have 
done this, have broadened themselves in a very wide way to 
cover many of the basic areas that nuclear processes, nuclear 
reactions, and radiation can contribute substantially to.
    I would also agree that there are many things in the 
cutting edge that most university programs are involved with, 
but this national vision of an energy policy and something in 
the future, I think, is an important attraction to students. 
Many of the most attractive things that students look at have, 
in the past 10 years, been small technology related things. If 
we are going to build a new series of reactors, public and 
government-based, those kinds of things are something that one 
person can contribute to substantially but cannot influence the 
overall outcome. So the government needs to support those kinds 
of activities, and this will attract students back in----
    Mr. Lampson. Well----
    Dr. Stubbins [continuing]. To keep us at the cutting edge.
    Mr. Lampson. To some extent--I wanted to make a comment 
earlier about the students who are here. I am not proud just to 
see you here because you are involved with studies in this 
particular. I am proud to see that you draw a connection 
between the studies that you are involved with and government 
and learn to play a role in it and be active in what is 
happening within our government, because the--whether it is the 
policy that we are making or whether it is the regulation that 
is going to be--that will be effecting you or encouraging 
programs and projects.
    But I remember once that Norman Vincent Peale said once 
that ``if you want to know what we will look like in 20 years, 
tell me what we are thinking today.'' What are we doing, as a 
nation, to educate the public about the safety of nuclear 
reactors? I mean, if we do not get support from the public of 
this country, if there are not people that are--if we are going 
to get--to quit carrying the signs around and protesting doing 
this, then we are not going to win the support to make the 
programs that you are talking about happen. So what are we 
doing? And I would like for at least Dr. Marcus and Dr. Kammen 
to comment on that. And I have got to be quiet, because time is 
almost up.
    Dr. Marcus. Angie Howard might be the best person to answer 
this question in detail.
    Mr. Lampson. Well, please.
    Dr. Marcus  First, though, let me say briefly that my 
understanding is that the public is largely in favor of nuclear 
power and growing more favorable toward nuclear power. I think 
that recent events and growing concerns about global warming 
have contributed to that trend. But NEI operates specific 
programs to educate the public, so let me turn to Ms. Howard to 
respond to this.
    Ms. Howard. Thank you, Dr. Marcus.
    The public, from a public opinion polling standpoint, does 
support future nuclear, supports new nuclear----
    Mr. Lampson. To what extent?
    Ms. Howard. The neighborhood of 65 percent will support new 
nuclear being--nuclear being continued to be used for our 
future energy sources, as one of the future energy sources. And 
when they learned that 20 percent of our nation's electricity 
is generated by nuclear without emitting greenhouse gases or 
other controlled pollutants, that support goes up into the 
neighborhood of 70 to 75 percent.
    What we have is a perception gap, though. When you ask them 
what their neighbors think, they think it is probably about 25 
percent support nuclear. The same thing when we have polled 
some Members of Congress or their staff. It is sort of the same 
type of thing. I think what you find is that our public and our 
country do not support new industrial facilities being built in 
their neighborhoods. And that is where you get a dichotomy of 
between what do I support from a policy standpoint and what do 
I want that is generated in my backyard.
    But we are trying to do a lot of public education work, 
both from a standpoint of media interactions, advertising, and 
web-based activities. We are also looking to work in our 
schools, both for the K through 12, particularly the secondary 
education activities, to encourage students to go into science 
and technology and also then to be able to attract it to these 
technical degrees. Because from an infrastructure standpoint, 
not just a nuclear energy standpoint but an overall 
infrastructure standpoint, we need students coming into these 
disciplines. But from a public communication standpoint, the 
industry is working hard to try to get those messages out.
    Mr. Lampson. Maybe we can hear more of that when it comes 
back around.
    Chairman Biggert. This is a quick follow-up. Dr. Marcus, 
what is DOE doing to broaden the programs, such has been 
suggested at the University of Illinois and Texas A&M that Dr. 
Stubbins and Dr. Kammen talked about?
    Dr. Marcus. Thank you for letting me comment, because I had 
wanted to get back to that.
    We are broadening our programs in a number of ways, but 
particularly by collaborations among different groups. Probably 
almost all of our programs now are encouraging more than one 
organization to be involved. That alone broadens perspective 
and brings in other viewpoints. For instance, the INIE program 
includes collaborations with national laboratories and 
industrial research organizations. A majority of the grants 
under the NERI program involve collaborators from multiple 
organizations, often teaming universities, national 
laboratories, and industrial research organizations. You can go 
right down the line on all of our programs. We are trying to 
broaden our activities rather than narrow them, so I think we 
are moving very much in the direction that the other witnesses 
have mentioned.
    Chairman Biggert. Thank you. And now our physicist of the 
panel and former nuclear physicist teacher has been waiting 
patiently, so I would yield five minutes to the gentleman from 
Michigan, Dr. Ehlers.
    Mr. Ehlers. Thank you, Madam Chairwoman. And I would love 
to ask some physics questions, but I will not. I will talk to 
the panel about that later.
    But I do want to point out, first of all, I thank the--
thank you for holding this hearing. It is a very important 
issue. I have been fighting for years to maintain the funding 
for the nuclear reactor at the University of Michigan, without 
a great deal of success, frankly. There is just not a lot of 
public support.
    But we have to continue the education efforts for the 
reasons you outlined in your opening statement, and one 
additional one, and that is, most of the world is using much 
more nuclear energy. We have a great opportunity for a major 
export business here, but if we are not training the nuclear 
engineers, we are going to say goodbye to all of the 
opportunities for export industry in nuclear power. So that is 
yet another reason to do this.
    The nuclear power has fallen on bad times, and there are a 
lot of reasons for that. I think it will come back for reasons 
I do not want to use up my time on. But one major factor I will 
mention is the price and the cost of fossil fuel energy is 
going to go up dramatically. I just received last Friday 
notification from my gas company as to what my gas bill is 
going to be next year, what we pay on a monthly basis: 22 
percent increase. Now I understand why, because we are--there 
are a lot of reasons, but a big one is that we are using a lot 
of the natural gas for--to produce electricity, which I think 
is horrible.
    Natural gas is, simply, too good to burn. It is a beautiful 
feed stock for the petrochemical industry. It is great for home 
heating, and so forth, and nuclear energy would do the job much 
better.
    My question is specifically to Dr. Marcus. You talked about 
the efforts DOE has been making to involve nuclear engineering 
departments throughout the country and the regional university 
research reactor consortia. And then you also expressed concern 
about the closing of two university research reactors at 
Cornell and Michigan. If DOE is supporting this regionalization 
effort, does it imply that you believe a smaller number of 
reactors would suffice? And why is the DOE concerned? Did you 
mention those two reactors for a reason? What role do you see 
the reactors playing in the educational programs? And are you 
advocating just regionalizing this or are you advocating that 
those departments that are strong, we make certain that they 
continue to be strong?
    Dr. Marcus. Let me respond to your questions with a couple 
of points. I mentioned Cornell and the University of Michigan 
because they are two very large reactors that are closed or are 
about to close. Cornell just closed last year, I believe, and 
University of Michigan will close next month. So they are the 
most recent closures. They occurred just when we saw the 
enrollments increasing. We saw the interest turning up, and we 
truly thought that the time was no longer right for closures. 
That is the reason I mentioned those two reactors.
    We do see the INIE program promoting regional groupings of 
reactors. We do not at all see them, if I understand your 
question, as necessarily leading to closures of facilities that 
are now not in the INIE program. First, reactors at 
unaffiliated universities are not necessarily at risk. In 
addition, the existing consortia may well incorporate some of 
the unaffiliated programs in the future.
    Mr. Ehlers. Let me ask the university personnel here. How 
important is it to maintain a reactor in the university 
campuses where you have nuclear engineering programs, for two 
reasons: one, for research; and secondly, for training of 
students? Do you believe that it is essential or it is 
something you can get along without?
    Dr. Kammen.
    Dr. Kammen. Well, certainly at--Berkeley is in an unusual 
spot, because we also have a strong fusion program that is 
linked with the national labs. And students pick and choose 
between the programs based on some of those features. There is 
no question, though, that in terms of the--some of the staffing 
levels that Ms. Howard talked about with the support issues, 
that having access to a facility is critical.
    So I am not as clear that having it on campus is the thing 
as long as there is a very strong relationship to get students 
placed, because there is certainly no substitute for actual 
reactor time. We bring our students from Nuclear Engineering at 
Berkeley down to Diablo Canyon where we do a very intensive 
course where they do a series of scram drills. They do a whole 
variety of real management issues. They go back to the 
classroom and they do more on the theory of heat transfer and 
neutronics, and they go back down again to Diablo Canyon.
    So there are a variety of ways you can do that, but there 
is no question that access to real facilities much more so 
than, say, the book-based and a lot of remote stuff is very 
critical to supporting that long-term.
    Mr. Ehlers. Dr. Stubbins and then Dr. Slaughter.
    Dr. Stubbins. No, I would agree that they are critical for 
programs. I think some of the growth, including the ones at 
Texas A&M, where there are two actual research reactors, have 
been critical in reestablishing the undergraduate enrollments. 
This is an exciting area for undergraduate students. We lost 
our reactor three or four years ago, and I think this has 
impeded our growth of undergraduate enrollment. We do not see 
it as the critical thing to keep the department alive, but 
access certainly is important. And we are one of the INIE 
participants. We are one of the group in the big ten 
consortium, so we do have access, and this has provided us an 
avenue that we did not have a year ago.
    Mr. Ehlers. Dr. Slaughter.
    Dr. Slaughter. Well, I think the--having reactors on 
campuses and involving the research is extremely important. It 
does give the--their hands-on experience where they are not 
going to be able to get it from the book. There is also an 
ability for multi-disciplinary type of operations in a time-
reflective way in educational institutions that are not really 
there at national labs where you can take time on national lab 
reactors. I think universities provide that unique opportunity.
    But I also caution that university reactors can only 
survive at a university if, in fact, you have full support of 
their academic administrations. That is extremely key, because 
then you will find those administrative--those reactor 
facilities fighting their own administration. So I think one of 
the things we have to also do is not only fund university 
reactors, but we also have to make sure that university 
administrations are friendly to these type of experimental 
facilities. But I see them extremely important, and they really 
are urgent and needed for educational and research.
    Mr. Ehlers. I see my time has evaporated, and I yield back.
    Chairman Biggert. Thank you.
    We will next have as our participant is Dr. Bartlett from 
Maryland, who is also in this field. He is a physiologist and 
an inventor, so I know he knows a lot about innovation. So Dr. 
Bartlett is recognized for five minutes.
    Mr. Bartlett. Thank you very much.
    Several of you have mentioned the need for increased 
federal dollars. There are some things that only the Federal 
Government can support, and we need to be supporting those 
things. But many other activities, including yours, might be 
better supported by the private sector.
    I would just like to note that there is no such thing as 
the ``federal dollar.'' Every dollar we spend either comes from 
the paycheck of some hardworking American or increasingly we 
are borrowing it from our children and our grandchildren. In a 
very real sense, you can not tax a business, because that 
simply becomes a--part of the cost of doing business, and they 
pass that cost on to their consumers. So in reality, either we 
pay for it, as working Americans, or we pass that debt on, for 
which I am very sorry, to our children and our grandchildren. 
So I think that we might all be better off if we left more of 
the money in the private sector so that you could then get the 
money directly from the people in the private sector, rather 
than through a government, which can be very arbitrary and 
capricious. And you should not have to come on bended knee to 
get your money from the government.
    I am concerned, for two reasons, with the decrease in 
enrollment and funding in our nuclear programs. One is that 
basic research, obviously, is hurt. I do not have the foggiest 
idea what societal payoffs for basic research may be in the 
future, but I do know that history tells us that whenever we 
have had adequate basic research that there have been societal 
payoffs and that I am sure that that will be true in the 
future. So I have no idea of what societal benefits we will not 
have, because we do not have adequate support of basic research 
today.
    But I am also very concerned because of the engineering 
decrease. As you know, we have only two percent of the known 
reserves of oil in the world. We use 25 percent of the world's 
oil. We import 57 percent of what we use. In the last Congress, 
I had the privilege of chairing this subcommittee, and one of 
the first things we wanted to do is to determine the dimensions 
to the problems. We held hearings on the availability of oil. 
General agreement across the spectrum, roughly 1,000 
gigabarrels of known reserves. Now we will find more, but we 
shall also like to use more, and we will be lucky, I think, if 
the more we would like to use is matched by the more we find.
    So all you need to do is to divide roughly 80 million 
barrels a day, 20 for us, 60 for all of the rest of the world. 
One person out of 22 uses 25 percent of all of the world's oil. 
Divide that 80 million barrels a day into 1,000 gigabarrels. 
That is one trillion barrels. You come up with about 40 years 
of known reserves. Now we will find more, but we would sure 
like to use more, and I think that the more we would like to 
use, it will probably exceed the more that we are going to 
find.
    Who do you think ought to have the responsibility of 
looking down the road? Very difficult for government to do 
that. We--it is hard for us to see beyond our next election. It 
is very tough for industry to do that. They have great 
difficulty seeing beyond the next quota report or the next 
Board of Directors meeting. Who needs to be looking down the 
road?
    Today--as you drive tonight, as you have mentioned, every 
fifth house and every fifth business would be dark if it were 
not for nuclear. And since our fossil fuels are not 
inexhaustible, who, in your judgment, should be looking down 
the road and making the kind of decisions that we need to make 
today so that we are not going to come to grief tomorrow?
    Dr. Kammen.
    Dr. Kammen. Well, I have to admit, I love the question, 
because the calculation that you have preceded is exactly what 
our energy society course for beginning grad students aims to 
get the students to work on it. That is the perspective that I 
am pleased to hear.
    In my view, and I have worked on a range of energy 
technologies and policy at the federal and national level, the 
critical mechanism that, I think, echoes what you are saying is 
we need to make the process of using energy wisely and 
innovating to find new energy supplies in the best interest of 
business. I--we need to align the best interest
    --the interest of business with our--of our society. And 
right now, I would argue that our fossil fuel policy is one 
that has the interest of business misaligned with that of 
civilians, meaning that we are interested in low-cost energy 
now but none of the long-term planning that you have described.
    There are a variety of mechanisms, however, that can be 
used to help industry align those interests more along the 
national directions that you are mentioning. I mentioned 
briefly in my comments mechanism for carbon trading. If we 
truly value the environment and we truly believe in global 
warming, as does now the majority of scientists agree, 
mechanisms to allow businesses to profit from making these wise 
energy decisions make sense. Carbon trading would be one way to 
do that, as would be renewables portfolio standards, as would 
be a variety of mechanisms to allow us to use our fossil fuels 
more wisely. I am a great fan of fossil fuels, but I also agree 
with Congressman Ehlers that they are too valuable to burn in 
applications where we have other technologies.
    Those are the sorts of things that we could do to make that 
sort of alignment one where businesses saw the types of 
policies that you described in their best interest. And right 
now, I believe we are sending mixed signals, at best, to 
companies as to how to make those decisions.
    Mr. Bartlett. Thank you very much. And I hope we will have 
a second round that we can come back for further discussion. 
Thank you.
    Chairman Biggert. Thank you.
    Mr. Bonner from Alabama.
    Mr. Bonner. Thank you, Madam Chair. I am one of 54 new 
Members of Congress, and yet I worked on the Hill for 18 years. 
And so I come to this seat predisposed to being a supporter of 
nuclear energy.
    But Ms. Howard, I would like to ask you a question 
specifically, because I have also had an opportunity, during my 
years as a Chief of Staff to my predecessor, to travel on two 
NEI trips to Yucca Mountain and to see what the industry is 
doing to take the lead in the development of Yucca. My 
question, though, is based on the figures in your testimony, if 
the nuclear energy industry sold 780 billion kilowatt hours 
last year, and assuming the very conservative estimate of two 
cents of revenue per kilowatt hour, the industry, as a whole, 
has earned over $15 billion in revenue. But the industry's 
share funding for education in this area has amounted to just 
$19 million since 1980, a tenth of a percent of revenue in the 
year 2002 alone. So expressing my strong advocacy for nuclear 
energy, but coming from an area where fiscal conservatism is 
something that we practice as well as preach, I would wonder is 
the industry contributing its fair share to nuclear education?
    Ms. Howard. Thank you for your question, and I was not 
trying to be comprehensive in the testimony. I was giving one 
example of a concerted effort on some fellowships. The industry 
itself is doing quite a bit more across the board on--by 
individuals. Many companies and Southern Nuclear in your 
service territory is a prime example of a tremendous presence 
on campus, internship programs that they sponsor, like many of 
our companies do, as well as a strong advocacy program for the 
university programs. Auburn University gets a tremendous amount 
of resource from that particular company as well. So there is a 
broad base there and as well as the suppliers.
    I think where our gross revenue is an important measure, it 
is not the measure, though, that is currently the measure of 
industry performance, and particularly utility performance. And 
unfortunately, that is earnings per share. And if we look at 
some of those earnings per shares from a down market over the 
last few years, the industry has had some significant financial 
impact across the board. But if we can have government policies 
to address the other question that encourage the longer-term 
investment and capital infrastructure, then I think you will 
see the industry stepping up to the plate for new nuclear, for 
new clean coal technologies, and other long-term, energy-
intensive, and capital-intensive activities.
    Mr. Bonner. Would you care to propose a ratio of federal 
support to that of industry?
    Ms. Howard. I would be glad to give some thought to that 
and respond back to you, certainly. Yes.
    Mr. Bonner. Madam Chair, if I could ask one final question, 
and this is for the entire panel. I think the Administration 
deserves great credit for pushing forward with Yucca Mountain. 
And I think the actions of Congress in recent months certainly 
send a positive signal. But in the event this facility is 
blocked by some court or some other proceeding, what is plan B? 
What would plan B be if you looked into your proverbial crystal 
balls and came up with an alternative, given the discussions 
that we have had today?
    And that is open to any of the academics or others.
    Dr. Stubbins. Let me start. I am not sure there is an easy 
alternative, but there are--there is a major initiative 
underway to look at alternate fuel cycles and ways of burning 
fuels, burning waste in innovative ways that would reduce the 
waste burden. This is, of course, something looking into the 
future, but if there has to be a plan B, maybe it is something 
that we could do retrospectively. And there is a lot of 
activity nationally, internationally in this area. The U.S. is 
not the only problem--the only country with waste issues--
nuclear waste issues. So there is a lot of innovative thinking 
about how to take care of nuclear waste and reduce its burden 
overall, which could be applied to existing waste.
    Mr. Bonner. Madam Chair, thank you.
    Chairman Biggert. Thank you.
    I am just listening to the bells to see if we are going to 
have a vote. All right. We are not.
    A number of you--I think we will begin a second round. If 
we can move quickly and answer quickly, then we will be in good 
shape.
    A number of you testified to the fact that existing 
university research reactors remain underutilized. And will 
programs like INIE maximize utilization of these reactors, or 
will more reactors need to shut down to maximize the use of 
those that remain? Dr. Slaughter, could you give us an insight 
on that?
    Dr. Slaughter. I--actually, I am concerned. The fact is 
that when people indicate that there is an under-utilization--
and part of the reason for, I believe, under-utilization is 
that for the last two decades, we have been in a survival mode, 
and we have lost a considerable amount of faculty, students--or 
faculty and staff on this. And it is--goes back to the idea of 
being creative. Think of yourselves, for example. I use this as 
if you were doing your job completely without your staffs. The 
multitasking that you do, and now have budget cuts go across 
the line in a heavily regulated environment and see how well 
utilized you are in the completion of tasks.
    Unfortunately, what we need to see actually is not a 
reduction in reactors, but an increase in creative people 
utilizing them. That means we are going to see an increase in 
faculty. That means we are going to see an increase of 
technical staff. And then I believe you will see a surge in new 
creative ideas that, in fact, will deliver the B part of that, 
aspects of ``if we can not get Yucca Mountain.'' Or we will 
have, certainly, other solutions and, more importantly, new 
technologies in the other areas in which these reactors 
perform.
    Thank you.
    Chairman Biggert. I think you have given us a great visual 
picture of--comparing our staff and--thank you for that. We 
will remember that.
    Dr. Stubbins.
    Dr. Stubbins. Yes, let me say a word about this, which I 
think impacts on some of the issues that Mr. Bartlett and Mr. 
Bonner raised. I think there does need to be a national focus 
on these things. One of the major difficulties that we, as 
universities, have is that a lot of the decisions are made 
based on local pressures. There is an effort, but I think a 
small relative effort to look at a national picture when we 
decide whether this reactor should close or whether this 
program should go away. These are done based on pressures that 
have to do with where the other university--local university 
issues have to apply resources.
    And so I think having a national view--and I would include 
what NEI has done in terms of giving a national focus to the 
nuclear utilities, and certainly what DOE has done through the 
INIE program and many other programs to provide a better 
connected national infrastructure to look at the future of 
nuclear engineering, nuclear reactors has been a very critical 
thing to keep our universities focused on the bigger picture.
    Chairman Biggert. Thank you.
    Anyone else? Dr. Marcus.
    Dr. Marcus. I would just agree with both Dr. Slaughter and 
Dr. Stubbins.
    I see a number of trends coming together that will, I 
think, improve the utilization of the reactors. The INIE 
program is one. I think the anticipated increased research 
programs are another. A good fraction of funding in those 
programs will be directed to the universities and will involve 
the university faculty, students, and facilities. While I can 
not predict what every university administration will do--as 
Dr. Stubbins said, there is still a problem at some schools--I 
see a lot of promising activities underway today to address the 
issue.
    Chairman Biggert. Just another one quick question for Dr. 
Stubbins. In your testimony, it was unfortunately kind of a 
gloomy scenario for university nuclear engineering in Illinois, 
and it is--nuclear is so important, to what extent do you think 
that Illinois companies might partner with the state programs 
like yours to a greater degree?
    Dr. Stubbins. Well, we have been getting support from 
Exelon, which is the big nuclear utility in Illinois. And also 
on--nationally, the Argon National Lab is there, and we have 
had a tremendous amount of interaction over the years, both 
ways, including supplying people for Argon and for Exelon. So I 
think there is a strong sentiment for supporting the program at 
Illinois. I think it is difficult for these external forces to 
put enough pressure locally on my university administration, to 
me.
    Chairman Biggert. Well, assuming that Congress was able to 
fund the university nuclear science and engineering programs at 
the levels recommended here today, would that be enough to 
sustain the Illinois program or are there other pressures 
that----
    Dr. Stubbins. There are still other pressures. The 
University of Illinois programs have been growing--expanding. 
The number of students are up. The research support is up. We 
lost our reactor, but we are now part of one of the INIE 
programs. We are a major partner in one of the INIE programs, 
and this has been very supportive. So I, quite honestly, do not 
understand the point of view of my administration vis-a-vis the 
current positive trends in the industry in our local situation.
    Chairman Biggert. Thank you.
    Mr. Lampson, you are recognized for five minutes.
    Mr. Lampson. Thank you.
    I think it is important to note in my own mind a comment 
that we heard a few minutes back that--about putting private 
money in. Obviously we want private dollars involved in all 
aspects of our lives, but I have always been taught that 
community does what we, as individuals, can not do. And so I 
hope that the government would continue to look for ways to 
fund programs like this and make them happy, because if 
individuals either will not or cannot, and it appears to be, 
for the collective good of all of us, to me, that is what our 
government is all about. And I do not mind spending money when 
it is well spent in those regards.
    I was also considering the cost of--when we were talking 
about a couple cents per kilowatt-hour, the cost of generating 
electricity from fission-generated--from fission generation. In 
relation to other fuels, can you give me some comments? And Dr. 
Kammen particularly, on page six of your testimony, there is 
one paragraph that was somewhat confusing to me where you talk 
about electricity being at two cents per kilowatt-hour, but 
then you go down and say that the Nuclear Energy Institute 
lists power cost at 3.8 to 4.8. The Rocky Mountain Institute 
cites cost of eight to 12 cents per kilowatt-hour. And also 
throw in some kind of a comment about the cost of protecting, 
not just this, but also access to fossil fuels.
    Dr. Kammen. Well, I apologize that the paragraph was 
confusing. This may mean that I did not do my academic job as 
clearly as I should have. What I tried to raise in that 
paragraph, in contrasting the cost figures presented by the 
Nuclear Energy Institute and by the Rocky Mountain Institute, 
an anti-nuclear organization, I mean let us be clear on who is 
what, is that the cost of nuclear power, in my opinion, is much 
more determined by ideology than it is by straight financial 
energy economics that I would practice in my course.
    I do not say that--what I mean by that is that the things 
that you include in the cost are taken very differently by 
different sectors of the community. If Yucca Mountain, for 
example, is not put in the cost, which is a valid calculation, 
then you get the numbers that NEI listed. But as we heard 
before from Congressman Ehlers, those monies that come from the 
Federal Government come from somewhere. If you include the cost 
of Yucca Mountain, and critically, for example, in California, 
the very large bailout for some unfortunate nuclear investments 
that were made in California previously, then you get these 
much higher numbers.
    So while everyone can claim that their number--2 cents, 
2.13 cents is the generating cost, not necessarily the sales 
cost, but the generating cost for nuclear, that is a valid 
statement. But you can also get people to tell you a very 
different one. And in my opinion, all of this leads back to 
your question in the first round, and that is: what is the 
perception of nuclear power? Where your ideology is dictates 
which of these economics that you choose to highlight. And I 
guess I am much less optimistic than Ms. Howard is about the 
public perception of nuclear power. I believe that the public 
gets used to things. And I am an author of a book on risks 
where I document some of this. But the public gets used to 
things. And we get used to 20 percent of our power from 
nuclear. Those plants have not had a major accident recently, 
therefore that is taken as part of our given.
    But talking about expanding those facilities, either 
increasing the power at those plants or new plants, I believe 
that the public perception, certainly in my State of 
California, which admittedly is far from Washington right now, 
shall we say, certainly indicates that new construction is not 
likely to be part of what would be--would prove concerning my 
part of the country. So the answer to your question, which I 
hope is not too roundabout, is that I really do not think that 
the--you are not going to get agreement on the cost of these 
technologies. But what you will get, I believe, is an 
opportunity to more fully integrate nuclear into the overall 
energy planning.
    If we really did sit down and have this national nuclear 
energy policy debate where we looked at what the cost of fuel 
production--of energy production at the--I mean, right--
immediate production, plus the life cycle cost across clean 
coal, oil, gas, nuclear, solar, wind, biomass, then I think we 
could get to what you are getting at, and that is we could 
discover where those dollars are going to spend. But right now, 
the energy debate is largely disparate arguments from the 
different technology sectors. So that is my concern in 
answering your question.
    Ms. Howard. May I make just one clarification?
    Mr. Lampson. Go ahead.
    Ms. Howard. The cost for Yucca Mountain is contributed--the 
utilities through the cost of nuclear energy at a kilowatt hour 
or generation, and so roughly $700 million a year are going 
into the Federal Government through the nuclear waste fund. 
There is roughly now close to $20 billion in that fund, about 
seven of which have been spent on Yucca Mountain. So I would 
like to point out that that is a part of the operating and 
maintenance cost of the existing nuclear fleet today. And so 
the money has been contributed. It is--we hope will be--the 
waste fund will be addressed as we go forward so the corporates 
of that waste fund can be spent on Yucca Mountain as the intent 
was when the electricity customers paid that in through their 
rates.
    Mr. Lampson. I want to thank the panel and the Chairwoman 
for an interesting hearing.
    Chairman Biggert. Thank you.
    Dr. Bartlett of Maryland is recognized for five minutes.
    Mr. Bartlett. Thank you very much.
    I would just like to note that maybe one of the reasons the 
private sector does not have more money to help you is because 
we take too much from them. You know, we do not--the town 
dollars when they come into our Congress. As a matter of fact, 
we shrink them, because we have got a big bureaucracy that has 
to be fed down here.
    The nuclear activities in our country--universities have 
been decreasing over a number of years. I remember when I first 
came here about a decade ago, I was--voted with a minority, 
unfortunately, to keep the super-conducting super collider in 
Texas open. I was concerned for two reasons. One, we 
desperately need something that captures the imagination of our 
people, inspires our young people to go into careers in 
science, math, and engineering. I hope that might do that. 
Further, I thought that it was very exciting that the particles 
we produce with energy are roughly ten times of those we 
produce other places might provide, just the missing 
information that Steven Hawking needs to complete his 
mathematical synthesis of the mysteries of the universe. And I 
thought how exciting that maybe he may have the best mind in a 
millennium trapped in a body that will not endure forever. And 
I thought it might be exciting if we could do that, but alas, 
he did not.
    I would just like to come back to the energy power. I am 
opposed to drilling into Lake Michigan and off the coast of 
Florida, not for any environmental reasons. I have been to Anne 
Noire. I--that may be, to some, a pristine wilderness. It 
looked more like a wasteland to me, but my concern is that if 
we have only two percent of the known reserves of oil in the 
world, I am having trouble understanding how it is to our 
national security and benefit to rush around and pump that. I 
asked the Vice President, ``If you could pump that oil 
tomorrow, what will you do the day after tomorrow?'' And the--
and his response was, ``Roscoe, as long as I can remember, they 
have been telling me there are 30 years of oil left in the 
world.'' What that means is, I think, that he generally 
believes that there is a whole bunch of oil out there. It is 
kind of a cosmic hide and go seek. God knew how profligate we 
would be in our use of energy, so he hid a lot of oil out there 
and our only challenge is to go find it.
    But the reality, as I mentioned, is that the best estimate 
is that there is about 1,000 gigabarrels remaining. That is not 
forever. That will not last forever. And our use of fossil 
fuels is so enormous that we are going to have to be very 
clever if we are going to find enough energy from other 
sources, and nuclear, obviously, is one of those. How--where do 
we go from here? I do not see us as a society really 
understanding that there is a problem out there or doing 
anything meaningful to address that problem.
    I am 77 years old, and I will not live forever, and I want 
to pass on to my children and my grandkids a country better 
than when I came here. And in terms of energy, we are not about 
to do that unless something changes. How do we educate and how 
do we make it change?
    Dr. Kammen.
    Dr. Kammen. Well, I certainly agree with that completely, 
on a whole variety of levels. I mean, one of the statements 
about our use of oil is not that in the very short-term we are 
running out of oil. We are running out in long-term, but what 
we are running out of in the short-term is atmosphere. We are 
running out of places to put the waste products, and it does 
not make sense, on a whole variety of levels, to continue on 
this sort of path, which seems to be wasteful locally and 
wasteful in the long-term.
    I hope that--well, let me start--one of the mechanisms that 
seems to be what you are talking about and that is what would 
wake up this process. In American history, that item that has 
woken us up regularly, unfortunately, has been crises. 
Americans often talk about the ``sleeping giant'' approach to 
all variety of problems. We began that with the Japanese 
bombing of war--of Pearl Harbor as an example. The scientific 
community right now believes that that current ``sleeping 
giant'' is climate change. And that climate change has been 
debated, and it is easy to take sides, because we do not have 
glaciers melting in our backyard, although now we, in fact, do.
    The issue is what level of crisis environmentally or 
through some Middle East or politically is enough to wake us up 
to develop this broader energy policy and not so large that we 
are killed off in the process. And so along your lines, I hope 
for a small crisis, but not a large one. Now that is a pretty--
as a physicist, that is a dangerous thing to be hoping for, 
just enough but not too much of a problem. But I have not seen, 
with all of the various energy things going on in the world, us 
taking the steps that you describe as so important, and I agree 
with, with the crises that I already think have been big 
enough.
    Ms. Howard. Well, I just might say that what I think we 
need to have is the statesmen decision like--and involving a 
consortium of business and non-governmental organizations as 
well as government to come together and put aside some of the 
special interests. We seem to be run by special interests and 
wait for the crisis to happen. And perhaps this has to start 
over a long-term generational process with the education in the 
schools and addressing the curriculums that educate our young 
people and then bring that forth through a national policy on 
energy and economic coordination. Our economy runs on 
available, affordable, and environmentally available and 
environmentally compatible energy. And so we do need to make 
some very difficult decisions, and it has to be communicated as 
a statesmen level as a national policy and that be driven by 
looking at all of our energy sources.
    I do not think there is a debate about should we have 
fossil energy or should we have nuclear or should we have 
renewables or should we have conservation and efficiencies. We 
need them all, absolutely, and it has to be the kind of 
national policy but also the economic policies that reward the 
tough long-term decisions.
    Mr. Bartlett. Thank you, Madam Chair. Thank you for a good 
hearing.
    Chairman Biggert. Thank you.
    And just in time is Dr. Ehlers, if you have any--another 
question.
    Mr. Ehlers. Thank you. I am sorry I am bouncing between two 
Committees that are going on simultaneously.
    The two general questions--well, actually one general and 
one specific. First of all, do you think any corporation is 
likely to invest $2 billion or more in the nuclear power plant 
today, given the uncertainties of nuclear power? We will just 
go down the line on that.
    Dr. Marcus.
    Dr. Marcus. I think a lot more active consideration is 
being given to building new reactors than there has been in the 
past. Senator Domenici has introduced some legislation that we 
are looking at with great interest. Ms. Howard can probably 
comment on that legislation in more detail. I don't think a 
decision on a new plant is going to be made next week or next 
month, but it appears that the prospects are more positive than 
they have been in the past.
    Dr. Kammen. I would argue that, in fact, I do not think it 
is likely right now. I think we just had an experiment with 
Exelon and they went through a thought process and were 
intimately involved with DOE in thinking about the near-term 
deployment plan. And for a variety of reasons, they pulled out. 
So I would argue that right now, without a change, I do not 
think it is likely.
    Ms. Howard. It depends on what you mean by ``right now.'' 
There are three companies that are investing in early site 
permitting to test the new energy policy on early site 
approval. There are three companies who have design 
certifications approved and ready to go with the nuclear 
regulatory commission. There are additional companies that are 
going forward with design certification, investing hundreds of 
millions of dollars into--both from a standpoint of the utility 
site work as well as the design certification.
    Will some assurances that the--will--combined operating--
construction permit and operating license can go forward as has 
been approved by the 1992 Energy Policy Act. I think you will 
see these same companies being willing to invest their money. 
At this stage, we would like to see a government partnership on 
some of the early units going forward, a sharing of some of 
that investment risk to be assured that the policies in place 
can actually be implemented. And then after that, if that is 
successful, I seek--think you will see those same companies and 
others coming forward to build a new generation of reactors in 
this country.
    Mr. Ehlers. Dr. Stubbins.
    Dr. Stubbins. I think it is likely. There are some 
impediments, and I think the gas cold reactor issue is one that 
is kind of off the map because of its very advanced technology. 
The next step probably will be a reactor like the ones that we 
are currently building around the world, other places, that is 
consistent with the current fleet.
    But I think the other real impediment is that the nuclear 
utility industry has two problems. First of all, they really 
have not made the transition yet to be completely competitive. 
They need to align themselves better to do that. The market 
will become very competitive, I think. And part of the 
difficulty is that since they have consolidated in some ways, 
they are competing, in a sense, against themselves to build a 
new plant. They have existing plants that operate well where 
they are increasing capacity. And so building a new plant is 
not, maybe the nearest-term thing they are thinking about, but 
I agree that in the short-term, there will be a new order.
    Mr. Ehlers. Dr. Slaughter.
    Dr. Slaughter. I think the question here is--I think there 
are technology issues, but I think those can be overcome. I 
think what the critical question will be if a company will put 
some kind of financials of that nature to this is where will 
they site it, and will the community support it. I think the 
fact is that is the key question. And that has to be answered.
    Mr. Ehlers. I think another question is now with 
deregulation, they do not have an assured customer base. And 
can they--will they be able to sell the electricity at a price 
commensurate with the cost of the reactor? And that is another 
issue to face.
    One last quick one. Dr. Kammen, you were the first to 
mention using reactors to produce hydrogen. What process is 
that, and how do you expect it to compete with preparing 
hydrogen from fossil fuels?
    Dr. Kammen. Is--I think the main issue here is actually the 
amount of research that we need to do. The temperature regime 
in which hydrogen is most efficiently produced from nuclear 
reactors is actually somewhat different than what we operate 
reactors at today. That might--that does not need to be the 
case in the future necessarily. But it does mean that if you 
want to think about a future reactor that is an electricity-
only machine or a hydrogen-only machine or a hybrid machine 
that would do both in a, sort of, more free wheeling market 
where you produce electricity one day and hydrogen the next, 
that with the exception of this research of Dr. Forrestburg at 
Oak Ridge, we have very little long-term thinking about that. 
And so I actually think before an answer can be given to that 
very good question, we need to diversify the advanced 
innovative research activities in this area, because I do think 
it is very much understudied right now.
    Mr. Ehlers. Well, the other factor is you have to--when you 
compare costs, you have to decide whether you are going to 
sequester the carbon from the fossil fuel process or not----
    Dr. Slaughter. Correct.
    Mr. Ehlers [continuing]. Because that can make a huge 
difference in the cost of hydrogen using fossil fuels.
    Dr. Slaughter. That is right. And this is exactly why I am 
most interested in these carbon taxes and ways to think about 
those economics that would favor this sort of fossil fuel 
conserving, environment conserving process.
    Mr. Ehlers. All right. I note my time has expired, but it 
is up to the----
    Dr. Kammen. Let me make a quick--one more comment. I think 
one of the issues is that I think the Department of Energy has 
been looking at this fairly carefully. One of the NERI programs 
that just finished has looked at carbon cycles
    --or hydrogen cycles. There are 200-plus cycles. And there 
are some that are very workable with nuclear power that would 
be much more efficient than electrolysis, which you could do by 
generating electricity in any one of these means, and would be 
a--have possibly the added bonus that they could be used as 
hybrid plants. But this is under very active consideration. It 
is also one of the things that DOE is looking forward at in 
terms of developing a new reactor, at least a new experimental 
test reactor.
    Mr. Ehlers. And Dr. Marcus, last word.
    Dr. Marcus. I had wanted to note that the Department is 
looking at some advanced reactor designs that would be higher 
temperature and thus more conducive to hydrogen production, 
which was mentioned earlier. Some of these designs are part of 
the Generation IV program that was described previously as 
being pursued with international partnership. Ultimately, there 
will also be strong participation from industry. The question 
of industry involvement was mentioned previously, including the 
problems that may arise when the government selects 
technologies. We hope to avoid those problems by involving 
industry in making sure that the result will be a product 
industry will want when it is developed.
    Mr. Ehlers. Generation Y may build Generation IV reactors.
    Dr. Marcus. I will keep that in mind. Thank you.
    Chairman Biggert. Before we bring this hearing to a close, 
I want to thank our panelists for testifying before the 
Subcommittee for their excellent testimony and their insight. 
And I would also like to thank the students that are here for 
attending the hearing and staying through the whole thing. So I 
appreciate it.
    If there is no objection, the record will remain open for 
additional statements from Members and for answers to any 
follow-up questions the Subcommittee may ask of the panelists. 
Without objection, so ordered.
    The hearing is now adjourned.
    [Whereupon, at 11:50 a.m., the Subcommittee was adjourned.]
                              Appendix 1:

                              ----------                              


                   Answers to Post-Hearing Questions


<SKIP PAGES = 000>

                   Answers to Post-Hearing Questions
Responses by Gail H. Marcus, Principal Deputy Director, Office of 
        Nuclear Energy, Science, and Technology, U.S. Department of 
        Energy

Questions submitted by the Majority

Q1. LWhat percentage of the Advanced Fuel Cycle Initiative's (AFCI) 
funding has gone to universities in fiscal years 2001 and 2002? How 
will the nature of the university research funded by the new 
mechanism--the fixed 5 to 10 percent of all nuclear R&D funding that 
you announced at the hearing--differ from the university research 
conducted under the Nuclear Engineering Research Initiative (NERI)?

A1. The AFCI program dedicated 11.7 percent of its FY 2001 budget to 
university directed research programs and fellowships ($3.98 million 
out of $34 million). In FY 2002, AFCI dedicated 14 percent of its 
budget to university programs ($7.1 million out of $50 million). The 
majority of these funds supported the University of Nevada at Las Vegas 
and the Idaho Accelerator Center at Idaho State University in 
Congressionally directed research. The funds also supported ten Masters 
Degree student fellowships and over one hundred students in national 
laboratory directed research at nine universities.
    The new mechanism being developed for funding university research 
results from the refocusing of our program from general research to 
research specifically related to the advanced reactor system concepts 
which have now been identified for international collaborative research 
through the Generation IV International Forum. We would expect the 
total funding available to universities under the anticipated research 
projects to be greater than the funding that was available under the 
NERI program. In addition, since this research will be tied to 
significant on-going programs, universities participating in research 
related to these reactor designs will be able to work with a larger 
national and international research community.

Q2. LAt the hearing, Ms. Howard of the Nuclear Energy Institute (NEI) 
testified that the nuclear industry's goal is to increase its share of 
the electricity market to one third. At the hearing, Dr. Kammen 
suggested instead that it was likely to maintain a 20 percent share, 
while the Energy Information Administration (EIA) has projected that 
industry capacity is likely to expand by less than one percent.

Q2a. LHow does DOE project the future size of the nuclear power 
industry when designing its programs, and how do its methods differ 
from those of NEI and EIA?

A2a. The Department of Energy has not made projections on the expected 
size of the commercial nuclear power industry. The design of our 
programs is based on optimizing current nuclear power generating 
capability and on enabling an increase in total nuclear generating 
capability through the construction and operation of new nuclear power 
plants in the future. Therefore, the programs of the Department may 
alter the premises behind some of the projections of the future size of 
the nuclear power industry by removing barriers and opening new 
possibilities.

Q2b. LHow do you ensure that DOE's programs are best able to cope with 
the uncertainty in such projections, which historically have been quite 
large?

A2b. As DOE programs relating to nuclear capacity optimization in the 
United States are not based specifically on projections, the large 
uncertainties in projections have not impacted their need or direction.

Q2c. LGiven the long lead times that are required to build nuclear 
plants, what are your estimates of the most likely and the most 
optimistic number of new nuclear power plants that could be operating 
or under construction by 2011?

A2c. It is possible that an order for a new nuclear power plant could 
be placed around the year 2005. New orders are based on evaluations of 
the energy market by the power generation industry, and therefore will 
depend on a variety of economic factors. It is impossible, at this 
point in time, to make a valid projection regarding the number of new 
plants that might be built over the next decade.

Q3. LIn Ms. Howard's testimony, she stated that the nuclear industry 
would require 90,000 new workers over the next 10 years.

Q3a. LWhat is your best estimate for the total number of new nuclear 
workers (including replacements for retirees) needed in the next 10 
years? How many of those would be nuclear engineers?

A3a. DOE participated in that NEI Task Force and has no reason to 
disagree with the conclusions. The Task Force estimated that about 800 
nuclear engineers would be required over the period 2002-2011.

Q3b. LIn developing your estimate, how many commercial reactors do you 
assume will be running in 2013? How many would be needed to employ 
90,000?

A3b. The assumption was that the 103 plants operating today would 
continue to operate and no new plants were projected.

Q3c. LHow large is the current nuclear workforce, including all workers 
from maintenance workers to engineers? What fraction of the current 
workforce is nuclear engineers?

A3c. Citing again the NEI Task Force in which DOE participated, the 
aggregate estimate of the total number of workers in the entire 
industry, including the national laboratories, industry and 
universities, is 90,000. The NEI study did not collect data on the 
current number of nuclear engineers in the workforce.

Q3d. LWhat is the uncertainty associated with your estimated total 
number of workers needed?

A3d. This study was based on direct solicitation of data from the 
industry, and is therefore considered to have a high degree of 
certainty.

Q3e. LWhat are the key determinants of the demand for nuclear engineers 
and other nuclear workers?

A3e. The key determinants of the demand for nuclear engineers and other 
nuclear workers are the state of the nuclear infrastructure in the 
country (for example, number of nuclear power plants) and the 
demographics of the existing workforce.

Q3f. LHow large do you believe DOE's university programs must become 
(and how quickly) to allow the Nation to produce the new graduates you 
estimate are needed?

A3f. While there is no exact correlation between the size of DOE's 
University Programs and the number of nuclear engineering graduates, 
the program is clearly having a positive impact as more nuclear 
engineers are graduating from the Nation's universities today than a 
decade ago. Additional funding would enable the Department to fund more 
Nuclear Engineering Education Research, more fellowships and 
scholarships, and to better meet the projected contractual needs of the 
Innovations in Nuclear Infrastructure and Education initiative. Even if 
the number of graduates remains fairly constant, maintaining current 
educational levels requires new faculty to replace those retiring, 
improved equipment, modernized research reactors and challenging 
research.

Q4. LA number of studies suggest that the number of nuclear workers per 
power plant is declining. What is the average number of college-trained 
(at each level) personnel employed at a typical reactor today and how 
many do you expect a typical reactor to employ in 2013?

A4. The Department does not maintain this kind of data or make these 
kinds of projections.

Q5. LIn the 1990, the American Society for Electrical Engineering 
(ASEE) released a study entitled, ``Manpower Supply and Demand in the 
Nuclear Industry,'' that found that 35004500 ``BS and MS graduates'' 
would be required by the nuclear power industry and that the workforce 
``supply'' would fall short of that number by 400 nuclear engineers by 
2000 and 2001. Did the predicted shortfall occur and, if so, how was 
the shortage handled?

A5. It is difficult to measure such shortfalls directly, as shortages 
of personnel are often filled, albeit with greater difficulty, by 
engineers from other disciplines. However, anecdotal evidence, such as 
continuing increases in salary levels for nuclear engineers, and 
numbers of job offers per graduate, suggest that the demand for nuclear 
engineers has continued to exceed the supply. The Nuclear Energy 
Institute's Nuclear Industry Staffing Pipeline Survey (December 2001) 
indicates that there is a shortfall that is essentially being handled 
by retraining. When employers cannot recruit sufficient numbers of 
degreed nuclear engineers, they hire engineers from other disciplines 
and train them in the nuclear applications that are needed for a 
particular job. However, retraining has its limitations in those 
instances when highly specialized nuclear engineering expertise is 
needed.

Q6. LYour testimony implies a bright future for nuclear power, yet EIA 
and others argue that the current state-of-the-art nuclear plant is as 
much as 20 percent too expensive to complete with fossil-fueled plant. 
Given that the first new plants of any new or innovated design are 
likely to be more expensive, what is the per kilowatt capital cost of a 
new nuclear plant? How does this translate into levelized cost per 
kilowatt-hour? When do you see the price of nuclear plants being 
competitive, and how do DOE's programs contribute to the decline? What 
role do the DOE university programs play in these cost reductions?

A6. There are wide variations in the estimates of construction costs 
for new plants to be built in the United States. Industry estimates for 
new nuclear plants range between $1,100 and $1,400 per kilowatt. These 
estimates are significantly lower than EIA projections and represent 
the latest industry experience abroad. The cost of the first nuclear 
plant is about 25 percent above what is economical in today's 
deregulated market. A significant portion of this above market cost is 
related to regulatory risk surrounding the construction and 
commissioning of a new plant, first of a kind engineering cost and 
learning how to build plants efficiently, but after such issues are 
addressed for the first few plants, subsequent plants should be more 
economical.
    Projected electricity generation costs for new nuclear plants 
costing between $1,100 to $1,400 per kilowatt-electric translate to a 
levelized cost of 3.6 to 4.3 cents per kilowatt-hour. This levelized 
cost range includes capital, operating and financing costs.
    Under the Department's Nuclear Power 2010 initiative, DOE matches 
industry investments over the next several years to address first of a 
kind technology costs and demonstrate key regulatory processes designed 
to make new plants more efficient, effective and predictable. The 
Department is currently working with three U.S. nuclear generating 
companies to obtain permits for sites at which new plants could be 
built. Additionally, this year the Department will issue a solicitation 
seeking industry participation in projects to develop and implement 
plans to license and build new plants.
    Currently, efforts aimed at cost reduction for new nuclear power 
plants do not involve technological research, and therefore, the DOE 
university program is not involved in this area.

Q7. LWhat evidence, if any, do you have that university programs 
contribute to increasing nuclear capacity factors and other increases 
in industry productivity? How can this construction be measured?

A7. As funding for University Programs increased in the late 1990s and 
early 2000s enrollments increased in a similar fashion. The effect of 
our University Programs on capacity factors or productivity is 
difficult to measure since it is impossible to isolate their impact 
from the many other factors impacting these two variables, but the 
skill level of the workforce certainly contributes to the ability to 
develop new methods and technologies to improve productivity.

Questions submitted by the Minority

Q1. LHow does DOE project the future size of the nuclear power industry 
when designing its programs and how do its methods differ from those of 
NEI?

A1. The Department of Energy has not made projections on the expected 
size of the commercial nuclear power industry. The design of our 
programs is based on optimizing current nuclear power generating 
capability and on enabling an increase in total nuclear generating 
capability through the construction and operation of new nuclear power 
plants in the future. Therefore, the programs of the Department may 
alter the premises behind some of the projections of the future size of 
the nuclear power industry by removing barriers and opening new 
possibilities.

Q2. LWe've been hearing about impending shortages in the nuclear 
workforce for a while. In your written testimony you concede that the 
nuclear workforce shortage predicted in the late 1980s failed to 
materialize in the 1990s. In 1999, a study by the American Society for 
Electrical Engineering also predicted a shortage of 400 nuclear 
engineers by 2000 or 2001. This time, however, you seem to be arguing, 
there really will be a shortage and that the situation is even more 
dire than in the early `90s. Is this a correct interpretation, is a 
shortage more likely now and if so why?

A2. The main reason that a shortage of trained nuclear engineers is 
more likely now than it was a decade or so ago is that the nuclear 
workforce is older and there are insufficient numbers of trained 
nuclear engineers graduating from our colleges to replace retirees on a 
one-for-one basis. The earlier predictions of shortages may not have 
come to pass in part because some nuclear personnel may have deferred 
their retirements. But, as we learned in the Nuclear Energy Institute 
report completed in the year 2000, Nuclear Education and Training: 
Cause for Concern, industry, government, universities and national 
laboratories are all confronting this unbalanced manpower demographic 
and the number of graduating nuclear engineering students is just now 
beginning to increase. While manpower retirement extensions of current 
personnel are unlikely to occur in large numbers as they have in the 
recent past, increasing numbers of graduates, retraining of engineers 
from other disciplines, and other public-private sector initiatives 
such as our university partnership program with minority serving 
instructions should help mitigate the shortage.

Q3. LIn your written testimony you highlight new DOE efforts with the 
first Historical Black College or University (HBCU) to offer a degree 
in nuclear engineering. To what degree are minorities and women under 
represented in the workforce? As the first woman doctorate in the field 
of nuclear engineering, how do you believe greater workforce diversity 
might affect the future vitality of the nuclear engineering field? What 
policy changes you would recommend for universities, laboratories, 
industry and government to increase diversity?

A3. The Department has not done a study to quantify the degree of 
under-representation of women and minorities in the nuclear engineering 
workforce. However, numerous reports on engineering in general indicate 
that this under-representation exists, and there is no evidence to 
suggest that nuclear engineering differs significantly from other 
engineering disciplines in this regard. Greater workforce diversity 
will be critical to meeting future demands for nuclear-trained 
professionals, and therefore, to the ultimate vitality of the field. 
The government, universities, laboratories and industry already 
recognize the potential workforce deficiencies, and have established 
programs and policies designed to help address the problems. For 
example, DOE is working with universities and industry to help increase 
minority and female enrollments. In 2000, we began our University 
Partnership program. It is designed to match a nuclear engineering 
school with a Minority Serving Institution (MSI). To date, we have four 
partnerships involving five minority and four nuclear engineering 
schools. Student interest and enrollment in this program is high and 
will yield new minority and women nuclear engineers in the near future 
to help meet the Nation's nuclear manpower requirements. Further, 
Exelon Corporation provided significant funding to South Carolina State 
University (SCSU) under the Department's matching grant program. SCSU 
is the first historically black college to begin a nuclear engineering 
degree program. Such policies need to be continued, and, where 
possible, increased, to help expand the pool of nuclear engineering 
students.

Q4. LDr. Kammen suggests that the current production rate of 500-700 
new nuclear engineers over ten years is sufficient for the nuclear 
power industry while Ms. Howard's testimony suggests we need 90,000 new 
workers over the coming decade, of which it seems that over 20,000 
would go to the power industry. Do each of you agree with these 
estimates? If not, what do each of you think is the right number of 
nuclear engineering graduates the Nation will need? Do you have a sense 
of how many commercial reactors would be required to employ your 
estimated number of future employees?

A4. The NEI study, in which DOE was a participant, stated that 800 
nuclear engineers would be needed from 2002-2011. Dr. Kammen's upper 
range is not far removed from the NEI projection. The NEI projection 
was based on the Nation having 103 operating nuclear power plants. In 
addition, it is important to note that additional demands for nuclear 
manpower will derive from government, universities and national 
laboratories where a significant percentage of the current workforce is 
already at or past average retirement age.

Q5. LYou discuss the efforts DOE has been making to involve nuclear 
engineering departments throughout the country in the regional 
university research reactor consortia. Then, on page 4 of your 
testimony, you express ``concern'' about the closing of two university 
research reactors--one at Cornell and one at Michigan. If DOE supports 
the regionalization effort, it implies that a smaller number of 
reactors could suffice. Why is DOE concerned about these particular 
reactors? Who will decide and what criteria will be used to select the 
surviving regional reactors? What is DOE's role in this selection 
process? You mentioned that those few universities with nuclear 
programs not affiliated with any consortia, ``are being encouraged to 
affiliate.'' Is DOE trying to reduce the number of research reactors, 
or just trying to get all the programs to work as affiliates?

A5. Both the Michigan and Cornell reactors represented strengths in the 
U.S. nuclear engineering community that cannot be replaced. DOE is not 
involved in a selection process to determine which nuclear reactors 
continue to operate. That is decided by each university. DOE, over the 
past decade, has improved its programs, such as reactor upgrades and 
reactor sharing, and this has helped the reactors to better serve 
students and faculty researchers. Based upon reports of the Nuclear 
Energy Research Advisory Committee, a regional reactor consortium was 
determined to be the best way to ensure that these reactors, and their 
associated nuclear engineering programs, could best serve their 
constituent population. The more affiliation, the better the 
cooperation among the universities and their national laboratory, 
utility industry and private sector partners. Becoming affiliated with 
Innovations in Nuclear Infrastructure and Education not only 
strengthens each individual reactor program, it strengthens the nuclear 
reactor community as a whole.

Q6. LWhat fraction of the total cost of educating a nuclear engineer 
does DOE provide? Does DOE have a model of the cost of educating a 
nuclear engineer (i.e., student stipend, faculty, nuclear reactor and 
equipment, and overhead) and the sources of the funds provided to cover 
costs (i.e., student tuition, DOE, university support, industry 
support)?

A6. DOE does not have a model for the cost of educating a student in 
nuclear engineering. There are many options to support the cost of 
educating a nuclear engineer. DOE has a fellowship program for graduate 
students, and a scholarship program for undergraduates. The fellowship 
program provides full tuition and a monthly stipend plus a one-time 
summer practicum at a national laboratory with full stipend. Fellowship 
costs range between $30,000 and $45,000 per student per year, depending 
on the university the student is attending. The scholarships are for a 
flat $2,000 per year to help cover tuition. This amount is usually 
adequate since most nuclear engineering programs are located at state 
universities where the tuition is relatively modest. Both of these 
awards are highly competitive and there are many more applicants than 
there are funds to pay for them. Other organizations outside the 
government also offer assistance to students. In addition, the 
universities have the flexibility within the DOE-funded matching grant 
initiative to provide funds to students in the form of fellowships and 
scholarships. DOE also provides summer internships for students at 
DOE's national laboratories. Those students are paid for their travel 
expenses and receive a stipend. Therefore, most students, especially 
graduate students, can receive financial assistance to enable them to 
become nuclear engineers. Financial aid is very much a recruiting tool 
used by the universities to entice students to study nuclear 
engineering and science.

Q7. LThe NNSA recently announced a $9M award in its Stewardship Science 
Academic Alliances program to, in part, involve the universities in 
stockpile stewardship, train scientists, and promote scientific 
interactions between universities and laboratories. To what extent will 
this funding help satisfy the demand for nuclear engineers? Are there 
other DOE, DOD, or government programs to help support the education 
and training of nuclear engineers?

A7. There are several programs that provide funding that supports the 
training of nuclear engineers. These all can help contribute to meeting 
the demand for nuclear engineers. However, each is designed with 
specific objectives in mind, so they cannot readily directly substitute 
for each other. The NNSA Stewardship Science Academic Alliances program 
provides research grants relevant to stockpile stewardship. In 
addition, the Office of Naval Reactors has a fellowship program for 
nuclear engineers that is modeled, primarily, on the Office of Nuclear 
Energy fellowship program. Naval Reactors started its program about two 
years ago. It has some specific requirements that NE programs do not 
have, including one that obligates the student to a certain number of 
years in their program at one of the Naval Reactors laboratories--
Bettis or Knolls Atomic Power Laboratory.
    According to NASA's Project Prometheus, its nuclear systems program 
to develop advanced radioisotope and fission power technologies for 
space exploration is in the process of establishing a comprehensive 
education program that will include a university component to 
strengthen the pipeline of engineers in relevant disciplines of nuclear 
and aerospace engineering.

Q8. LThe DOE FY2004 Congressional Budget Request (DOE/ME-0018) 
indicates that the NERI budget for FY 2004 is $7.4M down from $17.5M in 
FY 2003 and $22.0M in FY 2002. In view of this trend and the putative 
value of the program in your written testimony, what plans are there to 
reverse this trend or establish a follow-on program?

A8. The reductions in the NERI program represent the programmatic re-
focusing of the program from general research to research specifically 
related to the advanced reactor system concepts which have now been 
identified for international collaborative research through the 
Generation IV International Forum. We would expect the total funding 
available to universities under the anticipated research projects to be 
greater than the funding that was available under the NERI program. In 
addition, since this research will be tied to significant on-going 
programs, universities participating in research related to these 
reactor designs will be able to work with a larger national and 
international research community.

Q9. LHow should the government determine how many research reactors the 
country needs, if the idea of regional reactors is to save money and 
eliminate duplication?

A9. The government should not make the determination of how many 
research reactors are needed; this is a decision that must be made by 
the universities themselves. DOE's Innovations in Nuclear 
Infrastructure and Education (INIE) is a competitive program designed 
to improve the use and availability of regionally located reactors for 
research by a wider audience of students and faculty and is not 
designed to limit or reduce the overall number of university research 
or training reactors. Ultimately, if a university does not believe its 
reactor benefits the students and faculty or that its liabilities 
exceed its usefulness, then it can decide to shut it down.
                   Answers to Post-Hearing Questions
Responses by Daniel M. Kammen, Professor, Energy and Resources Group, 
        Goldman School of Public Policy; Department of Nuclear 
        Engineering, University of California-Berkeley

Questions submitted by the Majority

Q1. LMs. Howard from the Nuclear Energy Institute (NEI) testified at 
the hearing that the nuclear industry will require 90,000 new workers 
over the next 10 years.

Q1a. LWhat is your best estimate for the total numbers of new nuclear 
workers (including replacements for retirees) needed in the next 10 
years? How many of these would be nuclear engineers?

A1a. As described below, my estimate for the number of new engineers 
needed is under 1,000. At present 20 percent of nuclear engineering 
graduates enter the commercial nuclear energy work force. If this 
attrition factor is applied, my estimate would rise to closer to 5,000.
    The estimate provided by Ms. Howard of the NEI is a vision of 
50,000 MW of new nuclear capacity by 2020, and 10,000 of additional 
capacity through the enhancement of operations at existing plants. The 
50,000 MW of new capacity can be roughly translated to be 50 new 
reactors over the next 15 years. The 10,000 MW of additional capacity 
is possible, but will be challenging because the capacity factor of the 
U.S. reactor fleet is already very high (over 90 percent), so these 
gains would likely have to come from core upgrades, which would require 
new certification.
    In my view, the probability of building 50 new reactors over the 
next 10-15 years is low. Industry plans for these new reactors are 
largely dependent on efforts by the Near Term Deployment Study that 
took place from 2000-2002 as part of the Generation IV (Gen IV) 
process. Those plans were dealt a significant setback when Excelon 
Corporation cancelled their Pebble Bed Reactor program. Other designs 
are, of course, possible, and the DOE is working hard to streamline the 
certification and approval process for new plants. There have been some 
significant advances in PBMR technology (larger core sizes and higher 
potential efficiencies), and the recent inclusion of very large 
(estimated $13 billion) loan guarantees for the nuclear industry in the 
recent U.S. Senate Energy Bill.
    Even taking these changes into account, I do not consider the 
construction of the new plants in the NEI plans to be likely. There may 
be some construction of new/replacement reactors at current nuclear 
power plants, but my best estimates place these new facilities at a 
level that would sustain, but not significantly increase the U.S. 
nuclear fleet beyond its current level of 103 reactors.
    In this scenario, the total number of new nuclear workers (new 
workers + retirement replacements) over the next decade is essentially 
only the retirement replacement number. Thus, assuming a retirement 
rate of three percent/year, 50-60 new engineers are needed each year, 
or under 1,000 over the next decade. This is very far from the 90,000 
in the NEI forecast. Even if some number of new reactors are built, I 
would not consider it to be more than 5-10, for which the current 
production rate of engineers is likely to be sufficient. My estimates 
here are, in fact, below the number of nuclear engineers that are 
currently produced at the undergraduate and graduate levels (345 in 
2003). Even with the current yield of only 20 percent of nuclear 
graduates taking jobs in the commercial nuclear power sector, the 
current rate of graduates appears to be sufficient to meet the needs of 
the industry.
    Note: One important issue not addressed directly by this question 
is that as the training of these engineers may likely need to change, 
which would require some significant new types of training for the 
engineers that are produced.

Q1b. LIn developing your estimate, how many commercial reactors do you 
assume will be running by 2013? How many would be needed to employ 
90,000?

A1b. As discussed above, my belief is that in the next decade there 
will not be a net increase in the number of commercial reactors. 
Current reactors employ roughly 20 engineers per reactor. With the 
general employee/plant engineer ratio at 20:1 (which is meant to 
roughly include both on-site employees and those at nuclear parts 
fabrication and storage facilities), to employ 90,000 new workers would 
require over 200 new power plants. This is not even faintly realistic 
or warranted.

Q1c. LHow large is the current nuclear workforce, including all workers 
from maintenance workers to engineers? What fraction of the current 
workforce are nuclear engineers?

A1c. The current workforce supports roughly 100 reactors, with almost 
20 nuclear engineers/plant and roughly 10 employees/engineer, the total 
workforce is roughly 2,000 engineers, and 20,000 workers total, in all 
upstream and downstream jobs.

Q1d. LWhat is the uncertainty associated with your estimated total 
number of workers needed?

A1d. Clearly the largest uncertainly is in the number of new plants. At 
20 engineers per plant, and roughly 20 x (10 to 20) = 200-400 total 
workers per plant, this uncertainty can be significant.

Q1e. LWhat are the key determinants of the demand for nuclear engineers 
and other nuclear workers?

A1e. The key determinants are the types of nuclear plants that might be 
built. New, advanced, designs, will require significantly more 
engineers compared to the potential construction of additional numbers 
of current generation plants.

Q1f. LHow large do you believe DOE's university programs must become 
(and how quickly) to allow the Nation to produce the new graduates you 
estimate are needed?

A1f. In my view, no increase in the total number of graduates is 
needed. What may be needed, however, is a significant alteration in the 
type of training that the next generation of nuclear engineers receive.

Q2. LA number of studies suggest that the number of nuclear workers per 
plant is declining. What is the average number of college trained (at 
each level) personnel employed at a typical reactor today and how many 
do you expect a typical reactor to employ in 2013?

A2. The number of workers per plant is declining for this current 
generation of nuclear plants. By 2013 I do not expect a new generation 
of plants to be deployed, so the current number of engineers per 
reactor, 16-18, is a good guide for plants by 2013. When Gen IV or 
other advanced designs are introduced, this number will likely change.

Q3. LWhat factors determine the size of university departments and 
programs? To what extent do you consider the future demand for 
graduates by the industry in determining the appropriate number of 
students to enroll and graduate at your university's programs?

A3. Industry demand per se is not an immediate driver of the number of 
students we enroll and graduate in the Department of Nuclear 
Engineering at the University of California, Berkeley. This is true 
because as one of the top nuclear engineering programs, there is a 
larger demand for UC-Berkeley graduates than would be the case if the 
industry hired from each program proportionally. As a result, federal 
grants and student awards are a larger, or at least more immediate, 
determinant of the size of our program. Note that only 20 percent of 
graduates from nuclear engineering programs go into the commercial 
nuclear energy field. This is both a testament to the quality and rigor 
of the training in nuclear engineering, and a strong warning that 
employment in commercial power production from nuclear reactors is not 
likely to be the overwhelming driver of university program size.

Q4. LIn our opinion, to what extent should nuclear engineering be 
forced to compete with other disciplines for funding through the 
National Science Foundation or other multi-discipline funding agencies, 
rather than be allowed to rely on programs dedicated solely to nuclear 
disciplines?

A4. This is a critical question, and gets to the very heart of the way 
that we operate our nuclear power industry in the United States. At 
present nuclear power is managed as a discipline apart from the rest of 
the energy sector. The Price Anderson act, the Yucca Mountain 
repository (and the process that lead to it), and the recent push for 
massive loan guarantees for the industry are all examples of this 
special status that nuclear power enjoys. Paradoxical as it may seem, 
in my view, this treatment has not served the development of nuclear 
power well. The industry has become insular, isolated from important 
discussions and forces that can spur true innovation (as opposed to 
incrementalism, or what has been called `technological involution' ).
    It is important for each technology to have a fairly secure core 
funding and support network, such as already exist for nuclear power 
within the Department of Energy, and within engineering directorates in 
the NSF. It would be far more productive for the nuclear energy 
industry, and for energy field generally, to get more cross-technology 
discussions and exchanges. This can only be accomplished by placing all 
technologies on a more even playing field.

Q5. LYour written testimony ends with a quote from the head of your 
nuclear engineering department saying that most department heads 
believe that the best approach to reinvigorating nuclear engineering 
education--even over providing direct funding for universities--would 
be for the government to commit to create ``incentives'' to build a 
small number of additional commercial nuclear plants, allowing those 
incentives to decrease over time.

Q5a. LWhat are the incentives these department heads have in mind?

A5a. The incentives of special interest to my colleagues include the 
loan guarantees that are included in the Senate Energy bill. Other 
incentives that have been discussed include a variety of mechanisms to 
encourage or facilitate the commercial construction of even small 
additional reactors at existing nuclear facilities.

Q5b. LDo you think that their analysis is correct? How would expansion 
in the number of plants increase the vitality of nuclear research? For 
example, how could it fix the problem you describe in your testimony 
that half of the scientific papers published on the production of 
hydrogen from nuclear energy are written by a single researcher?

A5b. There is no question that the construction of even a small 
number--even one--of new reactors in the U.S. would send a powerful 
signal to the industry. Without the opportunity for new facilities and 
new reactor designs to be moved from theory to practice it is difficult 
to maintain interest in any technological field.
    The problem of the lack of researchers in areas like the connection 
between nuclear power and hydrogen--as discussed in my testimony--is 
one that requires two related approaches. First, construction of even a 
small number of new reactors would alter the industry in fundamental 
ways--bringing new purpose and vitality to many areas of investigation. 
The specific problem of nuclear hydrogen is one that related back to my 
response to Question #4. If nuclear power is more fully connected to 
the wider set of energy issues and infrastructure, then discussions 
between different disciplines--between the nuclear and the renewables 
community over the best ways to produce hydrogen for example--can bring 
new forces of innovation and investigation to the entire energy field. 
This sort of debate, discussion, and cross-fertilization of ideas has 
been retarded by the balkanization of energy research. One mechanism to 
begin this integration is to encourage or require life-cycle cost 
benefit, and risk/benefit analyses for all energy technologies, and to 
make federal decisions on energy systems cognizant of these results.

Q5c. LHow would you prevent rent-seeking behavior, where recipients 
seek to perpetuate subsidies rather than allow them to decrease?

A5c. Several approaches exist:

         i) LPolicies that specifically mandate a sunset are difficult 
        to circumvent;

        ii) LOpen competition across technologies (as advocated above) 
        reduce the opportunity for the special status and rent-seeking 
        behavior that you highlight. Nuclear energy has arguably 
        already been the recipient of significant resources that have 
        already led to significant patronage and rent-seeking.

Q5d. LWhat is the appropriate industry share for these incentives 
initially?

A5d. The nuclear energy industry is already the recipient of massive 
financial and political subsidies, and despite this has contributed 
relatively little in direct support for university research. 
Congressman Bartlett made this point very clearly during the June 10 
hearing. If the construction of a new nuclear power facility were to 
take place, the nuclear power industry would benefit immeasurably. As a 
result, the industry should contribute significantly, in fact should 
arguably lead the development of these new facilities.

Questions submitted by the Minority

Q1. LAs director of a university program, how do you determine the 
appropriate number of students to enroll and to graduate? To what 
extent do you consider the future demand for graduates by the nuclear 
power industry? How do you determine what the demand will be? What 
methodology would you suggest to identify the required number of 
university reactors, where they should be located, and the appropriate 
level of federal support?

A1. Industry demand per se is not an immediate driver of the number of 
students we enroll and graduate in the Department of Nuclear 
Engineering at the University of California, Berkeley. This is true 
because as one of the top nuclear engineering programs, there is a 
larger demand for UC-Berkeley graduates than would be the case if the 
industry hired from each program proportionally, as a result, federal 
grants and student awards are a larger, or at least more immediate, 
determinant of the size of our program. Note that only 20 percent of 
graduates from nuclear engineering programs go into the commercial 
nuclear energy field. This is both a testament to the quality and rigor 
of the training in nuclear engineering, and a strong warning that 
employment in commercial power production from nuclear reactors is not 
likely to be the overwhelming driver of university program size.
    Analysis of future demand can be accomplished by the sort of 
scaling factors that can be determined from the current industry, such 
as nuclear engineers/reactor, and total employees/engineer.
    The number of research reactors needs to be sufficiently large so 
that all graduates who have a reasonable chance of working in the 
industry are well trained in actual operation of nuclear facilities. 
The location of these facilities is far less important than the amount 
of hands-on time that each student can be afforded through the 
university consortia that have developed around the existing research 
reactors.

Q2. LIn your testimony you cite a colleague as saying that department 
saying that most department heads believe that the best approach to 
reinvigorating nuclear engineering education--even over providing 
direct funding for universities--would be for the government to commit 
to create ``incentives'' to build a small number of additional 
commercial nuclear plants. What kind of incentives do you think these 
department heads have in mind? How will adding a few plants this way 
increase the demand for nuclear engineers, if, according to the GAO 
report you cite in your testimony, the current number of annual nuclear 
engineering graduates could probably meet the demand of an even of an 
expanded nuclear power industry? How will the expansion in the number 
of plants increase the vitality of nuclear research? For example, how 
could it fix the problem you describe in your testimony that half of 
the scientific papers published on the production of hydrogen from 
nuclear energy are written by a single researcher?

A2. The incentives that my colleagues envision include the loan 
guarantees that are included in the Senate Energy bill. Other 
incentives that have been discussed include a variety of mechanisms to 
encourage or facilitate the commercial construction of even small 
additional reactors at existing nuclear facilities.
    There is no question that the construction of even a small number--
even one--new reactor in the U.S. would send a more powerful signal to 
the industry than would any amount of continued `business as usual' 
research. Without the opportunity for new facilities and new reactor 
designs, it is difficult to maintain interest in any technological 
field.
    The problem of the lack of researchers in areas like the connection 
between nuclear power and hydrogen--as discussed in my testimony--is 
one that requires two related approaches. First, construction of even a 
small number of new reactors would alter the industry in fundamental 
ways--bringing new purpose and vitality to many areas of investigation. 
The specific problem of nuclear hydrogen is one that related back to my 
response to Question #4. If nuclear power is more fully connected to 
the wider set of energy issues and infrastructure, then discussions 
between different disciplines--between the nuclear and the renewables 
community over the best ways to produce hydrogen for example--can bring 
new forces of innovation and investigation to the entire energy field. 
This sort of debate, discussion, and cross-fertilization of ideas has 
been retarded by the balkanization of energy research.
    Several approaches exist:

        <bullet> LPolicies that specifically mandate a sunset are 
        difficult to circumvent;

        <bullet> LOpen competition across technologies (as advocated 
        above) reduce the opportunity for the special status and rent-
        seeking behavior that you highlight. Nuclear energy has 
        arguably already been the recipient of significant resources 
        that have already led to this dynamic.

    The nuclear energy industry is already the recipient of massive 
financial and political subsidies, and despite this has contributed 
relatively little in direct support for university research. 
Congressman Bartlett made this point very clearly during the June 10 
hearing. If the construction of a new nuclear power facility were to 
take place, the nuclear power industry would benefit immeasurably. As a 
result, the industry should contribute significantly, in fact should 
arguably lead the development of these new facilities.

Q3. LIn Figure 1 of your testimony, Texas A&M shows a dramatic increase 
in enrollment, nearly quadrupling in five years while other university 
programs showed little or no growth. Can you tell us more about what 
happened at A&M? Is this growth just a blip, or can it be sustained? 
Are there lessons that should be applied to other programs?

A3. The Texas A&M story is important in several respects. The 
university made a commitment to grow the department, and did so with a 
long-term plan that involved new research areas in traditional (e.g., 
neutronics, heat transfer, waste management) and in new areas (e.g., 
hydrogen production, nuclear energy security). This diversity provides 
the A&M department with significant funding options, and security 
against down turns in specific disciplines. The growth of the A&M 
program is certainly not a `blip', nor is it a growth we can expect 
many other programs to follow. University programs arguably already 
over-produce nuclear engineers, and competition for federal funds is 
fierce. What A&M has done is to build a top-ranked department, and done 
so in a way that should provide stability in their program for many 
years.
    The most important lesson for other departments is that non-
traditional areas of nuclear and more generally energy systems 
engineering can become core areas of a vibrant nuclear engineering 
program.

Q4. LIn view of the potential terrorist threat to the safety of 
university nuclear reactors, how can the security of those reactor be 
assured? What would be the costs of security measures? What degree of 
these costs should be borne by the Federal Government? Are there any 
legislative measures that Congress should take to assure university 
reactor security?

A4. I do not consider myself an expert on the management of university 
reactors, so will defer to Professors Stubbins and Slaughter on this 
question.

Q5. LHow should the government determine how many research reactors the 
country needs, if the idea of regional reactors is to save money and 
eliminate duplication?

A5. The number of research reactors needs to be sufficiently large so 
that all graduates who have a reasonable chance of working in the 
industry are well trained in actual operation of nuclear facilities. 
The location of these facilities is far less important than the amount 
of hands-on time that each student can be afforded through the 
university consortia that have developed around the existing research 
reactors.
                   Answers to Post-Hearing Questions
Responses by Angelina S. Howard, Executive Vice President of Policy, 
        Planning, and External Affairs, Nuclear Energy Institute

Questions submitted by the Majority

Q1. LAt the hearing you promised to provide for the record NEI's 
estimate of the proper ratio of federal to industry support for 
university nuclear science and engineering education programs. In 
general, what does the nuclear industry view as its role in assuring an 
adequate supply of nuclear science and engineering graduates?

A1. NEI does not feel it is appropriate to make an estimate of a 
correct ratio of industry vs. government funding for university 
programs. The nuclear industry provides a substantial amount of funding 
for education programs, from roughly one million dollars per year in 
scholarships and fellowships provide by the Institute of Nuclear Power 
Operators through their National Academy Program to myriad paid summer 
internship and cooperative education programs, scholarships, grants and 
fellowships offered by individual private firms. In addition to funds 
which directly support students at universities, industry also funds 
research studies through the Electric Power Research Institute.
    In the past, where industry participates in matching programs, 
government often does not contribute their promised share. For example, 
in the 1990s the industry agreed to support a fifty-fifty cost sharing 
program with the DOE Office of Nuclear Energy for the Advanced Light 
Water Reactor Program. The industry shouldered nearly seventy percent 
of the funding when reduced appropriations threatened the success of 
the program.
    Another example of this, specific to education programs, is the 
Government Industry Matching Grants Program. Although this program is 
based on a fifty-fifty cost share model, for FY03 industry is expected 
to contribute $1.2 million, while government will only contribute 
$800,000 due to another appropriations shortfall.
    Finally, we feel that as a future employer of nuclear engineers, 
the nuclear industry is already filling a very appropriate role: 
reaching out through deans and college placement personnel to ensure 
that students have viable job opportunities upon graduation.

Q2. LIn your testimony, you stated that the nuclear industry would 
require 90,000 new workers over the next 10 years.

A2. In my testimony, I made several statements about the future need 
for workers in the nuclear industry. In 2001, NEI conducted a 
comprehensive study on the future need for workers in the nuclear 
industry called the Nuclear Workforce Pipeline Study. The nuclear 
industry referred to in this study is broadly defined as the nuclear 
components of power operations; plant refueling and maintenance 
outages; government; the national labs; government contractors; 
universities; front and back end fuel cycle; and engineering, design, 
services and construction firms.

        a) LDoes this figure include all workers, from maintenance 
        workers to engineers? How many engineers, including nuclear 
        engineers, are included in the total figure?

           LThe Nuclear Workforce Pipeline Study looked at all workers 
        in the nuclear industry and the 90,000 new workers discussed 
        included 13 categories of nuclear specific workers representing 
        the vast majority of workers in the industry.

        b) LIn developing your estimate, how many commercial reactors 
        do you assume will be running in 2013?

           LIn developing these estimates, we used a ``business as 
        usual'' scenario. This assumed that over the ten years, 2001-
        2011, the 103 operating reactors would continue to operate and 
        there would be no new plant construction.

        c) LHow many workers would the industry require over the next 
        decade in the ``business as usual'' scenario--if the number of 
        commercial reactors did not increase?

           LThe study used a ``business as usual'' assumption of 103 
        operating reactors that would require 90,000 new nuclear 
        workers over the study period.

        d) LWhat is the uncertainty associated with your estimated 
        total number of workers needed?

           LThe study was produced from direct industry input 
        describing their projected needs for new employees. There was a 
        high level of industry response to the survey and thus we have 
        a high degree of confidence in the study findings.

        e) LWhat are the key determinants of the demand for nuclear 
        engineers and other nuclear workers?

           LThe key determinants of worker demand in the study were 
        retirements and attrition to other industries. There were a 
        small number of new workers required due to new job creation.

        f) LHow large do you believe DOE's university programs must 
        become (and how quickly) to allow the Nation to produce the new 
        graduates you estimate are needed?

           LWe believe that DOE is on the right track in supporting 
        university programs as evidenced by the improvement in 
        enrollment during the past two years. We suggest that DOE 
        University Programs be funded at the $26.5 million dollar 
        level. Further, we recommend that DOE follow the guidance 
        provided by the analysis and conclusions of the of The Future 
        of University Nuclear Engineering Programs and University 
        Research & Training Reactors, authored by Dr. Michael Corridini 
        et. al. provided to the DOE Secretary's Nuclear Energy Research 
        Advisory Committee.

Q3. LHow would you respond to the assertion by Dr. Kammen that the 
industry would likely require no more engineers than universities are 
currently expected to produce? How do you believe DOE should design its 
programs to best cope with the inherent difficulty in predicting future 
workforce demand and the large differences in such predictions offered 
by the industry?

A3. We are not familiar with the data upon which Dr. Kammen has based 
his assertion regarding nuclear engineers. In fact, the data from our 
2001 study and other evidence we are familiar with contradicts the 
testimony submitted by Dr. Kammen. One could of course assume that only 
nuclear power plants will require nuclear engineers in the future and 
plant refueling and maintenance outages; government; the national labs; 
government contractors; universities; front and back end fuel cycle; 
and engineering, design, services and construction firms would no 
longer have such a requirement. We know, however, from our research and 
experience in the industry, that these organizations will continue 
their operations in the future and as such, require employees to 
replace retirees and others leaving the industry.
    Dr. Kammen may have been referring to the total numbers of 
engineers of all disciplines graduating from engineering programs. If 
this was his assumption, than of course there will be enough 
engineering graduates to meet the nuclear industries need. However, 
many other industries will need new engineers to replace their retiring 
or departing workforce. From our analysis, we will need to increase the 
share of engineers hired into the nuclear industry form the current 
level of two percent to six percent (a substantial increase.)

Q4. LA number of studies suggest that the number of nuclear workers per 
plant is declining. What is the average number of college trained (at 
each level) personnel employed at a typical reactor today and how many 
do you expect a typical reactor to employ in 2013?

A4. It is true that the number of workers at nuclear power plants has 
declined since the mid-1990s. Since 1996, we have seen a 15 percent 
reduction in staffing headcounts; however we do not expect to see 
future reductions in staff at rates we observed in the mid-1990s. 
Staffing levels in 2001 and 2002 remained relatively stable.
    NEI does not keep statistics on the numbers of college trained 
workers at the sites since there may be no correlation between the 
degree an individual holds and their employment at a plant, e.g., an 
individual with a Master's Degree in English Literature may work in 
Personnel. There are however, positions which require a specific 
degree, such as a systems engineer or reactor core designer. Further, 
many of the firms who support plant operations or national labs require 
specific degrees to fill their positions.

Q5. LIn 1990, the American Society for Electrical Engineering (ASEE) 
released a study entitled Manpower Supply and Demand in the Nuclear 
Industry, that found that 3500-4500 BS and MS graduates would be 
required by the nuclear power industry, and that the workforce supply 
would fall short of that number by 400 nuclear engineers by 2000 and 
2001. Did the predicted shortfall occur and, if so, how was the 
shortage handled?

A5. While we are not familiar with the assumptions of the ASEE study 
with regard to new plant construction, the number of operating plants 
and other factors that could affect demand for nuclear engineers, we 
have noticed a number of factors which could serve to clarify this 
issue. We have been informed by members of the university community 
that many of their nuclear engineering graduates have two or three firm 
job offers in hand upon graduation. This anecdotal evidence serves to 
support the issue of shortage. Your fourth question noted that the 
staffing levels have fallen on the plant level. Since the mid-1990s 
plant staffing was reduced by roughly 15 percent. While we do expect 
some decreases in plant staffing levels in the future, we do not expect 
to see equivalent staffing level decreases in the next few years.
    This 15 percent staffing decrease could more than account for 
reducing the supply shortage in the ASEE report. Additionally, many of 
our member companies have invested in programs to train non-nuclear 
engineers for employment at nuclear power plants. Finally, our 2001 
report indicates that the power sector of the nuclear industry is not 
expected to see significant attrition due to retirement until the 
second half of the study period (2001-2011) and beyond.

Q6. LWhat are the primary reasons that nuclear capacity factors and 
generation have increased over the past decade? What impact did 
electric industry restructuring and other economic factors have on 
motivating these improvements? To what extent are these improvements 
related to changes in management focus?

A6. The nuclear power industry has enjoyed improving performance, while 
maintaining an excellent safety record for over a decade due to a 
number of factors. Since 1990, capacity improvements have added the 
equivalent of 24 new 1000 megawatt generating plants without building a 
single new unit. The factors that have lead to this improved 
performance include, but are not limited to a decrease in the time that 
units are off-line for refueling outages, better management, more 
effective predictive and preventative maintenance, and improved on-line 
maintenance programs. Generally, the industry has sought to optimize 
performance with the recognition that there is a positive correlation 
between safety and reliability. This positive correlation translates to 
greater capacity factors and an improved bottom line.

Q7. LWhat metrics should Congress use to determine whether DOE is doing 
the right things to ensure that sufficient nuclear professionals are 
available to meet the needs of the U.S. nuclear power industry in the 
coming decade?

A7. NEI shares this concern. As such, we are currently working on 
updating our 2001 survey and would welcome the opportunity to share our 
results and recommendations with this committee. In addition, we 
support the analysis and conclusions of The Future of University 
Nuclear Engineering Programs and University Research & Training 
Reactors, authored by Dr. Michael Corridini et. al. provided to the DOE 
Secretary's Nuclear Energy Research Advisory Committee.

Questions submitted by the Minority

Q1. LIn your testimony, you state that NEI's goal is for nuclear power 
to increase its share to one third of all electricity produced in the 
U.S. This projection differs greatly from that of the Energy 
Information Administration, which essentially projects no growth in 
capacity. How do you account for these differences?

A1. The main factor which accounts for the differences in projections 
is the assumed capital costs for new plant construction. NEI feels that 
the EIA cost estimates grossly over estimate capital costs. If EIA were 
to use reasonable cost estimates as a basis for their forecasts 
(estimates supported by current technological and design improvements), 
the forecast would indicate substantial new capacity in nuclear. NEI is 
constructively engaging EIA on this issue and we hope that by working 
together, inaccuracies in the EIA model can be corrected.

Q2. LWhy do natural market forces, like starting salaries and 
employment incentives, appear to be ineffectual in satisfying the 
demand/supply for nuclear engineers? What changes would be required to 
have market forces be the dominant mechanism controlling the supply of 
nuclear engineers?

A2. The median salary for nuclear engineers, according to the Bureau of 
Labor Statistics is $79,360 per year in 2000. This is the highest 
median salary of the 14 engineering specialties that BLS studied in its 
2002-2003 occupational outlook handbook. Further industry surveys have 
found that compensation in the nuclear industry is very competitive 
with other industries such as IT.
    We believe that market forces alone are not enough to drive 
students into careers in nuclear engineering. We believe that three 
factors are affecting student selection of nuclear engineering as a 
field of study. The first factor is the perception of nuclear 
engineering as a dying field. With role models like ``Homer Simpson'' 
and an industry that has not constructed a new plant since the 1980s, 
prospective students may not see that there are indeed very lucrative 
employment opportunities in the industry.
    Second, due to the rigorous academic nature of a nuclear 
engineering degree, many students who consider such a major may not 
have the basic math and science background to fulfill their academic 
pursuit. Many studies have indicated that student interest in science 
technology, engineering and math has dropped steadily since the mid-
1980s.
    Finally, the lack of funding available in the form of research 
grants may also deter some students from pursuing this field. Many 
students who have a thesis or research requirement as a component of 
their degree, seek fields in which they can work on a funded research 
projects as a research assistant. While exposing the student to the 
leading edge in their chosen field, this also helps them pay for their 
education and related expenses. Further, it may form the foundation of 
a Master's Degree or Ph.D. thesis. NEI commends DOE on their plan to 
use universities to conduct a portion of their R&D.

Q3. LHow should the government determine how many research reactors the 
country needs, if the idea of regional reactors is to save money and 
eliminate duplication?

A3. NEI is supportive of DOE's program called Innovations in Nuclear 
Infrastructure and Education or INIE. The program was established last 
year and it encourages partnerships between universities, national 
laboratories, and industry to share facilities. As this program 
progresses, there will be ample opportunity to determine how many 
research reactors are needed. In addition, with the advance in bio-
medical applications for reactors, the question of the required number 
of research reactors may be broader than the energy sector.
    NEI urges this committee to take a careful and deliberate approach 
to determining the optimal number of operating test reactors. We are 
particularly concerned that if this committee is too aggressive in 
reducing the number of operating test reactors through a decrease in 
program funding or other mechanism, it may be impossible to restart an 
existing facility or to site a new reactor due to regulatory 
requirements, infrastructure or negative community perception.

Q4. LUsing the figures you gave in your testimony, if the nuclear 
industry sold 780 billion kilowatt-hours last year (and we assume a 
very conservative estimate of two cents of revenue per kilowatt-hour) 
the industry as a whole earned over $15 billion in revenue. But 
industry share of funding for education amounted to just $19 million 
since 1980--a tenth of a percent of your revenue in 2002 alone. As a 
strong advocate for nuclear energy, is industry contributing its fair 
share to nuclear education? Why has it not contributed more? What do 
you think is the proper ratio of federal support to that of industry?

A4. In response to this question, I'd like to make two points. First, 
that total revenues should not be used in this type of analysis. They 
do not take into account the costs of doing business, such as plant 
operation, fuel, capital and user fees. The business of owning and 
operating a nuclear power plant is capital and resource intensive. In 
addition, it may be impossible to calculate the exact revenue generated 
by a plant since they are often owned and or operated by a firm which 
has vast holdings and may not account for revenue on a per unit basis.
    Second, I would like to reiterate my answer to the first question 
from the majority. NEI does not feel it is appropriate to make an 
estimate of a correct ratio of industry vs. government funding for 
university programs. We have found in the past that where industry 
participates in matching programs, government often does not contribute 
their promised share. The commercial nuclear industry does provide a 
substantial amount of funding to nuclear engineering university 
programs as detailed previously.
    Additionally, power plant operators are not the only employer of 
nuclear engineers. A large number of nuclear engineers are employed by 
government at the Department of Energy, Department of Defense, the 
National Aviation and Space Administration, the Nuclear Regulatory 
Commission, and through the National Laboratories. We have been 
informed by several Nuclear Engineering Department Heads that in recent 
years their students are most often recruited into the National Labs 
and government. It would seem unfair for industry to be on the hook for 
funding university nuclear engineering programs if a preponderance of 
current grads are being hired by government.
    This is not to say that commercial components of the nuclear 
industry do not have a strong demand for nuclear engineering grads, 
just that the most pressing needs are in other segments of the nuclear 
industry. This is consistent with the overall findings of our 2001 
study.
                   Answers to Post-Hearing Questions
Responses by James F. Stubbins, Head of the Nuclear, Plasma, and 
        Radiological Engineering Department, University of Illinois-
        Urbana-Champaign (UIUC)

Questions submitted by the Majority

Q1. LWhat do you see as the most effective uses of federal funds to 
develop and sustain an adequate nuclear engineering workforce?

A1. The use of federally supported programs is critical to the future 
of the nuclear engineering workforce. The current efforts are aimed in 
the right direction. These efforts are primarily focused on providing 
research funds, through competitive proposal processes, to advance the 
fields of nuclear science and engineering. While this funding effort is 
directed primarily at research and development activities, these 
activities provide a mechanism not only to create new knowledge and 
technology, but also to educate and develop new generations of nuclear 
engineers. This funding is critically important in several venues which 
include funding to competitive programs at universities, national 
laboratories, and industry. These sectors have found ways to increase 
cooperative programs to maximize their impact on maintaining a robust 
nuclear workforce.
    Federal funding to universities to support nuclear science and 
engineering programs has grown steadily in the past several years from 
non-existent levels in the mid-1990s. The increases in the DOE-NE 
university programs budget have been aimed primarily at graduate level 
research and support of the facilities (i.e., university research 
reactor) infrastructure. Universities have also participated widely in 
competitive research support from various other programs in the DOE-NE 
portfolio (i.e., NERI, AAA now AFCI), the DOE-Office of Science through 
Basic Energy Science programs and the Office of Fusion Energy Science, 
other DOE directed efforts, and through cooperative research programs 
with national laboratories. These efforts need to grow beyond current 
levels to be an effective force in rebuilding the nuclear workforce in 
the U.S.

Q2. LMs. Howard from the Nuclear Energy Institute (NEI) testified at 
the hearing that the nuclear industry would require 90,000 new workers 
over the next 10 years.

Q2a. LWhat is your best estimate for the total numbers of new nuclear 
workers (including replacements for retirees) needed in the next 10 
years? How many of those would be nuclear engineers?

A2a. My estimate for total new nuclear workers would be close to those 
projected by Ms. Howard from the NEI surveys. This number reflects the 
total numbers of people who will be needed to replace all retiring or 
departing nuclear plant and nuclear power industry workers. I would 
estimate that only about 10 percent of this number would be degreed 
nuclear engineers since many of the current plant personnel are 
technical staff or technicians, but not BS degreed engineers. The 
number should become much higher than 10 percent as utilities 
transition to a somewhat smaller, but better educated workforce. This 
will require strong nuclear engineering degree programs.

Q2b. LIn developing your estimate, how many commercial reactors do you 
assume will be running 2013? How many would be needed to employ 90,000?

A2b. I would estimate that there would be between 90 and 100 commercial 
reactors running in the U.S. in 2013 from the existing fleet of 
currently operating reactors. I would also estimate that there will be 
new plant construction underway in the timeframe of the next 10 years, 
but that any new plant would, at best, be just beginning operation in a 
10-year timeframe. Nevertheless, new engineering, including nuclear 
engineering, expertise will be required for plant design and 
construction.

Q2c. LHow large is the current nuclear workforce, including all workers 
from maintenance workers to engineers? What fraction of the current 
workforce are nuclear engineers?

A2c. The workforce associated with nuclear power generation can be 
roughly estimated from the numbers of units, about 100, and the average 
staff per unit, about 750. This would suggest that about 75,000 people 
directly associate with nuclear power plants. In addition, there are a 
number of people associated with nuclear fuel management, nuclear fuel 
production, nuclear operations and maintenance, and a variety of other 
nuclear power-related services that would add about 10,000 to the 
numbers. There are a number of other nuclear-related workers at 
national laboratories and a variety of industries in the health, food 
irradiation, plasma processing, non-destructive testing, etc., fields 
that would add several thousands more to the total numbers. Of this 
large group, which would easily range above 100,000, only about 10 
percent would be nuclear engineering professionals. This relatively 
small fraction, however is the driving force behind all of the rest of 
the activities. The current workforce has the additional problem that 
many of the most highly skilled and experienced technical people are in 
the late stages of their careers and replacing the knowledge base is 
even more challenging than the raw headcounts would indicate.

Q2d. LWhat is the uncertainty associated with your estimated total 
number of workers needed?

A2d. There is a relatively large uncertainty for the numbers of workers 
needed on the upside, and relatively small uncertainties on the 
downside. With the reliance on the currently existing nuclear energy 
infrastructure, we will need a large number of new nuclear-educated 
workers to replace those currently in the workforce, thus it is 
unlikely that we will need many fewer new people than those projected 
in current studies. On the other hand, new innovations in nuclear 
technology, particularly to support several current national 
initiatives such as the move toward a hydrogen economy, nuclear based 
deep space exploration, the development of nuclear fusion, the 
development of advanced fission reactor designs, advances in nuclear 
medicine, and nuclear arms and security issues, could result in a 
significant increase, above the current estimates, in the numbers of 
nuclear engineers we will need.

Q2e. LWhat are the key determinants of the demand for nuclear engineers 
and other nuclear workers?

A2e. Nuclear energy and nuclear science and engineering are ``high 
tech'' fields and require a highly educated workforce. The nuclear 
power industry has held a key role in defining the numbers of nuclear 
engineers in the workforce. The nuclear power industry will continue to 
need significant numbers of nuclear engineers. Other nuclear-related 
fields in national defense, security, fusion, medicine, accelerator 
applications, etc. will need significant new nuclear engineers.

Q2f. LHow large do you believe DOE's university programs must become 
(and how quickly) to allow the Nation to produce the new graduates you 
estimate are needed?

A2f. Studies by the DOE-NE Nuclear Energy Research Advisory Committee 
(NERAC), supported by interactions with representatives from all 
universities, indicate that a funding level of at least $33M per year 
is necessary to maintain and build a strong nuclear engineering 
educational infrastructure in the U.S. This number includes funds for 
expanded research at universities, expanded use of existing university 
research reactors, new initiatives to support nuclear engineering 
faculty and students.
    These funds could be used right away. This is necessary to stem the 
decline in nuclear engineering programs which has already seen a number 
of nuclear engineering degree programs and university research reactors 
vanish over the past twenty years.

Q3. LA number of studies suggest that the number of nuclear workers per 
plant is declining. What is the average number of college trained (at 
each level) personnel employed at a typical reactor today and how many 
do you expect a typical reactor to employ in 2013?

A3. For some time, U.S. utilities have looked toward the European model 
for reactor operations management where similar size plants are run 
with about 500 workers compared to about 800 per plant in the U.S. This 
decline in personnel would result in a major cost savings. It should be 
noted, however, that the ability to run a plant with fewer workers is 
highly dependent on having extremely well trained and experienced 
personnel. So while the number of workers per plant may decline, the 
need for better-educated personnel becomes increasingly important. 
This, in fact, provides more incentive for maintaining a healthy group 
of nuclear engineering degree programs at universities.
    Cutbacks in personnel numbers without sufficient emphasis on 
experience and skills could be disastrous. If cutbacks in reactor 
operating staff are accompanied by less oversight and a smaller 
commitment to maintenance and safety, plant operations could be 
severely compromised. This again argues for a strong nuclear education 
program and the need for well-educated staff.

Q4. LWhat factors determine the size of university departments and 
programs? To what extent do you consider the future demand for 
graduates by the industry in determining the appropriate number of 
students to enroll and graduate at your university's programs?

A4. In most cases, the faculty size in a given university nuclear 
engineering program is determined by undergraduate enrollment numbers, 
usually about 5 to 10 undergraduate students per faculty member. The 
undergraduate enrollments are controlled by the college of university 
and by student interest. The undergraduate enrollments are usually out 
of the control of the department, other than through information and 
incentive programs. The faculty numbers, in turn, determine the size of 
the graduate program since the numbers of graduate students are 
determined directly by the research funding and other departmental 
resources. For a program our size, we would expect to have about 30 or 
more students graduate with BS degrees each year. Our program is 
typical of many, so the total numbers of BS nuclear engineers would 
range upward from about 500 graduating each year.

Q5. LYou suggest that nuclear engineering be treated more as a 
discipline, like chemical engineering. In your opinion, to what extent 
should nuclear engineering be forced to compete with other disciplines 
through the National Science Foundation or other multi-discipline 
funding agencies, rather than be allowed to rely on programs dedicated 
directly to nuclear disciplines?

A5. Nuclear engineering is a unique discipline, based on uses and 
applications of nuclear processes such as nuclear fission, nuclear 
fusion, nuclear magnetic resonance, nuclear spallation, radiation 
transport, etc. This is comparable to chemical engineering which is 
based on the use and application of chemical processes.
    The nuclear engineering community feels that funding opportunities 
should be made available through NSF and other federal funding avenues. 
We see this not so much as a competition with other disciplines, but 
rather as establishing a meaningful presence for nuclear-related 
activities in those agencies. For example, NSF has a number of 
divisions each of which is responsible for funding a specific 
discipline. It would be appropriate to add a division which covers 
nuclear engineering. [The attached Appendix includes a draft position 
statement from the Nuclear Engineering Department Heads Organization 
(NEDHO) and the National Organization of Test, Research and Training 
Reactors (TRTR) regarding the development of a nuclear radiation and 
sciences effort at the National Science Foundation.]
    We should also note that some nuclear-related funding is already 
covered through federal agencies other than DOE. For example, NSF and 
the Department of Commerce (through NIST) fund neutron scattering work 
associated with materials characterization, in addition to similar 
efforts funded through DOE. NIH has programs in the nuclear medicine 
area. These types of programs are important to expanding and broadening 
the nuclear field.

Questions submitted by the Minority

Q1. LAs director of a university program, how do you determine the 
appropriate number of students to enroll and graduate? To what extent 
do you consider the future demand for graduates by the nuclear power 
industry? How do you determine what the demand will be? What 
methodology would you suggest to identify the required number of 
university reactors, where they should be located and the appropriate 
level of Federal Government support?

A1. University programs will need to produce perhaps several hundreds 
of BS graduates per year in nuclear engineering to meet current and 
future needs. These needs are based not only on the nuclear power 
industry, but also on other nuclear-related fields in security, 
defense, advanced systems, medicine, fusion where graduates are needed. 
It is hard to determine the exact numbers, but they should be two to 
four times the current enrollments to start to meet our national needs. 
This is based only on the continuation of nuclear power efforts at 
current levels. At the undergraduate level, the numbers of students 
that enroll in nuclear engineering is due to student selection, and is 
not directly controlled by the various nuclear engineering departments. 
BS students will select nuclear engineering based on their perceptions 
about the challenges and career opportunities the field will provide. 
Roughly half of the BS students will eventually end up in the nuclear 
power industry. The other half will pursue of the career paths in 
related areas and many will attend graduate school to pursue advanced 
degrees.

Q2. LDr. Kammen suggests that the current production rate of 500-700 
new nuclear engineers over ten years is sufficient for the nuclear 
power industry while Ms. Howard's testimony suggest we need 90,000 new 
workers of the coming decade, of which over 20,000 would go to the 
power industry. Do you agree with these estimates? If not, what do you 
think is the right number of nuclear engineering graduates the Nation 
will need? Do you have a sense of how many commercial reactors would be 
required to employ your estimated number of future employees?

A2. First let me clarify the large differences in the numbers projected 
by Ms. Howard and Dr. Kammen. The need for a large number of well 
educated and trained nuclear workers by Ms. Howard includes a large 
number of technicians and technically trained staff who don't 
necessarily need to be degreed nuclear engineers. The rather low number 
indicated by Dr. Kammen is from a scenario which would de-emphasize 
nuclear power in the U.S. and reduce the numbers of operating nuclear 
plants. We are already producing nuclear engineers at the rate Dr. 
Kammen suggests and this is clearly insufficient to support a variety 
of needs, particularly those in the nuclear power arena.
    Nuclear engineering is a high tech field but educates engineers 
much more broadly as engineers than is typically perceived. It turns 
out that nuclear engineers are equal to many types of engineering jobs, 
and have the added bonus that they understand radiation transport, 
nuclear criticality and several other areas that are not covered by 
other engineering disciplines. This means that nuclear engineers, if 
there were sufficient numbers available, could take on many of the 
positions that are currently held by other engineering disciplines (EE, 
ME, . . .) with the added advantage that they could also cover all of 
the nuclear aspects. This means that the nuclear engineering workforce 
should expand to provide even better coverage of nuclear power 
operations.

Q3. LYou suggest that nuclear engineering be treated more as a 
discipline, like chemical engineering. Why should nuclear engineering 
have funding programs dedicated to it? Should nuclear science and 
engineering compete with other disciplines for funding from NSF and 
other funding agencies?

A3. I have answered this question in the response to the majority 
questions #5, and respectfully request that you refer to that response.

Q4. LIn view of the potential terrorist threat to the safety of 
university nuclear reactors, how can the security of those reactors be 
assured? What would be the costs of security measures? What degree of 
these costs should be borne by the Federal Government? Are there any 
legislative measures that Congress should take to assure university 
reactor security?

A4. Nuclear reactors at universities are secure. They may provide 
attractive targets for terrorists, but they could cause much less real 
harm than many other civilian targets. Campuses, in concert with NRC 
guidelines, have stepped up security measures for university research 
reactors following 9-11. The costs include, one-time cost items, such 
as more secure perimeters and monitoring devices, and continuing items 
such as more security personnel. It is not clear to me to what extent 
the Federal Government should cover these costs, though they may 
substantial. It is my opinion that the oversight and guidelines 
provided by the NRC for university research reactor security are 
sufficient, thus no new legislation is necessary or needed.

Q5. LHow should the government determine how many research reactors the 
country needs, if the idea of regional reactors is to save money and 
eliminate duplication?

A5. University research reactors are multi-functional facilities. They 
perform important roles for teaching, research and applied radiation 
services. In their capacity as research facilities, they can be 
regionally located and shared by a variety of users. Specialty research 
facilities can be located at individual facilities, and shared by the 
appropriate research communities. Researchers from other locations 
would travel to the facilities for extended periods to utilize specific 
experimental facilities and capabilities.
    In their other functions, the concept or regional reactors is more 
difficult to justify. As teaching tools, it is important that students 
have access to reactor facilities without detracting from other 
necessary academic pursuits. In this sense, regional reactors are not 
nearly as effective as reactors located where there are strong nuclear 
oriented academic programs, or academic programs that rely strongly on 
reactor facilities (i.e., radiochemistry, nuclear medicine, nuclear 
biomedical research, etc.). This argues for more university research 
reactors than are currently available. Reactors would be co-located 
with the appropriate educational programs and be equipped to handle 
their teaching, outreach and service functions. More specialized 
equipment would be added as appropriate to serve various research 
needs, and to avoid duplication for more advanced, research level 
facilities.

Appendix

                  A Draft Position Statement regarding

            NSF Support for Nuclear Science and Engineering

                               (May 2003)
       Nuclear Engineering Department Heads Organization (NEDHO)
 National Organization of Test, Research, and Training Reactors (TRTR)

Research in Nuclear and Radiation Science

    The NEDHO and TRTR recognize an urgent need for support from the 
National Science Foundation for the fields of nuclear and radiation 
science (NRS), outside the nuclear engineering areas traditionally 
focused on nuclear energy research and development. Over the past 
decade, nuclear science and engineering (NSE) departments in U.S. 
universities have significantly broadened and diversified their 
instructional and research programs into various NRS fields, covering 
scientific, medical, and industrial applications of ionizing radiation. 
Thus, NSF support of basic NRS programs will significantly enhance the 
ability of the academic NSE programs and university research reactors 
(URRs) to contribute to the society.
    For more than two decades, NSF has taken the position that support 
for the NSE programs is the responsibility of the Department of Energy. 
The DOE support of the NSE programs through the Office of Nuclear 
Energy, Science and Technology has, however, been limited primarily to 
the support of nuclear engineering research, student fellowships, and 
the Innovations in Nuclear Infrastructure and Engineering (INIE) 
program initiated in 2002, which will provide limited facility upgrade 
and operating support for a few URRs. The NSF response of 23 May 2001 
to Senator C. Bond focuses mainly on the student fellowship programs 
available as part of the nuclear physics program, and does not address 
the important need for NSF funding to support and promote basic NRS 
research. In light of the broadened scope of the NSE programs and URRs 
in recent years and the importance of NRS research programs to the 
Nation, NEDHO and TRTR request that NSF initiate a separate program to 
fund NRS research activities in broad disciplines including 
engineering, physics, chemistry, geology, and environmental sciences. 
We request an initial funding level of $20M/year for the Nuclear and 
Radiation Science Program in the Division of Chemical and Transport 
Systems, Directorate for Engineering. In light of the modest funding 
level, we further request that the NRS Program be restricted to the 
research and instructional activities of U.S. academic institutions.
    There are many programs within the National Science Foundation that 
would benefit from the application of radiation either as a diagnostic 
tool or for material modification processes. Achieving full benefits of 
these applications will require significant research in NRS, which we 
believe is best addressed via a focused program within NSF. A focused 
NRS Program would provide for much better coordination of research 
activities across various science and engineering disciplines that 
would benefit from this core research.

Potential NRS Areas for NSF Support

    The focus of NRS programs lies in the study of mechanisms of 
interaction of ionizing radiation of various types with matter and in 
scientific applications of radiation. In addition to the enhanced 
applications of ionizing radiation in physical sciences and 
engineering, there has been increased interest in recent years in 
applying radiation science to medical diagnosis and therapy and to 
radiation safety. There is an urgent need identified for the 
development of accurate and efficient surveillance systems and assaying 
devices for special nuclear material in homeland security.
    The core of NRS can be subdivided into several sub-topics. 
Radiation transport analysis and simulation is necessary to design and 
interpret results from diagnostic tools, detection devices, and 
material modification processes. Modeling of radiation transport still 
represents a very challenging computational problem where the merging 
of computer science, applied mathematics and physics is very much 
needed. A focused program within NSF would build upon the substantial 
investments that the Department of Energy is making in developing 
radiation transport modeling capabilities in support of national 
defense.
    Instrumentation development is of great importance in support of 
developing diagnostic tools and material modification processes. With 
the rapid development of advanced materials for non-nuclear 
applications, there has been demonstrated a great potential for spin-
offs in the development of radiation detection instruments, which would 
play an important role in homeland security. In conjunction with 
instrumentation development is the required research on signal 
processing from both a hardware and software viewpoint.
    None of the above activities would be possible without research on 
enhanced radiation sources. There are substantial opportunities in 
developing radiation sources of the desired type, intensity, energy, 
coherence and polarity, customized to the specific diagnostic tool or 
material modification process. In addition, specialized radiation 
sources are required to support fundamental nuclear research, such as 
is possible with ultra-cold neutron sources.
    Finally, it is readily recognized that engineers and scientists 
trained in NRS will be required to support a number of key scientific 
programs, including the Spallation Neutron Source under construction at 
Oak Ridge. In this regard, training of graduate students in neutron 
scattering, neutron activation analysis, neutron radiography, and 
related fields would make effective use of URRs and should be 
considered as an integral part of the NRS program.
    Thus, the proposed NRS Program would provide natural and 
synergistic collaboration with a number of existing NSF Divisions:

        <bullet> LRadiation transport analysis: Bioengineering and 
        Environmental Systems, Atmospheric Sciences, Astronomical 
        Sciences, Environmental Biology, Mathematical Sciences, and 
        Physics.

        <bullet> LRadiation detection and diagnostics: Astronomical 
        Sciences, Materials Research, and Physics.

        <bullet> LAdvanced radiation sources and URRs: Materials 
        Research, Earth Sciences, Ocean Sciences, Design, Manufacture, 
        and Industrial Innovation, Environmental Biology, and Physics.

    In the following sections of this white paper are presented 
specific areas of research that would benefit from a core research 
program focused on nuclear and radiation science.

1. LRadiation Transport Analysis

(a) LRadiation Transport Computational Methods

        <bullet> LStarting from the Manhattan Project, obtaining 
        accurate solutions to radiation transport equation has been a 
        challenge.

        <bullet> LFast and accurate methods are important especially 
        for real-time transport analysis for clinical applications and 
        the design of the future generation of nuclear power plants.

(b) LHealth Effects of Ionizing Radiation

        <bullet> LLinear No-Threshold regulations rely on data of 
        Japanese bomb survivors and radiation accident victims, and may 
        entail waste of financial resources.

        <bullet> LFurther study will be necessary to determine if 
        repair mechanisms inherent in biological cells could provide a 
        threshold for deleterious effects of ionizing radiation.

2. Radiation Detection and Diagnostics

(a) LRadiation Detection and Measurements

        <bullet> LFundamental to safe and effective uses of ionizing 
        radiation for medical, scientific, and industrial applications 
        is the ability to identify minute quantities of radiation.

        <bullet> LDevelopment of miniaturized, robust radiation 
        detectors would contribute significantly to medical therapy, 
        space physics, and astrophysics as well as homeland security.

(b) LRadiation Imaging and Therapy

        <bullet> LSignificant enhancements are necessary in imaging 
        tools and associated software for accurate delivery of 
        radiation doses, to make full use of portable radiation 
        detectors.

        <bullet> LAlternate radiation treatment modalities, including 
        proton beam, neutron capture, and heavy ion therapies, offer 
        large potential benefits.

(c) LRadiation Safety

        <bullet> LProtection of the public and radiation workers from 
        deleterious effects of radiation requires further study to 
        accurately determine internal and external radiation doses.

        <bullet> LAdvanced radiation facilities rendering minimum doses 
        to patients and operators should implement risk-based control 
        and regulation of radiological procedures.

(d) LNon-destructive Testing

        <bullet> LNeutron activation analysis (NAA) identifies trace 
        quantities of impurities or special-purpose materials in 
        scientific, industrial, and environmental applications.

        <bullet> LPrompt gamma (PG) NAA enhances discrimination against 
        background and identifies light elements, for medical, 
        industrial, and homeland security applications.

3. LAdvanced Radiation Sources and University Research Reactors

(a) LAr/Ar Geochronology

        <bullet> LMeasurement of <SUP>39</SUP>Ar, produced through 
        neutron irradiation of <SUP>39</SUP>K, and of <SUP>40</SUP>Ar, 
        formed through natural decay of <SUP>40</SUP>K, yields the age 
        of geological samples.

        <bullet> LThe technique enables geologists to study volcanic 
        eruptions, geological faults, glacial and ocean plate 
        movements, and oil and gas deposits dating back a billion 
        years.

(b) LRadiochemical and Tracer Study

        <bullet> LURRs have active programs to produce radioisotope 
        tracers for scientific, medical and industrial applications.

        <bullet> LSignificant funding will be required to develop fully 
        functional radioisotope production facilities at select URRs 
        for clinical trials of radiopharmaceuticals.

(c) LNeutron Scattering

        <bullet> LNeutron powder diffraction instruments and cold 
        neutron sources at URRs offer significant potential in 
        condensed matter physics and materials science.

        <bullet> LSuch facilities offer opportunities to perform 
        campus-based research in material structure studies and train 
        undergraduate and graduate students in multiple disciplines.

(d) LBoron Neutron Capture Therapy

        <bullet> LNeutron beams at URRs have been used in clinical 
        trials to study the efficacy of boron neutron capture therapy 
        for the treatment of brain tumors.

        <bullet> LSignificant research will be required to determine 
        the proper modalities of this cancer therapy, including the 
        utilization of epithermal neutrons.

(e) LNeutron Radiography and Radioscopy

        <bullet> LNeutron radiography uses a beam of neutrons to image 
        light materials, particularly hydrogenous fluids, contained 
        within metallic structures.

        <bullet> LSignificant research will be required to obtain 
        quantitative imaging capability for neutron radiography, 
        especially for real-time applications.

(f) LPositron Beam

        <bullet> LPositrons are produced by neutron capture and 
        subsequent photon annihilations, and used as sensitive probes 
        to investigate the structure and defects in heavy materials.

        <bullet> LLow-energy positrons are easily trapped in vacancy-
        type defects of atomic dimensions, providing accurate 
        information on the near-surface structure.
                   Answers to Post-Hearing Questions
Responses by David M. ``Mike'' Slaughter, Director, Center for 
        Excellence in Nuclear Technology, Engineering, and Research; 
        Chair, Nuclear Engineering Program, University of Utah, Salt 
        Lake City

Introduction

    The statements herein respond to individual questions, both 
Majority and Minority, received from Congress, and are intended to 
provide a more comprehensive and integrated understanding of issues 
that surround those questions. Each section identifies in brackets the 
specific questions that are addressed by the response.

University Role in Education/Technology Creation [Majority 2, 3, 4; 
                    Minority 1, 2]:

    A public-supported university operates on a limited budget from its 
state legislature. Upper level administrators at universities and 
colleges are challenged by the reality that their educational 
institution must deliver a quality educational experience with limited 
resources. No single institution can offer every academic and 
professional program. Thus, university stakeholders focus support on 
programs that best enhance the success of the students, faculty, 
academic institution, State, and industries within their geographic 
area.
    Local, national, and international needs, as well as our nation's 
chosen role in the international community, influence the number of 
nuclear engineering and University Research Reactor (URR) programs that 
exist in the United States. The continuation and maintenance of 
existing technology is closely tied to the number of students who 
enroll in Nuclear Engineering or other nuclear-related disciplines, 
successfully graduate with a Bachelor of Science degree, and 
immediately enter the workforce. It is the students who go on to 
graduate school to earn Master of Science (MS) and Doctor of Philosophy 
(Ph.D.) degrees that become the creators of innovative future 
technologies. They are also the engineers and scientists who teach at 
universities, perform basic and applied research at national 
laboratories, operate and manage nuclear facilities, enter government 
service, and start up and lead commercial businesses. It takes a 
minimum of 8 to 10 years to develop an advanced degree nuclear engineer 
and scientist. Yet our current education and research infrastructure at 
universities is grossly lacking for this latter group when you consider 
the importance and extent of their roles.
    If we desire only to maintain current U.S. nuclear technologies as 
a nation and with respect to our international community (running in 
place, if you will), then we must now encourage and optimize the use of 
limited education resources for students who choose to enter the 
workforce with a BS degree in nuclear engineering or in a nuclear-
related field. Such support is felt broadly across all engineering and 
science programs. The academic laboratory and research facilities and 
the educational curriculum associated with nuclear engineering and 
research reactor programs are also used by students earning other 
engineering and science degrees. However, the choice to simply maintain 
technologies comes at a high price: It means that the United States 
would and could no longer be a world leader in technological 
advancements and such role would fall on other nations to provide 
guidance and breakthroughs for future technologies. The United States 
would not reap the full economic benefit of new technologies. In 
addition, our nation would clearly be hampered in its ability to 
improve all aspects of the fuel cycle (fuel manufacture, power 
generation, fuel recycle/disposal) associated with nuclear power 
applications. It would soon be beyond our capability to design the next 
generation of nuclear power technology that will require advanced fuels 
for remote locations (such as for exploration of the ocean floor and 
space travel).
    From an energy perspective only, this may not be perceived as a 
major concern if the United States chooses to significantly reduce or 
eliminate the generation of electricity via nuclear power. However, the 
technical understanding and development capabilities of the U.S. would 
be reduced in many other strategically important applications: nuclear 
weapons, nuclear medicine, radiopharmaceuticals, material science, 
radiation detection and protection, nuclear material diagnostics, and 
neutron transport--to name just a few in nuclear-related fields. The 
truth is the impact would be felt on downstream industries in energy, 
transportation, environment and national resources, and future 
industries that we cannot conceive of because they have not yet come 
into being.
    Our graduate-degree recipients are most likely to advance our 
national understanding and capabilities. An investment now in programs 
for these graduate students allows the United States to continue to 
play a predominate role in the international community. Their sustained 
role as nuclear technology creators and leaders assures a secure and 
technologically balanced future for the United States, in spite of 
dramatic global shifts in political, social, and economic arenas.
    At the University of Utah, we restrict admission in the Nuclear 
Engineering Program to a maximum of 12 graduate students at any given 
time who are pursuing either an MS or Ph.D. Our educational program 
consists of an intensive and broad study of nuclear phenomena and 
engineering. The restriction on the number of students allowed into the 
graduate program ensures sufficient time for students and faculty to 
interact on a variety of levels, allows students to gain access and 
utilize limited yet extremely sophisticated equipment and resources, 
and provides a quality educational experience overall. University of 
Utah MS and Ph.D. candidates are required to participate in academic 
classes and laboratories, research reactor operations, and compliance 
activities associated with our Nuclear Regulatory Commission (NRC) 
regulatory program; to serve on multi-disciplinary national and 
international research teams with industrial/government partners; and, 
of course, to pursue their independent research in partial fulfillment 
of their degree.
    The conclusions of Dr. Kammen and Ms. Howard concerning projected 
numbers of required trained nuclear workers over the next ten years 
significantly differ because of their critically different 
perspectives. This is not a surprise given that these colleagues have 
opposing views regarding the future of the nuclear power industry. In 
my opinion as a nuclear engineering professional and scientist, the 
conservative figure of ``500-700'' that Dr. Kammen estimates is 
indicative of a profoundly declining industry rather than one that is 
attempting to maintain its technical expertise. Ms. Howard's estimate 
of ``20,000'' represents a significant growth that does not reflect the 
current political/social limitations that will temper that forecast. 
Unfortunately, both estimates at opposite ends of the spectrum not only 
arise from greatly diverse perspectives, but also incorporate widely 
differing uncertainties. It is not how many we educate that is the core 
question, but what our engineers and scientists will do with their 
education that determines our future needs.

Technical Alliances and INIE [Majority 5, 6; Minority 4]:

    Developing special education and technical alliances allows 
curriculum and special research facilities to be shared by a number of 
university nuclear engineering and research reactor programs, and the 
idea of equitably sharing resources is both positive and practical. If 
properly implemented, the potential benefits for education and research 
are far greater than the sum of technical accomplishments achieved by 
individual and separate institutions.
    Partnership with other educational and research programs 
potentially results in an integration of expensive instrumentation 
along with the complex activities required for experimental studies 
(for example, using BNCT and neutron diffractometers or creating 
radiopharmaceuticals), and enlarges creativity within the available 
pool of experienced faculty and graduate students. Proper teaming of 
equipment and investigators is essential to avoid duplication or 
excessive overlap of tasks and program elements.
    The Innovations in Nuclear Infrastructure Education (INIE) program 
was not conceived or intended to include all university research 
reactor programs. It was designed with competitive solicitation in 
mind, based on finite resources, as are all our other funding 
opportunities. INIE enabled the development of innovative educational 
and research tools to be used in university programs, which allowed 
university faculty and students with industry involvement to evolve our 
educational infrastructure to a new level. In the beginning, the 
program was structured to fund innovative and regionalized education/ 
research/facility concepts in the field of nuclear engineering and 
research reactor programs. Proposed INIE Centers that had made an 
initial unsuccessful attempt could refine their innovative concepts for 
later submission as additional funds became available. The INIE program 
was not an entitlement nor did it seek a preconceived number of INIE 
Centers.
    While participating INIE Centers are required to track their 
progress toward proposal goal(s), it is not clear in practice that INIE 
funds will be reduced or eliminated when a center's progress is deemed 
insufficient or unsatisfactory. By choice, a number of universities 
that had research reactor programs did not participate in the program 
or did not follow-through with a proposal. Unfortunately, in addition, 
some promising proposals were ill-fated due to confusing changes in the 
solicitation requirements. Ultimately, this process--not the INIE 
program itself--resembled no other Request for Proposal (RFP) that 
participants had ever been involved in. The evolution of the INIE 
Centers program heavily underscores how much implementation, positively 
or negatively, impacts the actual delivery of an innovative program far 
beyond its original conception.
    Lead universities may find it difficult in the current economic 
climate to embrace other research reactor programs into their own 
existing facilities without sufficient seed funds to make the 
transition. A reallocation of the current level of funds may endanger 
the ability of INIE Centers to effectively fulfill existing grant 
obligations. If other university research reactor programs are assigned 
without an increase in financial support, affected INIE Centers should 
be allowed to amend their grant objectives and schedules to accommodate 
the burden.
    Reprogramming dollars and shifting solicitation parameters after 
proposals have already been approved for funding have grave 
consequences on the short- and long-term financial stability of 
research reactor programs, most of which are already operating on 
extremely lean resources and staff to vie competitively for 
solicitations. As a program administrator and scientist, I work tightly 
within the given restrictions when I am fully aware of the available 
funds and the process in which I will be judged. I ensure that our 
budget is appropriate for the proposed tasks and the proposal closely 
matches the solicitation so that our program is more often successful 
in gaining approval and awards. We obviously cannot and do not submit 
for every possible Request For Proposal (RFP); for example, the 
University of Utah has not submitted a proposal for a NERI grant as it 
is not applicable, at least to our program. Other nuclear engineering 
departments and programs may have faculty and/or an infrastructure more 
capable or more attuned to contribute effectively to that grant's 
objectives. When awarded funding is suddenly reduced or solicitation 
parameters altered post-submission, or changes occur in the review 
process and merit criteria, the award/submission ratio also drops, and 
the result is higher risk to the program attempting to secure financial 
strength and constancy.

NRC Security Obligations [Majority 0; Minority 3]:

    The University of Utah has always taken its security obligations 
seriously; we have an Emergency Plan and Security Plan that cover any 
existing risks, just as all other universities with research reactors 
do. Research reactors at most universities pose a far lower risk in 
reality than is perhaps perceived by a community at large, in main part 
because the public lacks understanding of the differences between 
reactors and their purposes and any potential risks. Nevertheless, in 
the post-9/11 environment, existing Security Plans at universities 
underwent extensive review with revisions as necessary, security 
measures were fine-tuned, monitoring facilities were expanded, and 
increased personnel training was implemented. The University of Utah 
and other universities with research reactors are concerned that the 
Nuclear Regulatory Commission (NRC) may require additional security 
measures that provide no substantially increased security benefit (such 
as when a legitimate risk factor is reduced or eliminated). Costs 
associated with existing new security requirements, along with 
potential new requirements, ultimately will be borne by the university 
and its research reactor program unless Congress appropriates 
sufficient funds to upgrade facilities to properly implement new 
security measures required by the NRC.

Available University Reactors and Funding Paradigm [Majority 1; 
                    Minority 1, 4, 5]:

    The determination of the number of research reactor facilities in 
the United States should never fall solely on our Federal Government, 
in part due to the nature and complexity of the facilities themselves. 
The small and finite number of university research reactors currently 
operating in the United States vary in power and possess diverse 
technical capabilities--capabilities that are best assessed by the 
nuclear engineers and scientists who comprise teaching faculty at our 
universities. Universities have knowledge of various research efforts, 
trends, and advances; are aware of where students are enrolling and 
focusing their studies; and support the directions their faculty are 
taking in programs to ensure not only well trained graduates but 
graduates who have fostered their imaginations and have vision. 
Universities perceive research reactors as fundamental resources to be 
cultivated over time, decade after decade, so that they will be readily 
available to stimulate future minds and, ultimately, solutions. 
Finally, universities already seek input from both industry and 
government in estimating national need. In addition to self-regulation 
by universities, the NRC regulates licenses and monitors the vitality 
of university research reactors. Thus, the current system combines a 
diverse cross-section of different research and teaching interests with 
practical perspective derived from industry and government and has 
built-in federal NRC safeguards. Universities remain the best 
organizations to gauge current and future needs.
    Federal resources are limited and shrinking. The challenge is to 
use these valuable and finite financial resources to ensure that 
educational and research capabilities at universities across the Nation 
are not inadvertently lost. Federal funds should be used to offset 
costs associated with NRC regulatory activities, to maintain state-of-
the-art instrumentation for research reactor operation, and to promote 
more effective use of facilities. Federal matching programs to 
universities that encourage industry involvement with students in 
university research reactor programs have a three-fold effect: Such 
funds stimulate U.S. industry in developing new nuclear applications 
and technologies, allow access to cutting-edge research and development 
from universities, and reciprocally provide students superior hands-on 
educational experiences in real-world industries, contributing to their 
future success.
    Although instrumentation and reactor-sharing programs currently 
exist, they are funded at conservatively low levels. Support needs to 
be increased to $1M each. An innovative industrial matching program 
could mirror and expand the existing structure of university matching 
fund grants available to many nuclear engineering departments or 
programs. The DOE would provide a financial match when an industry 
donates funds for unrestricted use in maintaining and advancing the 
research reactor capabilities, up to a specified limit (for example, 
$50,000). Thus, a $50,000 donation from industry would result in a 
$50,000 match from the DOE. If the donation was of a lesser amount, say 
$5,000 from the industrial contributor, then the DOE obligation would 
only be for that amount. An industry matching funds program would 
provide an incentive for industry to participate in developing and 
enhancing educational and research facilities.
    Funds are needed from the DOE (approximately $10M) for universities 
with research reactors to reimburse costs associated with complex 
activities that comply with NRC regulations. Such reimbursement lowers 
the costs of operation of university research reactors to levels 
competitive with the operational costs of other educational, 
engineering, and science laboratories. It also allows education and 
research costs to be reimbursed at equivalent levels. Federal agencies 
have had no hindrance in compensating direct costs due to activities on 
grants and cooperative agreements. However, the costs associated with 
NRC regulatory activities are independent of specific educational and 
research tasks, and are required to be performed regardless of value as 
an educational or research task. Currently, the costs associated with 
NRC activities are not accounted for in negotiated and accepted 
institutional Facilities and Administration (F&A) overhead rates.
    Universities should continue to cover the costs associated with 
performing educational lecture and laboratory classes, faculty, and 
teaching assistants. When appropriate, governmental agencies (such as 
DOE, NIH, NSF, DOD, etc.) that outsource research opportunities (for 
example, NERI, NEER, and INIE) to universities with research reactors 
should cover allowable direct costs (use of facilities, supplies, 
graduate students and faculty). The INIE program should be refocused, 
and its scope and cost scaled to its original intent to develop 
curriculum and special research facilities for regional use. In no 
circumstance should federal funds displace university and industry 
contributions.
    Industries should be encouraged to fairly compensate universities 
for technology development, service activities, and use of university 
resources (both research reactors and brainpower). A matching funds 
program for industries would provide an alternative source of funding 
that advances university research and educational capabilities. 
Industry participation, with its focus and perspective on cost 
effectiveness, timeliness, and ergonomic design, enhances university 
programs and provides greater educational breadth and depth for 
students.
                              Appendix 2:

                              ----------                              


                   Additional Material for the Record


<SKIP PAGES = 000>

                      Statement of Harold L. Dodds
Ph.D., P.E., IBM Professor of Engineering and Department Head, Nuclear 
       Engineering Department, University of Tennessee-Knoxville

Introduction

    Chairman Biggert, Mr. Lampson, and Members of the Subcommittee, it 
is indeed an honor and a pleasure to provide written testimony on the 
capability of university nuclear engineering programs to produce 
graduates to help meet energy, environmental, economic, human health, 
and security needs of the United States. My initial comments will 
address the importance of nuclear energy and nuclear technology to 
society, and the current status of nuclear engineering workforce supply 
and demand in the United States. I will then describe what The 
University of Tennessee Nuclear Engineering Department is doing to 
affect the supply side of the nuclear engineering workforce issue 
while, at the same time, maintaining high quality standards for its 
graduates. Finally, I will conclude with some suggestions on what the 
Federal Government should be doing, in my opinion, to address the 
nuclear workforce issue.

Importance of Nuclear Energy and Technology

    Nuclear generated electricity constitutes 20 percent of the total 
amount of electricity generated in the United States and is currently 
our least expensive major source of electricity according to the 
Utility Data Institute. It is also the most environmentally benign of 
the major energy sources in that it produces essentially no air 
pollution including no greenhouse gases that can lead to global climate 
change. Coupled with hydrogen production for transportation and other 
end-use energy needs, nuclear energy has the potential to be the 
``savior of our planet'' from an environmental point of view. Further, 
major improvements in human health have been made possible by nuclear 
technology via improved diagnostic and therapeutic medical procedures, 
and by making food safer for human consumption. Also, many commercial 
industries rely on nuclear techniques for monitoring and quality 
control in manufacturing and for increased productivity (e.g., nuclear 
instruments are used in oil well logging). Finally, and most 
importantly, nuclear energy has the potential to greatly reduce and 
eventually eliminate our dependence on foreign energy sources (e.g., 
foreign oil), which is vitally important to the energy and economic 
security of our nation. In short, nuclear energy and technology is a 
commodity-type resource that has become indispensable to our standard 
of living and our way of life, and therefore must be sustained.

Role of University Nuclear Engineering Programs

    Nuclear engineering and health physics programs at universities in 
the United States have the responsibility and the commitment to supply 
graduates who satisfy workforce needs in these strategically important 
nuclear areas. Up to now the workforce supply has, for the most part, 
met demand thanks to support from the United States Department of 
Energy (DOE) Office of Nuclear Energy, Science and Technology, which 
has provided critically needed financial support for student 
scholarships, fellowships, and infrastructure improvements in 
university nuclear engineering programs. Similar financial support has 
also been provided by several nuclear power utilities. The financial 
support provided by DOE and nuclear utilities is responsible for many 
students entering the nuclear engineering field, which is the main 
precursor that enables workforce supply to meet demand. However, the 
current ``graying'' of the nuclear workforce in the United States 
(i.e., 30 percent can retire within five years) indicates there will be 
a shortage of nuclear engineering graduates in the near future. An 
increased level of financial support from DOE and the commercial 
nuclear industry for additional scholarships, fellowships, and 
infrastructure improvements would help to mitigate the shortage. Even 
greater DOE support as recommended by the May 2000 NERAC report 
(Nuclear Energy Research Advisory Committee), also called the Corradini 
report, would be an even better approach to mitigate the shortage.

University of Tennessee Nuclear Engineering Distance Education Programs

    To address the impending shortage and also to respond to the needs 
of a significant segment of society, the University of Tennessee 
Nuclear Engineering (UTNE) Department has implemented four new distance 
education programs, which are delivered live and interactive over the 
INTERNET in real time to the student's computer. These four programs 
are the Master of Science Degree in Nuclear Engineering; a Graduate 
Certificate in Maintenance and Reliability Engineering; a Graduate 
Certificate in Nuclear Criticality Safety; and a Colloquium Program 
that is free and open to the public as well as to students and faculty. 
The Colloquium Program consists of weekly presentations by experts from 
industry, academia, and government laboratories, and is a major 
outreach activity for our department. The Colloquium presentations are 
also archived on our website for posterity (see http://
www.engr.utk.edu/nuclear/colloquia/. UTNE is the only nuclear 
engineering program in the United States with a weekly Colloquium 
Program that is delivered live and interactive over the INTERNET (i.e., 
webcast).
    These four new distance programs augment the traditional model of 
students coming to campus to pursue an education with a new paradigm 
that ``takes the university to the students.'' Thus, students who want 
to study nuclear engineering, but do not live or work close to a 
university with a nuclear engineering program, can pursue their 
educational goals from their home or office (or on the side of a 
mountain in Nepal) provided they have a computer connected to the 
INTERNET (for the student vacationing in Nepal, his laptop was 
connected to the INTERNET via satellite). In other words, UTNE distance 
education programs have opened the door of nuclear engineering 
education to a huge market of people who would otherwise pursue a 
different educational objective because of convenience, or pursue no 
educational objective at all. To illustrate, our distance programs have 
led to an almost 50 percent increase in UTNE graduate enrollment over 
the past two years with distance students from New York to Brazil and 
from Chicago to Birmingham, Alabama. The increase in our graduate 
enrollment combined with the increase in our undergraduate enrollment 
due to aggressive undergraduate recruiting has resulted in UTNE 
becoming the second largest nuclear engineering program in the United 
States based on total student enrollment.
    More importantly, the quality of our distance programs is the same 
as our local on-campus programs in that the distance students take the 
same courses simultaneously with local students. Concurrent course 
delivery is accomplished by using a big-screen, touch sensitive Smart 
Board in the local classroom, which permits the same information to be 
presented to local students (both audio and video) that is presented to 
distance students via the INTERNET. Distance students can ask questions 
vocally in real time just like local students, and vocal answers by the 
instructor are available to both local and distance students in real 
time. In addition, distance students can collaborate on projects with 
local students and make presentations that are available to all 
students, both local and distance, and to the instructor in real time. 
Although the quality of our distance programs has not been compromised 
relative to our local on-campus programs, attending class in person is 
still probably the first choice of most people. But this first choice 
is not an option for many who have families and hold full-time jobs 
(e.g., employees at remote nuclear power plants and other remote 
locations). Thus, UTNE distance education programs enhance the supply 
side of the nuclear engineering workforce by providing the only 
alternative available to many people.

Conclusions and Recommendations

    While increased financial support from DOE as indicated above is 
certainly a move in the right direction in addressing the nuclear 
workforce issue, what is needed even more is strong leadership from the 
highest levels of government to advocate and promote nuclear energy and 
technology. Government advocacy should be accompanied by meaningful 
actions such as loan guarantees to industry, and/or partnership with 
industry, for construction of a first-of-a-kind, next generation 
nuclear power plant. More importantly, recent polls (conducted after 9/
11) indicate that two-thirds of the American public support the 
expanded use of nuclear power. However, many of our government leaders 
still consider the ``nuclear'' word as something to be avoided 
politically (e.g., President Bush did not mention nuclear power in his 
2003 State of the Union Address). It appears that our leaders either do 
not know about the recent polls or do not believe their results.
    In summary, it is time for our government leaders to join with the 
American public in endorsing the expansion of nuclear energy and 
technology in the United States so that its many benefits to the 
environment, human health, national security, and our economy can be 
realized.

    Professor Dodds is Head of the Department of Nuclear Engineering, 
The University of Tennessee in Knoxville, Tennessee, where he has been 
a faculty member since 1976. He has served as a consultant with several 
government laboratories and industrial organizations including the Oak 
Ridge National Laboratory, Electric Power Research Institute, Exxon 
Research and Engineering Company, Technology for Energy Corporation, 
Schlumberger-Doll Research Corporation, U.S. Department of Energy, 
Argonne National Laboratory, Westinghouse Savannah River Company, EG&G-
Rocky Flats Plant, Energieonderzoek Centrum Nederland, CANDUOwners 
Group, Cameco Corporation, and the Dupont Company. He is a member of 
the DOE Nuclear Engineering University Working Group and a Fellow of 
the American Nuclear Society.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
